U.S. Department of Justice
Office of the Inspector General



 The Immigration and Naturalization Service's
 Contacts With Two September 11 Terrorists:
 A Review of the INS's Admissions of Mohamed Atta and
 Marwan Alshehhi, its Processing of their Change of Status
 Applications, and its Efforts to Track Foreign Students in
 the United States


 C-4 Crack Cocaine




                    DRAFT



                                  Office of the Inspector General
                                                    May 20, 2002
                                 TABLE OF CONTENTS

TABLE OF CONTENTS............................................................................... i
EXECUTIVE SUMMARY .......................................................................... 1

CHAPTER ONE: INTRODUCTION.......................................................... 19
I.     Introduction ....................................................................................... 19

II.    Organization of the Report.................................................................. 21
CHAPTER TWO: BACKGROUND........................................................... 23

I.     Organizational Structure of the INS .................................................... 23
II.    Visitor Visas ...................................................................................... 25
       A. Entrance of nonimmigrants into the United States ........................ 25
       B. Description of visitor visa classifications ..................................... 25
       C. Length of stay permitted by the visitor visa.................................. 28
            1. Period of validity of the visa................................................. 28
            2. Length of admission under the B-1/B-2 classification............ 28

III.   Foreign Students ................................................................................ 29
CHAPTER THREE: ATTA’S AND ALSHEHHI’S ENTRIES INTO
   THE UNITED STATES ..................................................................... 32
I.     Introduction ....................................................................................... 32

II.    The Inspection Process ....................................................................... 32
       A. The primary inspection process ................................................... 33
       B. The secondary inspection process................................................ 35
III.   Atta’s Entries into the United States.................................................... 36
       A. Atta’s first entry – June 3, 2000, Newark, New Jersey .................. 37
       B. Atta’s second entry – January 10, 2001, Miami, Florida................ 37
            1. Processing Atta at the POE................................................... 37
            2. OIG analysis........................................................................ 41
            3. Effect of departure while change of status application is
                pending ............................................................................... 45


                                                     i
              4. Atta’s length of admission.................................................... 47
       C.     Atta’s third entry – July 19, 2001, Miami, Florida ........................ 49

IV.    Alshehhi’s Entries into the United States............................................. 50
       A. Alshehhi’s first entry – May 29, 2000, Newark, New Jersey ......... 50
       B. Alshehhi’s second entry – January 18, 2001, New York,
           New York................................................................................... 52
       C. Alshehhi’s third entry – May 2, 2001, Miami, Florida .................. 55
V.     OIG Conclusions on the INS’s Admission of Atta and Alshehhi........... 56

CHAPTER FOUR: THE INS’S DELAYED PROCESSING OF ATTA’S
   AND ALSHEHHI’S APPLICATIONS FOR CHANGE OF
   STATUS............................................................................................ 59
I.     Introduction ....................................................................................... 59

II.    Process to Obtain Nonimmigrant Student Status .................................. 59
III.   Huffman Aviation’s Initiation of Atta’s and Alshehhi’s Applications
       for Change of Status........................................................................... 61
IV.    Processing at the Texas Service Center................................................ 63
       A. INS service center organization and mission ................................ 63
       B. Processing and adjudication of I-539 applications for change of
           status.......................................................................................... 66
           1. Pre-adjudication processing.................................................. 66
           2. The adjudication process...................................................... 69
       C. The TSC did not adjudicate Atta’s And Alshehhi’s I-539
           applications in a timely manner ................................................... 70
           1. RAFACS history for Atta’s I-539 application ....................... 71
           2. RAFACS history for Alshehhi’s I-539 application ................ 72
           3. Backlogs at the TSC ............................................................ 73
           4. Delay in the transmission of the school I-20 form to ACS...... 76

V.     ACS’s Processing of the School Copies of Atta’s and Alshehhi’s I-20
       Forms ................................................................................................ 77
       A. ACS contract to process INS immigration forms .......................... 78
       B. How ACS processes I-20 forms................................................... 79



                                                      ii
      C.    The mailing of Atta’s and Alshehhi’s I-20s to Huffman
            Aviation ..................................................................................... 82
      D.    OIG’s analysis of ACS’s processing of the I-20s .......................... 84
            1. Atta’s and Alshehhi’s I-20s were handled in the same
                manner as other I-20s received by ACS at the time................ 84
                a. Atta’s I-20.................................................................... 84
                b. Alshehhi’s I-20 ............................................................ 85
            2. The contract requirements for handling I-20s after
                processing ........................................................................... 86
VI.   OIG Conclusions Regarding the Delay in Sending the I-20 Forms to
      Huffman Aviation .............................................................................. 90
VII. Adjudication of Atta’s and Alshehhi’s I-539s ...................................... 91
     A. Requirements for approval for I-539 change of status ................... 91
         1. Signature requirement .......................................................... 93
         2. Proof that applicant timely filed the application .................... 94
         3. Evidence requirement .......................................................... 95
     B. Length of stay for nonimmigrant vocational students.................... 96
     C. Information that could have affected the adjudication................... 98
         1. Completion of the course by Atta and Alshehhi on
              December 19, 2000.............................................................. 98
         2. Lack of sufficient hours for “full course of study”............... 100
         3. Departures by Atta and Alshehhi while their I-539
              applications were pending .................................................. 100
     D. Production pressures and the I-539 ............................................ 101
     E. OIG conclusions regarding the adjudication of Atta’s and
         Alshehhi’s change of status applications .................................... 103
CHAPTER FIVE: THE INS’S FAILURE TO STOP DELIVERY OF
   THE I-20S TO HUFFMAN AVIATION........................................... 105
I.    Introduction ..................................................................................... 105
II.   Actions of ACS and INS Employees ................................................. 105
      A. Actions of ACS......................................................................... 105
      B. Actions of the TSC personnel and INS Headquarters managers
           overseeing the service centers.................................................... 106
           1. Retrieval of the Atta and Alshehhi files at the TSC.............. 106
           2. Actions taken by TSC and INS Headquarters managers....... 109

                                                   iii
             3.  Reasons TSC and Immigration Services Division personnel
                 did not stop the I-20s before they were mailed to Huffman
                 Aviation ............................................................................ 110
                 a. TSC personnel ........................................................... 110
                 b. Immigration Services Division managers .................... 111
             4. OIG analysis...................................................................... 113
       C.    Actions of INS Headquarters Enforcement Division personnel ... 116
             1. Organization of Enforcement Division................................ 116
             2. Events at INS Headquarters on and around September 11.... 117
             3. Enforcement Division requests for information and the
                 handling of Atta’s and Alshehhi’s files ............................... 118
             4. Reasons stated by Enforcement personnel for not asking
                 for all INS records or files related to the terrorists ............... 119
             5. OIG analysis...................................................................... 120

III.   The INS’s Response to OIG Criticism............................................... 122
CHAPTER SIX: THE INS’S FOREIGN STUDENT PROGRAM.............. 124
I.     Introduction ..................................................................................... 124

II.    Background...................................................................................... 124
       A. Scope and methodology of review ............................................. 125
       B. Statistics on student visas .......................................................... 126
       C. The student visa application process.......................................... 127

III.   Deficiencies in the Foreign Student Program ..................................... 129
       A. Inadequacies in the INS’s process for approving schools ............ 129
           1. Legal requirements for schools to be certified to accept
                foreign students ................................................................. 129
           2. The I-17 petition and the INS’s certification process ........... 132
           3. Inadequate resources devoted to school approval process .... 132
           4. Lack of in-person interviews and site visits prior to
                approval ............................................................................ 133
           5. Lack of re-certifications ..................................................... 135
           6. Review of Huffman Aviation file ....................................... 136
       B. Lack of security features on I-20 forms...................................... 139
       C. Inadequacies in collecting information concerning student
           status........................................................................................ 140


                                                    iv
      D.    Deficiencies in the Student and Schools System (STSC)
            database.................................................................................... 141
      E.    Lack of enforcement ................................................................. 144
      F.    Lack of training for designated school officials and INS schools
            officers ..................................................................................... 144
IV.   Student and Exchange Visitor System (SEVIS) ................................. 146
      A. History of SEVIS...................................................................... 146
      B. How SEVIS will work .............................................................. 150
          1. Data to be collected in SEVIS concerning foreign students
               and exchange visitors......................................................... 151
          2. Data to be collected concerning schools.............................. 152
          3. SEVIS procedures.............................................................. 152
               a. School certifications ................................................... 152
               b. Issuance of I-20 to foreign student .............................. 154
               c. State Department access to SEVIS .............................. 154
               d. Inspectors’ access to SEVIS and updating of student’s
                    record that student has entered the country .................. 155
               e. Updating of student’s record once student enrolls in
                    school........................................................................ 155
      C. Schedule for implementation..................................................... 157
V.    OIG analysis of SEVIS..................................................................... 157
      A. Deficiencies that SEVIS will address......................................... 158
          1. Improved data collection.................................................... 158
          2. Improving fraud detection and deterrence........................... 159
      B. Deficiencies SEVIS will not address.......................................... 160
      C. SEVIS implementation difficulties............................................. 161
          1. Ensuring that approved schools are re-certified prior to the
              January 30, 2003, implementation deadline......................... 161
          2. Collecting the processing fee as required by statute............. 163
VI.   Conclusion....................................................................................... 164

CHAPTER SEVEN: THE INS’S PROPOSED CHANGES
   REGARDING FOREIGN STUDENTS............................................. 166

I.    Introduction ..................................................................................... 166
II.   Proposed Processing Changes ........................................................... 166


                                                    v
       A.    Processing the student copy of the I-20 ...................................... 166
       B.    Database checks before I-539s are adjudicated ........................... 168
             1. Check of NIIS database...................................................... 168
             2. Check of the Interagency Border Inspection System............ 169
             3. Performance standards for CAOs........................................ 170
III.   Proposed regulatory changes............................................................. 171
       A. Proposed change: Aliens who enter the country without a
           student visa may not begin a course of study until their I-539
           petition for change of status to student has been adjudicated
           favorably. ................................................................................. 171
       B. Proposed change: A visitor entering the country must articulate
           reasons that would support a length of stay longer than 30 days,
           and if the visitor cannot the default admission period will be 30
           days.......................................................................................... 173
       C. Proposed change: Require prospective foreign students to
           demonstrate their intent to attend school at the time they are
           admitted on a B-1/B-2 visa in order to be eligible later to seek
           a change of status to F-1 or M-1. ............................................... 174
       D. Proposed change: Require flight schools to initiate background
           and fingerprint checks when a student seeks to learn how to fly
           a plane over 12,500 pounds....................................................... 177

CHAPTER EIGHT: RECOMMENDATIONS .......................................... 178
I.     Introduction ..................................................................................... 178

II.    Recommendations ............................................................................ 179
       A. Management of the foreign student program .............................. 179
       B. Recommendations that affect all foreign students ....................... 179
           1. Implementation of SEVIS .................................................. 179
           2. Defining “prospective student”........................................... 181
           3. Capturing information about part-time students................... 181
       C. Recommendations that affect nonimmigrants who wish to
           change their status to that of a student........................................ 182
           1. Adequate resources to ensure processing of I-539
               applications in 30 days....................................................... 182
           2. IBIS checks....................................................................... 183
       D. Recommendations that affect immigration inspectors ................. 183


                                                    vi
           1. Abandonment of I-539 applications .................................... 183
           2. I-193 waivers..................................................................... 184
      E.   General recommendations ......................................................... 184
           1. Performance standards for CAOs........................................ 184
           2. INS policies....................................................................... 184
CHAPTER NINE: CONCLUSION........................................................... 186




                                               vii
APPENDIX:


INS FORM I-94 (ARRIVAL DEPARTURE RECORD)............................. A-1
CHART REGARDING WAIVERS AT JOHN F. KENNEDY
INTERNATIONAL AIRPORT AND SEAPORT....................................... A-2
INS FORM I-539 (APPLICATION TO EXTEND/CHANGE
NONIMMIGRANT STATUS).................................................................. A-3
INS FORM I-20 (CERTIFICATE OF ELIGIBILITY FOR
NONIMMIGRANT STUDENT)............................................................... A-8
LIST OF RECOMMENDATIONS.......................................................... A-12




                                           viii
                        EXECUTIVE SUMMARY
      Mohamed Atta and Marwan Alshehhi were 2 of the 19 terrorists who
hijacked and crashed 4 airplanes on September 11, 2001, resulting in the deaths
of over 3,000 individuals, the complete destruction of the World Trade Center
Towers in New York City, and extensive damage to the Pentagon. Atta is
believed to have been the pilot who flew the plane into the Trade Center’s
North Tower. Alshehhi is believed to have flown the plane into the South
Tower. Both terrorists died in the attack.
      Six months later, on March 11, 2002, Huffman Aviation International, a
small flight training school in Venice, Florida, received official documents sent
by the Immigration and Naturalization Service (INS) relating to Atta and
Alshehhi. Both had taken pilot lessons at the flight school. In the spring of
2000, both had entered the United States legally using visitor visas, and in
September 2000 had requested that the INS change their status from that of
“visitor” to that of “vocational student” so they could attend the flight training
school. They did so by filing an I-539 “change of status” application with the
INS. The documents opened by the flight school on March 11, 2002, were INS
I-20 forms, which informed the school that Atta’s and Alshehhi’s applications
had been approved more than seven months earlier – Atta’s in July and
Alshehhi’s in August 2001. Within a day, media across the country were
reporting the story, and the INS came under intense criticism.
       On March 13, 2002, President George Bush directed the Attorney
General to investigate why the student status notifications were mailed to the
flight school six months after the terrorist attacks. The Attorney General
requested that the Office of the Inspector General (OIG) investigate the
circumstances surrounding the INS’s sending of the I-20 forms to Huffman
Aviation, including the source of the delay in the processing of the forms and
the failure to stop their delivery.

I.   The OIG Investigation, Scope of the Report, and Conclusions
       At the time the OIG received the Attorney General’s request, we had
already begun two reviews that were substantively related to the Huffman
Aviation incident. First, the OIG was examining the INS’s admissions of Atta
into the United States on three separate occasions. In addition, the OIG had
initiated a review of the process by which the INS tracks and monitors foreign
students who enter the United States.


                                        1
      In order to provide greater context to the investigation requested by the
Attorney General, the OIG accelerated our review of Atta’s entries into the
United States and broadened that inquiry to include a review of Alshehhi’s
entries into the United States. In addition, the OIG completed its review of the
INS’s foreign student tracking system. The results of both of those reviews are
incorporated into this report along with the results of the OIG investigation
requested by the Attorney General.
      To conduct our review, we assembled a team of three attorneys, four
special agents, and three program analysts. The OIG team conducted almost
100 interviews of personnel from INS Headquarters; the INS Texas Service
Center in Dallas, Texas; and the INS’s Miami, New York, Newark, and Atlanta
Districts, including inspectors at airports in these districts. We also
interviewed personnel from the Federal Law Enforcement Training Center
(FLETC); the Federal Bureau of Investigation (FBI); Huffman Aviation; and
two INS contractors involved in the processing of I-20 forms, Affiliated
Computer Services, Inc. (ACS) and Uniband Enterprises.
       This report contains three main sets of findings. First, with regard to all
but one of Atta’s and Alshehhi’s entries into the United States, we concluded
that the evidence does not show that the inspectors who admitted them acted in
violation of INS policies and practices. We were unable to reach any definitive
conclusion whether Atta’s admission in January 2001 was improper, given the
limited record relating to the admission and the inspector’s inability to
remember the specifics of what was said at the time. However, our review
illustrated that, before September 11, the INS did not closely scrutinize aliens
who were entering the United States to become students or consistently require
them to possess the required documentation before entering the United States.
       Second, with regard to the INS’s processing of Atta’s and Alshehhi’s
change of status applications and the I-20 forms associated with those
applications, we found the INS’s adjudication and notification process to be
untimely and significantly flawed. Because the INS assigned a low priority to
adjudicating these types of applications, a significant backlog existed. As a
result, Atta’s and Alshehhi’s applications were adjudicated and approved more
than 10 months after the INS received them, well after both men had finished
their flight training course. Even after adjudication, there was another
significant delay before the I-20 forms were mailed to the flight school
notifying it of the approved applications. This delay occurred because the INS
contractor who data entered the information from the forms after approval held


                                        2
onto them for 180 days before mailing them to the school. We found that the
contractor handled these forms consistently with its handling of other I-20
forms and its interpretation of the requirements of its contract with the INS.
The evidence suggests, however, that the contract was written so that the I-20
forms would be returned to the schools within 30 days, and we criticize the
INS for failing to monitor adequately the requirements and performance of the
contract.
      We also criticize INS personnel for failing to consider the I-20s and
thereby failing to make the FBI aware of the I-20s. No one in the INS took
responsibility for locating the forms or notifying the FBI of their existence.
While we recognize that the I-20 forms were not significant to the FBI’s
investigation, no one from the INS told the OIG that they did not pursue the
documents for this reason. Rather, everyone we interviewed said that they did
not even consider the I-20s. This oversight was a failure on the part of many
individuals in the INS.
      Third, with regard to our review of the INS’s system for monitoring and
tracking foreign students in the United States, it is clear that the INS’s current,
paper-based system is antiquated and inadequate. The INS is developing and
will soon implement an automated computer tracking system – the Student and
Exchange Visitor Information System (SEVIS). SEVIS will be a significant
advance and will help address many of the failings of the current system. But
SEVIS alone will not solve the problems of the INS’s tracking of foreign
students. For example, the INS must review and properly re-certify the
thousands of schools that are currently certified to enroll foreign students, must
ensure that its employees and schools timely and accurately enter information
into SEVIS, and must ensure that the information from SEVIS is analyzed and
used adequately. We also believe that it is unlikely that the INS will be able to
meet the January 30, 2003, deadline for full implementation of SEVIS.
      At the end of the report, we provide 24 systemic recommendations to
help address the deficiencies in INS practices and procedures that we found in
our review and in the INS’s proposed implementation of SEVIS.

II. Background

     A.   Immigration processes
      Because immigration regulations are complex, we first set forth in the
report a description of basic immigration terminology and processes relevant to


                                         3
the issues we investigated. In particular, we describe the processes through
which foreigners who want to study in the United States can enter the country
legally.
      To enter the United States, an alien must present a valid passport and
valid visa to an immigration inspector at designated land, sea, and air ports of
entry (POEs). Visas are issued by the U.S. Department of State and authorize
aliens to enter the United States for specified purposes. When an alien arrives
at a POE, an INS immigration inspector reviews the alien’s documents and
seeks to determine, based on the alien’s answers to questions posed by the
inspector, whether the alien’s purpose for entering the country matches the
purpose associated with the visa.
      According to immigration regulations, aliens may enter the United States
and attend school full time or part time through several different procedures.
Aliens who intend to take classes but who do not intend to pursue full-time
schooling may enter as visitors using a B-1/B-2 visitor visa provided the
classes are “incidental” to the alien’s primary purpose of pleasure (B-2) or are
part of a business-related purpose (B-1).
      Aliens who want to engage in a full-time course of study in the United
States can obtain legal permission to do so in two ways. The first method, used
by the majority of foreign students, is the student visa process in which the
applicant requests a student visa in the applicant’s country of residence. The
State Department screens the applicant and determines whether to issue the
visa.
      In the second method, aliens who already have entered the United States
through other legal means, such as with a visitor visa, may ask the INS to
change their status to students. To do so, aliens must file INS form I-539
requesting a change of status, establish that they are enrolled in school full
time, establish that they are in a valid status at the time of application, and
demonstrate their financial ability to pay for the schooling. This method – the
one pursued by Atta and Alshehhi – does not involve the State Department nor
does it involve the issuance of a new visa.

    B.   Chronology of Atta’s and Alshehhi’s entries into the United States
         and change of status applications
     Atta and Alshehhi both possessed valid passports and visitor visas, issued
at United States consulates abroad, which were valid for multiple entries into


                                        4
the United States. Atta first entered the country through Newark International
Airport as a visitor in June 2000. Alshehhi first entered the country as a visitor
also through Newark International Airport in May 2000. INS immigration
inspectors routinely admitted them and authorized them to remain in the
country for six months, which was the typical period of admission for aliens
holding visitor visas.
      Atta and Alshehhi enrolled in the professional pilot’s course at Huffman
Aviation in July 2000. In September 2000, they applied to change their status
from visitors to that of vocational students by submitting I-539 applications to
the INS’s Texas Service Center in Dallas, Texas. The Texas Service Center is
one of five INS Service Centers that process and adjudicate many types of INS
applications. Atta and Alshehhi also submitted the required INS form I-20, the
Certificate of Eligibility for Nonimmigrant Student Status, which is issued by
schools certified by the INS to enroll foreign students once students have been
accepted to the school. The I-20 form includes two parts that reflect identical
information about the school and the student’s proposed course of study,
including the dates of the course of study. Once the INS approves the
application, the adjudicator stamps both parts of the I-20. One part of the I-20,
the student copy, is sent to the student and eventually the other part, the school
copy, is sent to the school. After adjudication of the application, the school
copy of the I-20 is mailed to ACS in London, Kentucky. This INS contractor
data enters information from the I-20s for eventual uploading into an INS
database and later mails the I-20s to the schools. The INS does not retain
copies of the I-20s in its files.
       In December 2000, while their change of status applications were
pending, Atta and Alshehhi finished their flight training at Huffman Aviation.
Both separately left the country in January 2001 and separately returned a few
days later. Each was admitted into the United States by INS inspectors after
being referred to secondary inspection. Each later left and re-entered the
country a third time. Alshehhi left in April 2001 and returned in May 2001; he
was admitted this last time on a visitor visa for six months, until November
2001. Atta left in July 2001 and returned a few days later; he was admitted on
a visitor visa until November 2001.
      On July 17, 2001, the INS approved Atta’s I-539 change of status
application that had been filed 10 months earlier. On August 9, 2001, the INS
approved Alshehhi’s I-539 change of status application. As noted previously,



                                        5
Atta and Alshehhi had finished their flight training program at Huffman
Aviation more than six months earlier.
      After the INS adjudicated Atta’s and Alshehhi’s change of status
applications, it sent ACS the school copy of their I-20 forms, which ACS
received on September 24, 2001. Consistent with its interpretation of its
contract, ACS data entered information from the school copy of Atta’s and
Alshehhi’s I-20 forms and retained the forms. After waiting approximately
180 days, ACS mailed the school copy of the I-20s to Huffman Aviation in
March 2002.

III. The INS’s Handling of Atta’s and Alshehhi’s Entries and Change of
     Status Applications
      The OIG investigated several different but interrelated aspects of Atta’s
and Alshehhi’s contacts with the INS. First, we examined their three entries
into the United States to determine whether the INS inspectors who admitted
them acted in accord with INS policies and policies. We also investigated the
INS’s processing of Atta’s and Alshehhi’s change of status applications to
determine why the INS took over 10 months to adjudicate the applications and
why it took another 7 months for Huffman Aviation to receive its copies of the
I-20 forms. In addition, we examined whether the INS adjudicator who
approved Atta’s and Alshehhi’s change of status applications did so
appropriately. Finally, we investigated why the INS failed to retrieve the I-20s
from the contractor after September 11 and before they were sent to Huffman
Aviation.

    A.   Atta’s and Alshehhi’s Entries into the United States
     Atta and Alshehhi each entered the United States three times. We
reviewed each of these entries, the decisions made by the INS inspectors who
handled their entries, and the INS policies that relate to these entries.
      On each occasion, Atta and Alshehhi entered the United States with valid
passports and visitor visas that were good for multiple entries. The primary
immigration inspectors who admitted them during their first and third entries
did so routinely, without referring them to the more intensive inspection
process known as secondary inspection. We found no indication that the
primary inspectors were presented with or were aware of any information that
would have caused them to refer Atta and Alshehhi to secondary inspection.
The evidence indicates that, given the information available to the inspectors at


                                        6
the time of the admissions, the primary inspectors did not violate INS policies
and practices by admitting them.
       However, during each of their second entries – Atta on January 10, 2001,
through the Miami International Airport and Alshehhi on January 18, 2001,
through the John F. Kennedy Airport – both were referred to secondary
inspection. After interviews in secondary inspection, INS secondary inspectors
admitted Atta and Alshehhi as visitors. Because the secondary inspectors knew
that Atta and Alshehhi had filed change of status applications, the inspectors
should have questioned them about their intent with respect to taking flight
training courses and whether they were seeking to re-enter the United States to
go to flight school full time. If the inspectors determined that Atta and
Alshehhi intended to be full-time students, the inspectors should have required
them to present student visas, which they did not have, rather than their visitor
visas.
       On the other hand, if Atta and Alshehhi stated that they intended to attend
classes on a part-time basis only, the inspectors could have admitted them
based on their visitor visas. However, because the available record with
respect to Atta is limited and the inspector had only a vague recollection of his
interview of Atta, we were not able to conclude whether the inspector properly
or improperly admitted Atta. The evidence with respect to Alshehhi suggests
that the inspector’s admission of Alshehhi was not in violation of INS
practices.
      We also considered whether Atta’s and Alshehhi’s departures while their
I-539 applications for change of status were pending should have had an effect
on their ability to re-enter the country. The INS’s policy is that an alien who
leaves the country while his change of status application is pending abandons
that application. However, abandonment of a change of status application does
not automatically mean that an alien is inadmissible when he returns to the
United States and seeks re-entry. The INS inspector is required to assess the
alien’s purpose at the time of re-entry. If Atta and Alshehhi stated that they
intended to attend school part time, they would have been admissible again
with their multiple-entry visitor visa, regardless of their abandonment of their
change of status applications.
      Yet, Atta’s and Alshehhi’s admissions highlighted that INS inspectors
lack important information when assessing aliens’ eligibility for admission into
the United States. For example, primary inspectors do not learn through
automated checks whether an alien has a change of status application pending.

                                        7
Also, although both Atta and Alshehhi had completed their flight schooling by
the time they sought to re-enter the country in January 2001, the inspectors
who admitted them were not aware of that fact, since the INS did not collect
this information about foreign students.
       Our review of Atta’s and Alshehhi’s admissions also illustrated another
troubling INS practice. We were consistently told by INS inspectors at the
POEs we visited that aliens who intended to enter the United States to become
full-time students and who lacked the required student visa would likely have
been admitted through the waiver process. Although Atta and Alshehhi were
not admitted through the waiver process, we found that INS managers,
supervisors, and inspectors believed incorrectly that they have broad discretion
to admit aliens who do not have the required passport and visa through this
process. In fact, the law and INS policy limit the circumstances in which an
alien who lacks the proper passport or visa can be admitted with a waiver to
“unforeseen emergencies.” But the INS’s prevailing philosophy in dealing
with foreign students at the POEs before September 11 was that students were
not a concern or a significant risk worthy of special scrutiny. Therefore, INS
inspectors and supervisors would admit students through the waiver process
when they appeared at POEs without the proper documentation if they did not
appear to have a criminal record or disclose any other evidence of
inadmissibility. Thus, although the INS had clear policies on when a waiver
was appropriate, those policies were not followed or enforced.

    B.   Atta’s and Alshehhi’s change of status applications and I-20
         forms
     We examined several aspects of Atta’s and Alshehhi’s applications for
change of status. Specifically, we investigated the length of time INS took to
process Atta’s and Alshehhi’s I-539 applications and I-20 forms, whether the
change of status was properly granted, and why the I-20s were mailed after
September 11.

         1.   Delay in processing
      Huffman Aviation received its copies of Atta’s and Alshehhi’s I-20 forms
in March 2002, more than a year and a half after the forms were submitted to
the INS in September 2000, and approximately seven months after the I-539
change of status applications were approved. We found that these lengthy
delays were due to two primary causes: a significant backlog in processing I-


                                       8
539s at the INS’s Texas Service Center and the contractor’s storage of the I-
20s for 180 days before mailing them to the schools.
      First, Atta’s and Alshehhi’s applications were not adjudicated in a timely
fashion. Historically, processing I-539 applications has been a low priority for
the INS. By July 2001, at the Texas Service Center, which handled Atta’s and
Alshehhi’s applications, the processing time for I-539 applications reached 282
days. Therefore, Atta’s and Alshehhi’s applications were not adjudicated until
10 months after the INS received them, and many months after they had
completed their flight training course.
      Second, after the INS adjudicated the two men’s change of status
applications, it mailed the school copy of the I-20 forms to ACS, the contractor
that data entered information from the forms for inclusion in INS databases.
ACS did not mail the forms to Huffman Aviation for almost 180 days after
receiving them in September 2001. ACS’s handling of Atta’s and Alshehhi’s
forms was consistent with its understanding of its contractual obligations and
with its handling of other I-20 forms it processed at that time. We found some
evidence, however, that the INS had intended for the I-20s to be mailed to
schools within 30 days after data entry, not 180 days. But the evidence showed
that INS officials were not familiar with the terms of the contract and exercised
minimal oversight of the contract. We fault the INS for failing to pay more
attention to the performance of this contract.

         2.   Adjudication of the change of status applications
       We found that the adjudicator who approved Atta’s and Alshehhi’s
change of status applications did so in accord with INS policies and practices.
But we also found that these policies and practices were flawed. Most
important, the adjudicator did not have complete information about Atta and
Alshehhi before adjudicating their applications. If the adjudicator had full
information, he should have denied their applications. For example, the
adjudicator did not learn that Atta and Alshehhi had already completed their
flight training because the INS did not collect that information. The
adjudicator also did not learn that Atta and Alshehhi had departed the United
States twice while their change of status applications were still pending, which
the INS deems to be an abandonment of the applications. Although INS
databases contained this information, adjudicators were not required to check
the databases before making a decision.



                                       9
       However, it is important to note that even if the adjudicator had denied
their change of status applications, Atta and Alshehhi were admitted into the
United States as visitors during their third entries in July and May 2001 and
were authorized to stay until November 2001. Therefore, even if the
adjudicator had denied their change of status applications, that denial would
not have invalidated Atta’s and Alshehhi’s status as visitors entitled to remain
in the United States through September 11.

          3.   Failure to stop the processing and mailing of the I-20s
      We do not believe that ACS was at fault for not stopping Atta’s and
Alshehhi’s forms from being mailed to Huffman Aviation. As a contractor,
ACS takes its direction from the INS. It handled these forms consistent with
other forms, and in accord with its understanding of the requirements of the
contract. No one at the INS asked ACS to identify or locate Atta’s and
Alshehhi’s I-20s. Absent instructions from the INS, ACS managers had no
independent responsibility to check its records to verify whether it possessed
documents related to any September 11 terrorists. Moreover, ACS’s handling
of I-20s is a clerical process that is mostly automated. For these reasons, we
concluded that ACS bears no responsibility for failing to stop delivery of the I-
20 forms.
      Rather, the fault lies with many INS employees who could have, and
should have, considered the existence of the I-20 forms and brought them to
the attention of the FBI. On September 11, two industrious Texas Service
Center personnel had determined through database searches that the Texas
Service Center had adjudicated Atta’s and Alshehhi’s change of status
applications. The next day they retrieved the Texas Service Center files on
Atta and Alshehhi and faxed copies of the documents to the FBI. Soon thereafter,
the FBI requested the originals of these files, and the INS provided them to the
FBI.
      These files did not contain the I-20s because the student copies had been
returned to the applicants months earlier and the school copies had been sent to
ACS for processing. Yet, no one in the INS took any action to locate the
school copies of the I-20s, inform the FBI of their existence, or even consider
where these forms were in the process. We believe that managers and
personnel from the Texas Service Center where the applications had been
processed, managers in the Immigration Services Division in INS Headquarters
who supervised the service centers, and managers in the Enforcement Division


                                       10
in INS Headquarters who were involved in the terrorism investigation were at
fault for failing to inform the FBI about the existence of the I-20s.
       When interviewed by the OIG, these INS personnel acknowledged that
they were aware that I-20s were part of the change of status process and
acknowledged that they did not inquire about the school copies of the I-20s
associated with Atta’s and Alshehhi’s change of status file. They conceded
that they did not think about trying to obtain the I-20s for the FBI, and they
never informed the FBI about the existence of the I-20s before they were
mailed in March 2002.
      Several of these INS managers told the OIG that they instructed their
subordinates to ensure that the FBI had what it needed and suggested that their
inaction was attributable to the fact this was an FBI case, not an INS case.
Several individuals also stated that they were not aware that the contractor
stored the I-20s for 180 days and therefore, even if they had thought about the
I-20s, they would have assumed that the forms already had been mailed to the
school.
      These arguments are unpersuasive. While we recognize that the INS’s
failure to provide the I-20s did not hinder the FBI’s investigation, it was the
INS’s responsibility to ensure that all its documentation relating to the
terrorists was identified for the FBI. No one at the INS assessed whether all
information associated with Atta’s and Alshehhi’s change of status files –
which was information that only the INS had knowledge of – might be useful
to the FBI. No one thought to even inquire about the I-20s related to Atta’s
and Alshehhi’s change of status applications or find out where they were. In
our view, this was a widespread failure on the part of many individuals in the
INS.

IV. The OIG’s Evaluation of the INS’s Foreign Student Program
      In response to concerns about how the INS tracks foreign students, we
evaluated the INS’s processes for admitting foreign students and for certifying
schools as eligible to receive foreign students. We also evaluated the INS
tracking systems for foreign students – the paper system that exists now as well
as SEVIS, the computer system the INS is developing.
     The State Department is responsible for issuing student visas to foreign
students who want to study in the United States. It is the responsibility of the
INS, however, to determine which schools are entitled to accept foreign


                                       11
students, to inspect the documentation of persons arriving with student visas, to
keep track of the entries and exits of foreign students, to know whether
students are continuing to maintain their status once in this country, to facilitate
the removal of students once their status ends, and to approve appropriate
requests by aliens who are in the country through some other classification to
acquire student status. Responsibility for each of these obligations is divided
among several different offices, divisions, and branches within the INS, as well
as among private contractors.
      In the past, the INS has not adequately handled these responsibilities.
The INS’s foreign student program historically has been dysfunctional, and the
INS has acknowledged for several years that it does not know how many
foreign students are in the United States. In addition, the INS lacks accurate
data about the schools that are authorized to issue I-20s, the students who
obtain student visas and student status, the current status of those students, and
whether fraud is being perpetuated in the foreign student program.
       For example, an important component of the foreign student program is
the school certification process, which allows the INS to ensure that the school
is legitimate and not simply an operation designed to assist foreigners to enter
or remain in the country fraudulently. Yet, INS district offices assign the
responsibility for approving and re-certifying schools to adjudicators or
inspectors only as a collateral duty. We found that these inspectors and
adjudicators – called “schools officers” – do not adequately review the schools’
applications for certification or re-certification. In addition, the INS rarely
conducts site visits of schools prior to or after certification and relies primarily
on written representations from the schools.
      An example of the result of this deficiency was the INS’s certification of
Huffman Aviation. As part of our review we obtained and reviewed the INS’s
file on Huffman Aviation, which was certified by the INS in 1990 to accept
foreign students. We concluded that based on the available evidence, Huffman
Aviation did not then nor does it currently meet the INS’s certification
requirements because its students do not appear to be enrolled in a full course
of study, as required by INS regulations. We believe that a site visit, which
never occurred, would have provided the INS more accurate information with
which to make its determination about Huffman’s certification.
       In addition, INS investigators and adjudicators consistently reported to us
that they believe that fraud with I-20 forms is prevalent. The current forms
contain few security features and are relatively easy to counterfeit. Schools

                                        12
receive multiple blank forms, and many schools that are no longer approved to
issue such forms still retain a supply of them.
      The INS’s current database for recording information about the status of
foreign students and schools relies on information from paper forms that are
supposed to be sent to the INS and uploaded into a database. But the
information that is inputted into this database is incomplete and unreliable.
Thus the database is riddled with inaccuracies.
      The INS’s implementation of its new automated system to track foreign
students – SEVIS – will help solve some of the problems the INS has had
tracking foreign students. SEVIS will improve the data collection on students
and schools. Schools will no longer be required to fill out forms that must be
mailed to the INS and then sent by the INS to a contractor for data entry.
Instead, the schools will enter information about students directly into SEVIS
or into its own computer systems that will then upload to SEVIS. Through
SEVIS, the INS and schools also will be able to identify more easily when a
student’s change of status has been approved because the student’s SEVIS
record will be electronically updated by the INS service centers once
processing is complete. SEVIS will eliminate the current manual process in
which the paper I-20 is returned to the school after adjudication of the change
of status form. In addition, the INS and schools will be able to determine
easily through SEVIS when and where a student entered the United States.
      SEVIS also should help the INS detect I-20 fraud by schools and
students. Only INS-approved schools with access to SEVIS will be able to
create I-20 forms for students. The INS will be able to automatically decertify
schools that violate program requirements by invalidating the school’s
password, thereby preventing the schools from issuing I-20s. Since I-20s will
be generated only through SEVIS, fraudulent or expired I-20s will be more
difficult to use. In addition, any I-20s not used by the student can be
automatically invalidated through SEVIS, preventing others from fraudulently
using them. INS investigators also will be able to identify useful information
through analyses of SEVIS data, such as identifying schools that have
significant numbers of students who have been admitted longer than typical
degree programs require.
      Yet, despite the improvements anticipated with the implementation of
SEVIS, there are many problems in the INS’s student program that SEVIS
alone will not solve. First, the INS still must manually review and approve the
applications of schools seeking certification or re-certification to enroll foreign

                                        13
students. To properly certify, recertify, and monitor schools, we believe that
the INS should assign full-time personnel to these tasks. Unless INS personnel
conduct on-site visits and follow up on questionable information submitted by
schools, many current deficiencies will continue to exist.
      The INS still has no formal, mandated training program for the officials
at each school who have the responsibility for complying with INS record-
keeping and reporting requirements, for monitoring violations of student
requirements to the INS, and for notifying the INS of material changes in the
schools’ programs, accreditation, and level of education offered. While school
associations provide some training, particularly for the larger public and
private universities, the training is not geared toward smaller schools. INS
officials told us that many school employees who deal with the foreign student
program are untrained and unaware of INS regulations.
       Similarly, INS personnel assigned to approve and monitor schools also
are not provided formal training. We learned that many are uncertain as to
what they are supposed to be looking for when certifying schools. These INS
employees also commented on the lack of clarity in the regulations and INS
guidelines for the approval process. The INS needs to develop a training
program for INS and schools officers, and provide clear guidelines describing
their responsibilities and INS requirements.
      Furthermore, for SEVIS to be effective the INS must ensure that the
schools are complying with the requirement to timely and accurately input data
into SEVIS. To date, the INS has not formulated any concrete plans for
conducting or requiring verifications of the accuracy of the data that the
schools enter into SEVIS.
      Also, while SEVIS should improve data collection, the information only
will be useful if the INS monitors and analyzes the information and
investigates instances of potential fraud. The INS has not determined who, if
anyone, would perform these analyses. Enforcement to uncover school fraud
historically has been a low priority at the INS, and investigative resources
devoted to this issue have been limited. Although better information will be
available on student and school fraud, it is not clear that the INS will use this
information any more fully than in the past.
     We also have serious concerns about the INS’s ability to fully implement
SEVIS by January 30, 2003, as required by recent regulations proposed by the
INS. Although the INS plans to have the system operating by July 1, 2002, the


                                        14
INS intends to re-certify all of the approximately 70,000 schools currently
authorized to issue I-20s and is requiring re-certification as a prerequisite to
schools gaining access to SEVIS. The INS plans to start the re-certification
process this summer, but it is still in the process of determining how to do this
and must publish new regulations before this re-certification process will
begin. In addition, the INS still has to assign and train personnel to perform
the re-certifications and notify all the schools of the re-certification procedures.
We question whether the INS will be able to complete this huge undertaking
before January 30, 2003.
    Unless the INS addresses these and other critical issues, the impact of
SEVIS will be minimal.

V. Recent Changes in the INS’s Foreign Student Program
      Since September 11, 2001, the INS’s focus on foreign students has
changed dramatically. In the past, the INS’s philosophy has strongly favored
admitting foreign students, viewing them as relatively low risk. After
September 11, tighter regulatory controls have been proposed to make it more
difficult for aliens to obtain student status and to more closely scrutinize
persons entering the country who might later attempt to become students. In
addition, on March 15, 2002, the INS implemented procedural changes that
will result in closer examination of change of status applications for persons
who want to become students.
      We discuss some of these proposed regulatory and processing changes in
the report. We believe that many of these changes that address issues raised by
Atta’s and Alshehhi’s cases will be beneficial. For example, additional
database checks are now required to be conducted before change of status
applications can be approved, students may not begin a course of study until
the I-539 petition has been approved, and the INS data entry contractor now
must send the school copy of the I-20 to the school in less than 30 days.
      In some cases, however, we do not believe that INS has fully considered
how the changes will be implemented and the consequences of the changes on
the INS. For example, the INS now requires adjudicators to check all I-539
change of status applications against certain lookout databases before rendering
a final decision. We found that at the time that INS Headquarters issued this
policy change, service center adjudicators did not have access to those
databases at their workstations. In the last few weeks, we determined that
adjudicators in the TSC have acquired access to and training on how to use

                                        15
IBIS. However, the INS has not provided guidance about what to do with the
information learned from the checks. In addition, the INS has not analyzed
how the new requirement will affect the length of time service center
adjudicators are expected to take processing each application. If this is not
adjusted, adjudicators will continue to face time pressure that will discourage
them from conducting thorough searches or following up on possible leads.

VI. Recommendations
      At the end of the report, we make 24 systemic recommendations
concerning various aspects of the INS’s foreign student program that were
implicated by our review of the INS’s contacts with Atta and Alshehhi and our
evaluation of the INS’s tracking of foreign students. Our recommendations
address the overall management of the INS’s foreign student program, resource
issues, SEVIS, and other program areas.
      Our review found that the INS functions without vital information about
foreign students and aliens who have applied to change their status to that of
students. Inspectors, adjudicators, and investigators make critical decisions
about aliens without having access to fundamental information that could affect
their decisions. While we recognize that the INS is a large agency handling
many different programs and missions, the result of the fragmentation of the
foreign student program is that there is not sufficient accountability for a
program that admits approximately 500,000 aliens into the country every year.
Despite implementing major changes in the foreign student program since
September 11, however, the INS continues to operate the program without an
overall coordinated plan. For this reason, we believe that the INS should
consider appointing a foreign student program manager to coordinate, and be
accountable for, immigration issues affecting foreign students.
      We also make several recommendations concerning SEVIS and the
foreign student program. We recommend that the INS more closely review the
schools that will be permitted to accept foreign students, including the
approximately 70,000 that must be reviewed prior to the implementation of
SEVIS. In addition, we recommend that the INS conduct re-certifications of
those schools at regular intervals. The INS should develop a plan for training
both INS employees and school employees on how to use SEVIS. The INS
should ensure that schools are entering timely and accurate information into
SEVIS and that specific and sufficient INS personnel are responsible for



                                       16
analyzing the data collected in SEVIS and acting on cases of suspected fraud.
The information is only useful if it is accurate and is used by the INS.
      We also set forth recommendations related to the INS’s proposed
regulatory and processing changes aimed at increasing scrutiny of foreign
students. As one example, the INS has proposed to require that aliens who
apply to change their status to that of students be approved before they are
eligible to enroll in classes. For this to work the INS must maintain a fast
processing time for student change of status applications, which historically it
has not been able to do, in order to avoid penalizing students. The INS also
should determine how it will handle aliens who have applied to become
students but whose applications have not been adjudicated prior to the start of
their classes. The INS should advise I-539 applicants for student status of the
requirement that their applications must be adjudicated prior to beginning
school and also advise the schools of the procedure to be followed if the INS
has not adjudicated the application prior to the start of school.
      The INS policies and guidance necessary to implement these changes
should be expeditiously and clearly communicated to INS employees across
the country. We have noted in this report, as well as in many other OIG
reports, problems with INS policies not being known, written, widely
disseminated, or uniformly enforced throughout the INS. Although INS Field
Manuals are a logical repository for policies and procedures, the Inspector’s
Field Manual and the Adjudicator’s Field Manual are not comprehensive or
complete. In addition, in this and other OIG reviews, we found that
adjudicators and inspectors often are not made aware of changes to the manuals
because policies distributed via memoranda often never reach line inspectors
and adjudicators. As a result, field offices develop their own practices that are
sometimes inconsistent with INS policy or the law.
      The INS must improve its systems for disseminating policy memoranda
and for ensuring that line employees become aware of and follow these
policies. We recommend that the INS expeditiously complete and update its
field manuals. In addition, it should implement a more effective system for
disseminating policies and procedures other than sending the documents to the
head of an INS field office. Only if the INS has a system in place that ensures
that policies and changes are received and understood can employees be held
accountable for following them.
     We believe that implementation of these recommendations will help
address significant problems with the INS’s foreign student program, which

                                       17
has been dysfunctional for many years. Although the INS is revising many of
its processes and implementing a new computer system to track and monitor
foreign students, these changes will result in minimal improvement if the INS
does not improve its overall management of the foreign student program.




                                      18
                                   CHAPTER ONE
                                  INTRODUCTION
I.       Introduction
      On September 11, 2001, 19 terrorists hijacked 4 airplanes as part of an
attack on the Pentagon in Washington, D.C. and the World Trade Center
Towers in New York City, New York. Three of the planes were flown into the
buildings, resulting in the deaths of over three thousand individuals, the
complete destruction of the Trade Center Towers, and extensive damage to the
Pentagon. The fourth plane crashed in Southwestern Pennsylvania, killing all
44 people onboard. Mohamed Atta, an Egyptian citizen, is believed to have
been the pilot who flew American Airlines flight number 11 into the Trade
Center’s North Tower. Marwan Alshehhi, a citizen of the United Arab
Emirates, is believed to have flown United Airlines flight number 35 into the
South Tower. Both terrorists died in the attacks.
       Six months later, on March 11, 2002, Huffman Aviation International, a
small flight training school in Venice, Florida, opened official documents sent
by the Immigration and Naturalization Service (INS) relating to Atta and
Alshehhi. Both had taken pilot lessons at the flight school. Although Atta and
Alshehhi had entered the United States legally in the spring of 2000 with
visitor visas, in September 2000 they had requested that the INS change their
nonimmigrant status from that of “visitor” to that of “vocational student” so
they could continue attending flight training school. The documents opened by
the flight school on March 11, 2002, were INS I-20 forms, which indicated that
Atta’s and Alshehhi’s requests for vocational student status had been approved.
Within a day, media across the country were reporting the story, and the INS
came under intense criticism. 1 In a news conference on March 13, President
George Bush stated that he was “stunned” and angry after he read about the
incident in the newspaper. The mailing of these forms was cited by many as a
further example of why the INS needed to be radically reformed and improved.


     1
      The early criticism of the INS’s actions implied that the INS had approved Atta’s and
Alshehhi’s request to change their status after September 11. In fact, the approval had
occurred several months before the terrorist attacks. It was the notification to the school that
arrived subsequently.




                                              19
      President Bush directed the Attorney General to investigate why the
student status notifications were mailed after Atta and Alshehhi were
recognized worldwide as terrorists who helped perpetrate the September 11
attacks. By memorandum dated March 13, 2002, the Attorney General
requested that the Office of the Inspector General (OIG) conduct a “thorough
review of the circumstances surrounding the [INS’s] sending of documents to
the Huffman Aviation International flight school of Venice, Florida, which
notified the school of the approved vocational student status of Mohamed Atta
and Marwan Alshehhi six months after the terrorist attacks of September 11,
2001.” The Attorney General asked that the OIG’s review include “not only
the INS’s failure to stop delivery of the notification letters but also the source
of the seven-month delay in the processing of these notification letters.” The
Attorney General asked that the OIG’s investigation and report of its findings
be completed expeditiously.
      At the time the OIG received the Attorney General’s request, we had
already begun two reviews that were substantively related to the incident that
gave rise to the Attorney General’s request. The OIG was reviewing the INS’s
admissions of Atta into the United States. In addition, in November 2001 the
OIG had initiated a review of the process by which the INS tracks and monitors
foreign students who enter the United States.
      In order to provide greater context to the investigation requested by the
Attorney General, the OIG expedited and completed its review of Atta’s entries
into the United States. We also broadened that inquiry to include the
appropriateness of Alshehhi’s entries into the United States. In addition, the
OIG completed its review of the process by which foreign students enter the
United States and are tracked and monitored by the INS. The results of these
reviews are incorporated into this report.
      To conduct our review, the OIG assembled a team of three attorneys, four
special agents, and three program analysts. The team conducted almost 100
interviews over a 3-week period beginning on March 18, 2002. We
interviewed personnel from INS Headquarters; the INS Texas Service Center
in Dallas, Texas; and the INS’s Miami, New York, Newark, and Atlanta
Districts, including inspectors who work at airports in these districts. We also
interviewed personnel from the Federal Law Enforcement Training Center
(FLETC); the Federal Bureau of Investigation (FBI); and three private
companies, Affiliated Computer Services, Inc. (ACS); Uniband Enterprises;
and Huffman Aviation International.


                                        20
II. Organization of the Report
      This report is organized into nine chapters. Chapter One contains this
introduction. Chapter Two provides an overview of the INS’s organizational
structure as it relates to our investigation, as well as background information on
visitor and student visas and the change of status process.
      Chapter Three details our review of Atta’s and Alshehhi’s entries into the
United States and our analysis of the actions of the INS inspectors who
admitted them. We first provide an overview of the inspection process by
which a nonimmigrant enters the country, including routine questions asked by
inspectors, a description of the computer systems used by inspectors, and the
secondary inspection process. We examine Atta’s three entries into the United
States, including his referral to the INS’s secondary inspection process during
his second entry, the reasons for his admission on each occasion, and our
analysis of those admissions. Next, we describe Alshehhi’s three entries,
including his referral to secondary inspection during his second entry, the
reasons for his admission on each occasion, and our analysis of those
admissions.
      Chapter Four addresses the questions regarding Atta’s and Alshehhi’s
change of status applications and how the notifications of the decisions on
those applications were sent to Huffman Aviation six months after the terrorist
attacks. This chapter also describes generally the processing of INS forms
I-539s (the application for change of status) and I-20s (the form providing
school and course information), and traces how the INS handled the
applications and files of Atta and Alshehhi. We also describe how private
contractors participated in the processing of Atta’s and Alshehhi’s change of
status forms. We discuss the reasons that the INS took several months to
process Atta’s and Alshehhi’s applications.
     In Chapter Five, we discuss our findings and conclusions regarding the
reasons why the INS documents were not stopped from being sent to Huffman
Aviation after September 11, 2001.
      The OIG’s evaluation of the INS’s tracking of foreign students is
described in Chapter Six. We examine the INS’s processes for certifying
schools as eligible to receive foreign students, the INS’s current process for
collecting information on foreign students, and the Student and Exchange
Visitor Information System (SEVIS), an automated system currently being
developed by the INS to track information about foreign students.


                                       21
      In Chapter Seven, we examine the INS’s proposed changes to the federal
regulations concerning the admission of nonimmigrants, the INS’s proposed
changes for the foreign student program, and specific procedural and
operational changes made by the INS in light of the events that gave rise to this
report. In Chapter Eight, we set forth our recommendations for systemic
improvements in the INS and its foreign student program. Chapter Nine
summarizes our conclusions.




                                       22
                                 CHAPTER TWO
                                 BACKGROUND
      This chapter provides background on the organizational structure of the
INS, basic information on the visa system, how students are admitted into the
United States, and how nonimmigrants in the United States can change their
status to students.

I.       Organizational Structure of the INS
      The INS is currently organized into three management components –
Headquarters, three regions, and 33 districts in the United States.2 The districts
are referred to collectively as “the field.”
      The districts are managed by a District Director, a Deputy District
Director, and several Assistant District Directors. The districts are divided into
various divisions such as Investigations, Inspections, Management, and
Examinations (or Adjudications). Each division is led by an Assistant District
Director. 3
      The processing of nonimmigrants who arrive at points designated as legal
places through which to enter the country – known as ports of entry – is
handled by INS immigration inspectors who are stationed at airports, seaports,
and highways throughout the United States. A district’s Inspections Division
is responsible for overseeing the inspectors within the district.
      The INS also operates five regional service centers that process many
types of applications formerly handled in the districts. The five service centers
are the California Service Center, the Nebraska Service Center, the Texas
Service Center, the Vermont Service Center, and the Missouri Service Center.
Requests for change of status (form I-539 and the accompanying I-20) – that is,
the applications that Atta and Alshehhi filed with the INS – are handled by INS

     2
      The INS has three foreign district offices in Bangkok, Mexico City, and Rome, as well
as several other overseas offices.
     3
       The three INS regions serve as intermediary managers of the districts – the Eastern
Regional Office, the Central Regional Office, and the Western Regional Office. Each
regional office is led by a Regional Director and a Deputy Regional Director. Each regional
office is also divided into divisions that are led by an Assistant Regional Director.




                                            23
staff in four of the five service centers. The adjudication of the applications is
handled by Center Adjudications Officers. Each of the service centers is
headed by a Service Center Director.
       The INS is headed by a Commissioner and a Deputy Commissioner. At
all times relevant to this report, INS Headquarters, apart from the
Commissioner’s immediate staff, 4 was divided into four major components,
each overseen by an Executive Associate Commissioner: Programs, Field
Operations, Policy and Planning, and Management. Each of the four Executive
Associate Commissioners reported to the Deputy Commissioner who, in turn,
reported to the Commissioner.
      Of the four components (called “Offices”), the Office of Field Operations
is most significantly involved in the day-to-day operations of the Field and has
responsibility for implementing policies. Within the Office of Field
Operations, the Enforcement Division is responsible for INS’s investigative
operations, the Immigration Services Division is responsible for operations in
the service centers and adjudicative functions in the district offices, and the
Inspections Division is responsible for the inspections process and operations
at the ports of entry. The Service Center Directors report through a chain of
command to senior managers in the Immigration Services Division.
      At the time of the events at issue in this review, the Office of Programs
was responsible for policy development and integration of both enforcement
and adjudications programs.5 The Office of Programs was divided into
substantive areas, such as adjudications, inspections, and investigations, with
each branch led by an Assistant Commissioner. Within the Adjudications
Branch, the Business and Trade Section handled policy issues concerning
student visas and change of status issues.6


    4
      The Commissioner’s immediate staff includes the General Counsel and the Directors
of the Office of Internal Audit and the Office of Congressional and Public Affairs.
    5
      The INS has proposed to move the policy functions of the Office of Programs to other
offices within the INS. The policy functions for investigations, inspections, and detention
and removal have been placed under the Office of Field Operations. The policy functions
for adjudications have been placed under the Office of Policy and Planning.
    6
       The Office of Policy and Planning develops and coordinates long-range planning
activities, as opposed to the more immediate matters that fell under the jurisdiction of the
(continued)

                                              24
    An organizational chart reflecting the INS structure, as it existed in the
summer of 2001, is located on the next page.

II. Visitor Visas
      Atta and Alshehhi initially entered the country after obtaining B-1/B-2
visitor visas from a United States consulate abroad and later applied for a
change of status to become students once they had already entered the country.
In this section, we provide a brief description of the visitor visa.

        A.   Entrance of nonimmigrants into the United States
       The Immigration and Nationality Act (INA) provides that aliens may be
admitted to the United States as nonimmigrants (that is, aliens who do not
intend to permanently reside in the United States), for “such time and under
such conditions as the Attorney General may by regulations prescribe.”
8 U.S.C. § 1184(a)(1). Federal regulations provide that every nonimmigrant
must present at the time of entry “a valid passport and a valid visa unless either
or both documents have been waived.”7 8 CFR § 214.1(a)(3). Federal
regulations also require that nonimmigrants must depart the United States at
the expiration of their authorized period of admission or upon abandonment of
their authorized nonimmigrant status. 8 CFR § 214.1(a)(3).

        B.   Description of visitor visa classifications
        The INA defines a visitor as:
        an alien (other than one coming for the purpose of study or of
        performing skilled or unskilled labor or as a representative of
        foreign press, radio, film, or other foreign information media
        coming to engage in such vocation) having a residence in a
        foreign country which he has no intention of abandoning and


(continued)
Office of Programs. The Executive Associate Commissioner for Policy and Planning is also
responsible for advising the Commissioner on other issues that cross program lines or ha ve
inter-agency implications. The Office of Management is responsible for all administrative
issues including financial, human resource, and information resource matters.
    7
        Waiver issues are discussed in Chapter Three, Section III B 2, of this report.




                                               25
26
        who is visiting the United States temporarily for business or
        temporarily for pleasure.
8 USC § 1101(a)(15)(B). Visitors, or the “B” classification of nonimmigrants,
are divided between visitors entering for business purposes, who are given a
B-1 designation, and visitors entering for pleasure, who are given a B-2
designation. 8 CFR § 214.1(a)(1)(i) and (ii). The U.S. Department of State
issues visas to foreigners outside the United States. The visitor visa is typically
issued as a “B-1/B-2” visa, in other words, the visa covers both business and
pleasure categories. The INS then designates the entry as either B-1 or B-2
once the alien states his or her purpose at a port of entry and is approved for
admission.
      The B-1 “business visitor” visa classification allows admission of an
alien for a broad range of activities beyond commercial enterprises. Some of
these include: aliens employed abroad traveling to the United States for a
training program; aliens coming to install, service, or repair machinery at a
United States site; alien students at a foreign medical school coming to take an
elective clerkship; aliens coming temporarily to attend an executive seminar;
alien members of a recognized religious denomination coming temporarily and
solely to do missionary work on behalf of the denomination; certain camp
counselors and counselors in training; and participants in competitions for prize
money. See INS Operations Instructions 214.2(b)8; 8 CFR § 214.2(b).
      The B-2 “pleasure” visa classification also includes several broad
categories: aliens coming for tourism; aliens coming for health-related
activities; aliens participating in conventions, conferences, or convocations of
fraternal, social, or service organizations; aliens coming primarily for tourism
but who will also engage in a short course of study; or aliens coming to attend
courses for recreational purposes. See INS Inspector’s Field Manual
§ 15.4(b)(2)(B).




    8
      The INS’s Operations Instructions provide guidance and interpretations of the
regulations for INS employees and also provide additional information concerning the INS’s
policies and procedures.




                                           27
        C. Length of stay permitted by the visitor visa

            1.   Period of validity of the visa
      The period of validity for a nonimmigrant visa is the period during which
the alien may use the visa in applying for admission to the United States. This
period is determined by the State Department when the visa is issued. The
period of time that the alien is authorized to stay in the United States on a
particular entry is determined by the INS inspector at the port of entry. The
period of visa validity has no relation to the period of time that the inspector
may authorize the alien to stay in the United States.
      All United States nonimmigrant visas are limited to a maximum period of
validity of 10 years. The period of validity for particular visas is based
primarily on reciprocity: the State Department tries to accord the same
treatment on a reciprocal basis that a foreign country accords to nationals of the
United States.
      Visas generally permit multiple entries, meaning that they may be used
by the alien for unlimited entries into the United States for the period of
admission determined by the INS for each entry. However, consular officers
may limit the number of entries or limit the admissions to specified ports of
entries. This is based on such factors as the alien’s financial situation and the
stated purpose of entry.

            2.   Length of admission under the B-1/B-2 classification
       The standard B-2 admission is for six months.9 8 CFR § 214.2(b)(2); see
also, INS Operations Instruction 214.2(b). Although B-2 admissions may be
granted for up to a maximum of one year, INS policy provides that inspectors
require aliens to demonstrate a significant reason for an admission period
longer than six months, such as an extended course of medical treatment.
8 CFR § 214.2(b)(1).
       While B-1 business visitors also may be admitted for a maximum period
of one year, the INS inspectors at the ports we visited told the OIG that they
limit the length of stay of an alien with a B-1 visa to the time needed to

    9
       The INS is proposing to change the presumptive length of admission for a B-1/ B-2
visa to 30 days. See Chapter Seven of this report for further discussion of this issue.




                                            28
accomplish the stated purpose of the alien’s visit, plus a few days or weeks in
the event that the business purpose takes slightly longer than expected. The
INS Operations Instructions state that B-1 visitors shall be admitted only for
the period of time that is fair and reasonable for completion of the purpose of
the trip.

III. Foreign Students
       Foreign nationals also may be admitted to the United States as students.
Student status may be conferred on individuals studying full time at academic
institutions, which include language schools, or at vocational schools. Foreign
students in the United States at academic institutions or language schools are
designated as “F-1” students; vocational students are designated as “M-1”
students.10 Flight schools are considered by the INS to be vocational schools.11



    10
        The academic student is defined as a “bona fide student qualified to pursue a full
course of study and who seeks to enter the United States temporarily and solely for the
purpose of pursuing such a course of study consistent with section 214(l) at an established
college, university, seminary, conservatory, academic high school, elementary school, or
other academic institution or in a language training program in the United States.” The
vocational student is defined as “an alien having a residence in a foreign country which he
has no intention of abandoning who seeks to enter the United States temporarily and solely
for the purpose of pursuing a full course of study at an established vocational or other
recognized nonacademic institution (other than in a language training program) in the
United States.” 8 USC § 1101(a)(15)(f) and (m). A “full course of studies” is defined
separately for academic and vocational students. For vocational students, a “full course of
studies” is defined as at least 12 semester hours if the school is a community college or
junior college, 12 hours per week if it is a postsecondary vocational or business school, 18
clock hours of attendance a week if the dominant part of the course consists of classroom
instruction in a vocational school, and 22 clock hours of attendance a week if the dominant
part of the course of study consists of “shop or laboratory work.” 8 CFR § 214.2(m)(9). For
academic students, the hours required for a “full course of studies” depend on the type of
program (e.g., postgraduate, undergraduate, language school) that the student is taking. 8
CFR § 214.2(f)(6). Students who do not meet these ho urly requirements do not qualify for
an M-1 or F-1 visa. However, they can be admitted under a B-1/B-2 visa if the inspector
determines that their course of study is incidental to their primary purpose of pleasure or for
a business related purpose.
    11
      In Chapter Six of this report, we discuss general requirements in the foreign student
program, such as the requirement that schools be certified by the INS in order to accept
(continued)

                                              29
      If an alien intends to enter the United States as a full-time student, the
alien must obtain an F-1 or M-1 visa from the State Department at a consulate
outside the United States. The student visa process is described more fully in
Chapter Six.
      Aliens possessing B-1/B-2 visitor visas may change their status to that of
a student while in the United States. 8 USC § 1258. To change their status, the
aliens must file INS form I-539, Application to Extend/Change Nonimmigrant
Status, as well as the INS form I-20, the Certificate of Eligibility for
Nonimmigrant Student Status. The I-20 form includes information about the
school and the student’s proposed course of study, including the dates of the
course of study. These forms are sent to an INS service center for processing.
Once the INS adjudicates the case and approves it, a copy of the I-20 is sent to
the student and eventually a copy is sent to the school.
      Applicants are required to file the I-539 prior to the expiration of their
current authorized status. 8 CFR § 248.1(b). However, the applicant may start
school before filing an I-539. 12 If the applicant files the I-539 before his or her
current status expires and the I-539 form is still pending with the INS at the
time the applicant’s current status expires, the applicant is still legally entitled
to be in the United States.13 8 USC § 1182(a)(9)(B).
       Foreign students are permitted to stay in the United States for different
lengths of time, depending on their status and course of study. Academic, or
F-1, students are admitted for what is called “duration of status.” This means
that there is no specific end date; the duration of status lasts as long as the
student is “pursuing a full course of study.” The federal regulations state “[t]he
student is considered to be maintaining status if he or she is making normal
progress toward completing a course of studies.” Once the student completes
his or her studies, the student is given “60 days to prepare for departure from

(continued)
foreign students and a school’s obligation to notify the INS if a student is no longer enrolled
in the school.
    12
        The INS has proposed legislation to require nonimmigrants to complete the change of
status process before they are permitted to enroll in school. We discuss this proposed
change in Chapter Seven of this report.
    13
         We discuss the change of status process in more detail in Chapter Four of this report.




                                               30
the United States.” 8 CFR §214.2(f)(5)(i). Vocational students, or M-1
students, are authorized to be admitted “for the period of time necessary to
complete the course of study … plus thirty days within which to depart from
the United States or for one year, whichever is less.” 8 CFR § 214.2(m)(5).
      Student visas are not issued with expiration dates. Rather, the inspector
determines the length of stay at the POE based on the information on the I-20
and writes on the I-20 either “duration of status” if the student is an academic
student or the beginning and end dates of the course if the student is a
vocational student. If the student acquires student status through the I-539
process, the adjudicator fills in the length of stay on the I-20.
      Normally, foreign students with student visas are permitted to leave the
country and re-enter provided that they present the inspector with the student
copy of the I-20 and it has been signed by an authorized school representative.
Foreign students who have acquired student status through the I-539 process
retain that status only while in the United States. A change of status is not a
visa. Accordingly, if foreign students who have acquired student status
through the I-539 process leave the United States and want to re-enter to
continue their course of study, they must obtain a student visa at a consulate in
their country of residence to re-enter.




                                       31
                                 CHAPTER THREE
                  ATTA’S AND ALSHEHHI’S ENTRIES
                     INTO THE UNITED STATES
I.    Introduction
      This chapter discusses Atta’s and Alshehhi’s entries into the United
States, the decisions made by INS inspectors who handled their entries, and the
INS policies that relate to the actions taken by the inspectors with respect to
these entries. Atta and Alshehhi each entered the United States three times.
Each time, they presented a valid passport and an unexpired B-1/B-2 visitor
visa good for multiple entries.
      In this chapter, we discuss Atta’s entries first, and then turn to Alshehhi’s
entries. On the first and third entries, Atta was admitted through the primary
inspection process. On the second entry, he was referred to secondary where
he was more closely examined before being admitted. Similarly, Alshehhi was
also admitted through the primary inspection process on his first and third
entries and was admitted on his second entry after being referred for secondary
inspection. Before describing the INS’s handling of these entries and our
analysis of the INS’s actions, we provide background information on the INS
inspection process that aliens such as Atta and Alshehhi face when presenting
themselves for admission to the United States at ports of entry (POEs). At the
end of the chapter, we provide our conclusions concerning the admissions of
Atta and Alshehhi.

II. The Inspection Process
      Immigration Inspectors are INS officers who work at airport, seaport, and
land border POEs inspecting the documentation of persons as they attempt to
enter the United States. At major airports, inspectors work shifts and are
supervised by shift supervisors who report to an assistant port director or a
watch commander. The assistant port directors or watch commanders report to
a Deputy Port Director, who in turn reports to the Port Director. 14



     14
        The Port Director reports to the Assistant District Director for Inspections, whose
office is usually located in the district office of the district that covers the geographic
(continued)

                                              32
     A.    The primary inspection process
      When aliens disembark from an airplane, they initially go through the
primary inspection process. The primary inspection area is staffed by
inspectors who ensure that the I-94 form (Arrival/Departure Record)15 is
complete, legible, and contains current information; briefly interview aliens to
determine the purpose of their visit and the proposed length of stay; and check
documents presented to determine their authenticity as well as expiration dates.
The inspector looks at the I-94, visa, and passport, as well as any other
documents that should be presented (such as an I-20), in order to determine if
these documents are valid, authentic, and complete. The inspector may also
review the passport for the last exits and entries to the United States to see if
the aliens overstayed their previous authorized admissions. To admit the alien,
the inspector must be convinced that the alien’s purpose for entering the
country matches the purpose for the type of visa contained in the passport.
      If the passport contains a machine-readable visa or encoding on a
passport’s biographical page, the inspector swipes the passport through an
automated reader. 16 This initiates a number of automated checks in the
Interagency Border Information System (IBIS), which contains “lookout”
databases maintained by the U.S. Customs Service; the State Department; the
Bureau of Alcohol, Tobacco and Firearms; the Drug Enforcement
Administration; the Royal Canadian Mounted Police; and other law
enforcement agencies.17 It also includes warrants and arrests from the FBI’s

(continued)
location of the airport. The Assistant District Director reports to the Deputy District
Director, who reports to the District Director.
    15
        The I-94 is a two-part, two-sided perforated form. The top part of the form is used to
record an alien’s arrival information, and the bottom part of the form is used to record an
alien’s departure from the country. The alien records certain identifying information on
both parts of the form. Each I-94 form contains a unique admission number printed on both
portions that the INS uses to record and match the arrival and departure records of
nonimmigrants. A blank I-94 is included in the Appendix at page A-1.
    16
       If the visa or passport is not encoded for machine reading, the inspector should enter
the biographical data manually into the system.
    17
       In some instances, the automated checks against the information in IBIS occur before
the passengers arrive in the United States. Through the Advance Passenger Information
System (APIS), certain identifying information about airline passengers is collected from
(continued)

                                              33
National Crime Information Center database (NCIC) and lookouts posted in the
INS’s National Automated Immigration Lookout System (NAILS).
      If the computer check does not indicate a “hit” and the inspector does not
determine that there is any other reason to refer the alien for secondary
inspection, the inspector places an admission stamp on the top and bottom of
the I-94 and the passport. The admission stamp includes the 3-digit port code,
the inspector’s assigned number, the current date, the classification of the visa,
and the date until which the alien is admitted. The inspector also indicates in
the computer system that the person has been “confirmed” or admitted via the
primary inspection process.
      The top portion of the I-94 (the arrival I-94) is retained by the inspector.18
The bottom portion (the departure I-94) is returned to the passenger. The
nonimmigrant must retain the departure I-94 at all times while in the United
States. Prior to departing the United States, the passenger presents the
departure I-94 at check-in or at the gate, depending on the airline’s policy. 19

(continued)
airlines before the passengers arrive in the United States. The information in APIS is then
checked against the IBIS databases. These checks are completed before the passengers land
in the United States. If a hit or a lookout is found, this information is stored in IBIS. When
the inspector swipes the passport, the hit or lookout is presented automatically on the
primary inspector’s screen.
    18
        The arrival I-94s are collected and mailed from the POE to an INS contractor for data
entry. The alien’s identifying information, including the admission number and the date of
arrival, is eventually uploaded into the Nonimmigrant Information System (NIIS), the INS’s
primary database for tracking the entries and exits of aliens in the United States.
    19
       The airlines collect the departure I-94 forms and send them to INS staff at the airport.
The INS sends the departure I-94s to a contractor for data entry, and the recorded
information is eventually uploaded to NIIS. Before September 11, 2001, I-94 forms were
mailed via the United States Postal Service to the contractor. Since September 11, 2001,
these forms have been sent by express courier within two days for entry by the contractor.
The OIG concluded in a previous review that the INS did not have an effective system in
place for obtaining departure I-94s from airlines and that the INS should take immediate
action to improve the collection of these forms. See “[INS] Monitoring of Nonimmigrant
Overstays,” Report Number I-97-08, September 1997. The OIG recently completed a
follow-up to this review and concluded that the INS still has not taken effective action to
improve the collection of I-94s, particularly departure records; the INS does not actively
monitor airline compliance with the requirement to provide correct and complete departure
(continued)

                                              34
       If the primary inspector determines that the alien is subject to a “hit” in
the computer databases or does not have a valid passport or visa, the primary
inspector should refer the person to “secondary inspection” for further
interview and review by a secondary inspector. The primary inspector does not
have the authority to deny the alien’s entry. Rather, the primary inspector’s job
is to process people as quickly as possible and to refer them to secondary
inspection if there is any concern about their admissibility. Primary inspectors
are expected to spend no more than 45 to 60 seconds on average with each
passenger. 20

     B.    The secondary inspection process
      When referring the passenger to secondary inspection, 21 the primary
inspector enters comments into the computer system indicating that a referral
to secondary is being made and the reason for the referral. The alien is then
taken to or directed to the secondary inspection area, which is usually adjacent
to where the primary inspection occurred.


(continued)
I-94s; and the INS has not yet implemented regulations to fine airlines that fail to collect the
departure I-94s. See “Follow-up Report on INS Efforts to Improve the Control of
Nonimmigrant Overstays,” Report Number I-2002-006, April 2002.
    20
        Until recently, the INS was required by law to admit international passengers within
45 minutes of their arrival at the inspection process. 8 USC § 1356(g). The INS’s
Inspector’s Field Manual states that in order to comply with this requirement, the INS has
established inspector-to-passenger ratios as a guide to help ensure that waiting time for
arriving passengers does not exceed 45 minutes. The Inspector’s Field Manual states, “The
normal staffing levels are: one inspector per 45 passengers on flights which are all aliens;
one inspector per 100 passengers on flights which are all U.S. citizens and returning
residents; and one inspector per 60 passengers on mixed flights.” See Inspector’s Field
Manual § 22.1. The Enhanced Border Security and Visa Entry Reform Act of 2001 (H.R.
3525), which was approved by Congress and was recently signed by the President, repeals
this section of the Immigration and Nationality Act.
    21
       Even without a hit in the computer databases, the primary inspector’s job is to
determine if the alien has a valid passport, the proper visa, and that his or her purpose for
entering the country matches the purposes allowed under the visa classification. According
to managers and line inspectors we interviewed, the primary inspector needs only a
suspicion of inadmissibility to send a passenger to secondary inspection.




                                              35
     At major POEs, the secondary inspection area is typically staffed by one
or two senior immigration inspectors, a supervisory inspector, and several
experienced inspectors. The secondary inspector re-interviews the alien,
reviews his or her documentation, and runs additional computer checks. The
secondary inspector has access not only to IBIS and other law enforcement
databases but also to several additional INS databases, including the INS’s
Central Index System (which shows whether the INS has an alien file (A-file)
on the person), NIIS, STSC,22 and CLAIMS.23
      If the secondary inspector admits the passenger, the admission need not
be approved by a supervisor. However, more complex cases requiring
application and interpretation of a legal provision are normally presented to a
supervisor for concurrence and final decision. The secondary inspector should
note in the computer system comments addressing the referral by the primary
inspector and the reasons the person is being admitted.
      The secondary inspector may determine that the person should not be
admitted and that “adverse action” is warranted. Adverse action generally
means removal or exclusion based on a violation of the INA or other federal
statutes.24 The secondary inspector must get approval from a supervisor prior
to taking adverse action.

III. Atta’s Entries into the United States
      Mohamed Mohamed Elamir Atta, born on September 1, 1968, was a
citizen of Egypt. Atta held an Egyptian passport, which was valid until

    22
        STSC is the Student and Schools System, an INS database that records information
on the schools authorized to accept foreign students and information about nonimmigrants
with student visas or student status. This database is discussed more fully in Chapter Six of
this report.
    23
       CLAIMS is the Computer Linked Application Information Management System that
is used primarily to record the INS’s adjudications of applications for benefits. CLAIMS is
discussed more fully in Chapter Four of this report.
    24
        If the secondary inspector develops reasonable suspicion that the alien has violated
the INA or other federal statutes, the secondary inspector can detain the alien, search the
alien’s personal items without a warrant, place the alien under oath, and take a statement.
Adverse action also may include temporary detention of the individual pending further
inquiries or preparation of a criminal action.




                                              36
May 7, 2007. On May 18, 2000, Atta was issued a B-1/B-2 visa at the United
States consulate in Berlin, Germany. The multiple-entry visa was valid for five
years. Atta used this passport and visa on his three entries to the United States,
which we describe in turn.
     We show a timeline of the INS’s contacts with Atta on the next page.

    A.    Atta’s first entry – June 3, 2000, Newark, New Jersey
      According to INS records, Atta first entered the United States on June 3,
2000, at Newark International Airport in New Jersey, after flying from Prague
International Airport in the Czech Republic. The OIG confirmed that a “hit” or
a “lookout” did not appear on the IBIS screen when the inspector swiped Atta’s
passport. Atta was admitted by the primary INS inspector without being
referred to secondary. Atta received a B-2 admission that allowed him to stay
in the United States for six months until December 2, 2000.
      The primary INS inspector who admitted Atta had been employed with
the INS as an inspector since April 1998. He told the OIG that he did not recall
the inspection of Atta.
      Our review of the evidence available to the inspector does not reveal any
basis for concluding that his admission of Atta was contrary to INS policies
and practices. Atta’s passport and visa appear to have been valid, and there
was no information available to the inspector through lookout checks that
would have suggested that Atta should be referred to secondary inspection.

    B.    Atta’s second entry – January 10, 2001, Miami, Florida
      As we discuss in more detail in the next chapter, in August 2000 Atta
(and Alshehhi) enrolled in a professional pilot course at Huffman Aviation
International, a flight training school in Venice, Florida. He submitted an
application to the INS (INS form I-539) requesting that his status as a visitor to
the United States be changed to that of a student. The INS received his change
of status form on September 19, 2000, but did not adjudicate it until July 2001.
Atta finished his flight training at Huffman Aviation on December 19, 2000.

          1.   Processing Atta at the POE
     On January 4, 2001, Atta left the United States from Miami International
Airport for Madrid, Spain. Six days later, on January 10, 2001, he re-entered
the United States at Miami Airport from Madrid.


                                       37
                                                                                                      7/07/01
                                                                 1/04/01
                                      12/19/00                   Atta departs from Miami         Atta departs from Miami Intl
                                      Atta takes the FAA         Intl Airport, FL,               Airport, FL, to Zurich, Switzerland.
                                      examination to obtain a to Madrid, Spain.
                                      commercial pilot's license.
                                  8/29/00
                                                                                                                   9/11/01
                                  Huffman Aviation
                                  completes and gives                                                          Terrorists attack
                                  Atta INS Form I-20.                                                         the United States.
                       7/03/00
               Atta enrolls at Huffman
               Aviation in Venice, FL.
                 5/18/00
     Atta issued B-1/B-2
visa in Berlin, Germany,
    valid for 60 months.


            5/1     6/1    7/1   8/1     9 / 1 10/1   11/1 12/1   1/1   2/1   3/1   4/1   5/1   6/1   7/1     8/1   9/1   10/1 11/1 12/1   1/1   2/1   3/1   4/1


  April 2000      6/03/00                                                                                                                                    April 2002
         Atta arrives at Newark          9/22/ 0 0             1/10/01
                                  INS receives Atta's      Atta arrives in              5/02/01                                                        3/11/02
             Intl Airport, NJ;
                                      I-20 form  and     Miami, FL; admitted             Atta attempts to                                         Huffman Aviation
               admitted as                                                                                             9/24/01
                                    I-539 change of        as a B-2 visitor     extend his companion's                                            receives school's
               a B-2 visitor                                                                                        ACS, Inc. in
              until 12/02/00.      status application       until 9/08/01. period of admission at INS           London, KY, receives
                                                                                                                                                    copy of Atta's
                                 requesting a change                        Miami Deferred Inspection;                                           approved I-20 form.
                                                                                                                school's copy of Atta's
                               from visitor to vocational         as a result, Atta's 9/08/01 admission          approved I-20 form.
                                     student status.                        date is changed to 7/09/01.
                                                                                                    7/17/01
                                                                                       INS approves Atta's
                                                                                    I-539 change of status;
                                                                                        granted M-1 status
                                                                                            until 10/01/01.
                                                                                                         7/19/01
                                                                                           Atta arrives at Hartsfield Atlanta
                                                                                            Intl Airport, GA; admitted as a
                                                                                               B-1 visitor until 11/12/01.



                                                                                                                                                                          elo




                                                                               38
      The OIG confirmed that a “hit” or a “lookout” did not appear on the IBIS
screen when the primary inspector swiped Atta’s passport. After being
interviewed by the primary inspector, however, Atta was sent to secondary.
After an interview at secondary inspection, he was admitted as a B-2 visitor
until September 8, 2001.
      The primary inspector who referred Atta to secondary for further
inspection wrote in his electronic referral message, “PAX [passenger] turned in
[an I-20 form] but has had a responce [sic], meanwhile he’s attending flight
training school, already was in school for 5/6 months, please verify.” After
reviewing this referral report with the OIG, the primary inspector stated that he
thought the referral should have read “has not had a response [to his change of
status application].”
      The primary inspector did not recall the specifics of his inspection of
Atta. Based upon his review of the referral report during his interview with the
OIG, he stated that he must have concluded that because Atta was in flight
school, he needed an M-1 (vocational student) visa. We asked the primary
inspector how he would have learned that Atta had applied for student status
with the INS. In his initial interview with the OIG in November 2001, the
inspector told the OIG that he thought that Atta had presented an I-20, but in
subsequent OIG interviews conducted in March 2002, the inspector told the
OIG that he could not recall if Atta had an I-20 with him. Because the primary
inspector does not have access to any database with this information, we
believe that Atta must have told the inspector that he was attending school and
had applied for a change of status.
      The secondary inspector who interviewed Atta had been an inspector for
approximately 10 years. The secondary inspector told the OIG he did not
remember interviewing Atta. He said that he believed he would have followed
his normal routine, which included checking several databases, including
NCIC, CLAIMS, and STSC, to determine Atta’s admissibility. The secondary
inspector’s notes recorded in the referral report stated the following: “SUBJ
applied for M-1. I.S. Adjusted status. No overstay /No removal grounds
found.”
     Based upon INS computer records and these notes, it appears that the
secondary inspector accessed CLAIMS and determined that Atta had applied to




                                       39
change his status to an M-1 classification. According to the secondary
inspector, “I.S.” means “in status,” which indicates that the secondary inspector
concluded that Atta had not overstayed.25 In addition, the secondary inspector
told the OIG that because he indicated “adjusted status” in the referral report,
he likely believed that Atta’s change of status application had been approved.
We do not know how the secondary inspector could have come to that
conclusion because the request had not been approved at that time and INS
databases would not have reflected the approval until many months later.
      The secondary inspector told the OIG that he likely admitted Atta
because he believed Atta was a legitimate student, had no criminal record, and
had not been an overstay on his last visit. The secondary inspector explained
that he must have concluded from all of the circumstances that, even though
Atta would be attending school while in the country, Atta’s primary purpose
was that of pleasure and that Atta therefore fit within the B-2 category. He said
that even if he had believed that Atta had only filed for a change of status but
had not yet been approved, he would have likely concluded that Atta was a
legitimate student who was also entitled to be admitted as a B-2 visitor.
      The secondary inspector added that even if Atta had told him that his
primary purpose for coming into the United States on this occasion was to go
to school full-time (in other words, that his purpose did not match the purposes
allowed under the B-2 category), Atta would not likely have been denied entry
for failing to have a student visa. He said that under these circumstances – that
Atta intended to enter as a full-time student, had a B-1/B-2 visa, and evidenced
no other basis for exclusion – he would have presented the issue to his
supervisors. According to the secondary inspector, his supervisors would not
have supported a recommendation to deny Atta entry since the Miami airport’s

    25
        Even though Atta left the United States a month after his prior admission had expired,
he did not overstay his prior admission. Because Atta had filed an I-539 on September 19,
2000, requesting to change his status from a visitor to a student, he was authorized to stay in
the United States while his application was pending. The Illegal Immigration Reform and
Immigrant Responsibility Act (IIRIRA) of 1996 provided for the automatic voidance of
nonimmigrant visas in cases of overstays. But Section 212 of the INA provided that a
person who has timely filed a request for a change of status is not considered “unlawfully
present” and is in an authorized period of stay. 8 USC § 1182(a)(9)(B). In Section III B 3
of this chapter we discuss the effect of a nonimmigrant’s departure from the United States
while his or her I-539 application is pending.




                                              40
practice was to use a visa waiver process to admit aliens who appeared to be
legitimate students acting in good faith who did not possess the proper
documentation. The secondary inspector added that supervisors discouraged
preparing a case for adverse action in cases in which supervisors were certain
to grant a visa waiver.
      According to the secondary inspector and numerous inspections
supervisors, before September 11 foreign students typically were not
scrutinized closely because they were viewed as beneficial to the nation’s
schools and also were not viewed as a concern for illegally immigrating or
working in the United States. Several INS inspectors told the OIG that the
prevailing INS practice at that time was that students would not have been
excluded for failing to have the proper documentation if they did not appear to
have a criminal record or prior immigration violations. Rather, students who
appeared to be legitimate students acting in good faith would be admitted
through the visa waiver process. The secondary inspector who admitted Atta
told the OIG that he did not feel compelled to admit students under an
improper visa category. He said that it was his practice to determine, based on
the circumstances of the particular student, whether the student could
legitimately be admitted under the visa classification in his or her passport,
which in this case was a B-1 or B-2 visitor.

         2.   OIG analysis
      From the available record, it appears that the primary inspector properly
referred Atta in this encounter to the secondary inspection process since the
primary inspector had learned from Atta that he intended to be a student, and
therefore the inspector had concluded that further review was necessary to
determine whether Atta should have had a student visa.
      Atta’s eligibility for entry by the secondary inspector depended on what
Atta said was his purpose for entering the country. The secondary inspector
explained that he must have concluded from all of the circumstances that, even
though Atta would be attending school while in the country, Atta’s primary
purpose was that of pleasure and that Atta fit within the B-2 category. The
secondary inspector correctly observed that a student can be admitted under the
B-2 category if the educational purposes are “incidental” to the pleasure
purposes. Therefore, if the inspector believed that Atta was not intending to
attend school full-time (that is taking less than 18 hours of class time or less



                                       41
than 22 hours of flying time per week), admitting Atta as a B-2 visitor would
have been appropriate.
      The fact that the secondary inspector was aware that Atta had filed for a
change of status, however, raises the question of whether the inspector
incorrectly considered Atta’s educational purpose as only being “incidental” to
a pleasure purpose. Under immigration regulations, an alien cannot receive an
M-1 visa or a change of status to an M-1 unless the alien intends to attend
school on a full-time basis. Accordingly, the fact that Atta previously had
requested a change of status to M-1 was at least an indicator that his purpose
might not match the purpose for the B-2 visa thereby necessitating further
inquiry by the secondary inspector. Because the secondary inspector does not
recall the details of his conversation with Atta and because the written record is
limited, we cannot reach a definitive conclusion whether the secondary
inspector correctly or incorrectly assessed Atta’s purpose based on the
information available to him.
      However, even if the secondary inspector had concluded that Atta
intended to attend school on a full-time basis and therefore needed a student
visa rather than the visitor visa, Atta likely would have been admitted by the
secondary inspector’s supervisors through the waiver process even though Atta
was lacking the appropriate visa. 26 The majority of INS inspectors and
managers who we interviewed at the Miami POE told the OIG that even if Atta
should have had a student visa, they likely would have admitted him through
the waiver process.
      We therefore examined the circumstances under which the INS grants
waivers. The waiver procedure allows aliens into the country even if they do
not possess the proper paperwork. Section 212(d)(4) of the INA and the
accompanying regulations provide that aliens may be admitted in the discretion
of the INS if the aliens demonstrate that they cannot present the required
documents because of an “unforeseen emergency.” See 8 USC §1182(d)(4)

    26
        The waiver process includes filling out INS form I-193 and paying the prescribed fee,
which at the time was $170.00 and has since been raised to $195.00. Secondary inspectors
can initiate the waiver process but only with advance approval from a supervisor. If a
secondary inspector presents a case to his or her supervisor recommending adverse action,
and the supervisor believes that a visa waiver is appropriate, the supervisor can initiate the
waiver process.




                                             42
and 8 CFR § 212.1(g). The phrase “unforeseen emergency” is not further
defined in the statute or the regulations. The phrase “unforeseen emergency” is
described in the Inspector’s Field Manual as:
     • An alien arriving for a medical emergency.
     • An alien accompanying or following to join a person arriving for a
         medical emergency.
     • An alien whose passport or visa was lost or stolen within 48 hours of
         departing the last port of embarkation for the United States.
      INS officials from both the Miami and JFK POEs 27 agreed that,
according to INA § 212(d)(4), discretionary waivers for aliens are based on
“unforeseen emergencies.”28 These officials acknowledged, however, that
Atta’s situation would not have constituted an unforeseen emergency within
the restrictive definition of that term. The training officer at JFK stated that
over many years, INS inspectors have stretched the regulations “to the limit.”
      We found that neither port had any written policy that discussed
scenarios that might constitute “unforeseen emergencies” that should result in a
waiver or which discussed the limits on such waivers. INS personnel at both
ports stated that, before September 11, 2001, their supervisors exercised
significant discretion in granting waivers in a wide variety of circumstances.
They said that waivers were granted when it appeared “equitable” to admit
aliens who were not attempting to engage in fraud and who had made a good-
faith effort to comply with the INS regulations. Some officials stated that their
primary concerns were whether the alien had a criminal history, a history of
overstays, or appeared to be attempting to commit fraud or to immigrate
without an immigrant visa. They said it also helped the alien’s case for a

    27
        Because Alshehhi entered through secondary inspection at JFK Airport, we discussed
the issue of waiver with inspectors and supervisors there as well.
    28
        One INS official in Miami incorrectly told the OIG that waivers also could be based
on the Attorney General’s discretion under INA § 212(d)(3)(B). This section provides for a
limited waiver that applies only to individuals who are inadmissible on grounds related to
criminal records, terrorist activities, health issues, security and related grounds, controlled
substance trafficking, membership in a totalitarian party, and other related issues. Further,
this section contemplates approval of the waiver by a consular officer overseas, pursuant to
INS form I-192.




                                              43
waiver if, despite missing documents, the alien also had attempted to comply
with legal requirements in other respects (such as by filing an application for
extension of stay or for a change in status).
      The New York Area Port Director told the OIG that there were a number
of options for dealing with alien students who were pursuing education, had
financial resources, and had no negative criminal or immigration history.
These options included granting a waiver, granting a 30-day deferral for the
student to obtain a new I-20 if the defect involved a missing I-20, 29 or
determining that the student fit within the broad scope of the B-1/B-2
classifications. He indicated that the last option would be to refuse entry and
send the student home. Senior inspections officials in the Miami POE agreed
that prior to September 11, 2001, the prevailing philosophy was to “find a
way” to admit students like Atta or Alshehhi. 30
     Accordingly, even if the secondary inspector had believed that Atta
needed an M-1 visa, which he did not possess, Atta likely would have been
admitted through the waiver procedure then in use at the Miami POE, even
though the practice was not in accordance with INS policy.




    29
        Foreign students with a student visa must present not only their student visa but also
their copy of the I-20 form in order to re-enter the country after a temporary absence. The
second page of the I-20 form must be endorsed by an authorized school representative. If a
nonimmigrant is in possession of the student visa but not the I-20, an inspector is permitted
to admit the student for 30 days after completing INS form I-515. The student is required to
obtain the necessary I-20 form or endorsement on the I-20, and to submit within the 30-day
period the I-515, I-20, and I-94 to the INS office having jurisdiction over the school he or
she plans to attend. Since Atta did not have a completed I-20 (his was awaiting processing),
this procedure would not have been applicable to him.
    30
        The New York Port Director told us that the practice of regularly granting waivers for
aliens who forgot visas and even passports changed drastically after September 11, 2001.
Former Executive Associate Commissione r for Field Operations Michael Pearson issued a
memorandum to all ports on November 28, 2001, setting forth a new policy that severely
restricted the granting of waivers. In the Appendix at p. A-2 we show a chart reflecting the
decline in waivers at the JFK POEs after September 11.




                                             44
            3.   Effect of departure while change of status application is
                 pending
      We also investigated whether Atta’s (and Alshehhi’s) departures from the
United States on more than one occasion while their I-539 applications were
pending should have had any effect on their ability to re-enter the country. In
the next chapter of the report, we discuss whether their departures should have
had an effect on the adjudication of their I-539 applications.
      INS personnel consistently reported to the OIG that aliens abandon their
I-539 application if they leave the country while the application is pending. In
addition, the OIG obtained a June 18, 2001, memorandum from Thomas Cook,
Acting Assistant Commissioner for Adjudications, addressed to all Service
Center Directors, District Directors, and Officers in Charge stating:
               Service officers are reminded an alien on whose behalf a
         change of nonimmigrant status has been filed and who travels
         outside the United States before the request is adjudicated is
         considered to have abandoned the request for a change of
         nonimmmigrant status. This has been, and remains, the
         Service’s long-standing policy. [31]
       We sought to determine how this abandonment policy would affect the
alien’s re-entry into the United States. We found that the fact that the alien
previously applied for a change of status and then abandoned that application
by leaving the country does not automatically affect the alien’s re-entry.
According to representatives from FLETC (the training academy responsible
for training immigration inspectors), the inspector’s job is to determine the
alien’s intent at the time of entry, and this inspection is not necessarily affected
by the fact that the alien previously requested a change of status and then
abandoned that request. Inspectors and managers at the Miami and JFK POEs

    31
        Beyond the Cook memorandum, we found no written record of this policy. The INA
and immigration regulations do not address the effect of an alien’s departure from the
United States on the alien’s I-539 application for a change of status or the alien’s re-entry
into the United States when that application is still pending at the time of the departure or re-
entry. No one we interviewed could point to this policy in writing other than the Cook
memorandum. The INS’s Operations Instructions and the Inspector’s Field Manual do not
address this topic, and we were told by representatives of the Federal Law Enforcement
Training Center (FLETC) that this policy was not in any training manuals used at FLETC.




                                               45
also stated that the alien’s purpose at the time of entry was the determining
factor. Inspection personnel indicated that if an alien stated that he or she was
returning for the purpose of attending school full-time, then the alien would
need either an F-1 or M-1 visa regardless of the status of the I-539. 32 But they
also consistently indicated that the fact that an alien has previously filed a
request to change his or her status to that of a student does not necessarily
require the alien at the time of the next entry to have an F-1 or M-1 visa. If the
alien no longer intended to pursue a “full course of study,” the alien could be
admitted on other grounds.
       We explored the abandoned I-539 issue with respect to Atta’s second
entry, since the inspectors became aware that Atta had previously filed for a
change of status. The secondary inspector told the OIG that he did not believe
that Atta’s I-539 application would have been abandoned by his departure from
the country. Although this was an incorrect statement of INS policy, the
inspector also stated that even if the I-539 petition had been abandoned, the
fact that Atta had filed the I-539 application was still evidence that he was
attempting to be a legitimate student, and his analysis and approval of Atta’s
admission would have remained the same. The other inspection personnel we
interviewed also said that an abandoned I-539 application would not have
changed their analysis that Atta was a legitimate student who would have
received a waiver.
      Although Atta’s and Alshehhi’s abandonment of their I-539 applications
would not have formed the sole basis for excluding them at the time of re-entry
into the country, we believe their cases also illustrate the fact that INS
inspectors lack important information when assessing an alien’s eligibility for
admission into the United States. Primary inspectors are not made aware
through automated checks whether an alien has a change of status application
pending, as Atta and Alshehhi did when they each entered the country twice in
2001. If the primary inspectors had known this, they would have had reason to
question whether Atta and Alshehhi in fact intended to continue to be students,


    32
        An alien must have an appropriate visa (or a waiver) at the time of entry. An
application for a change of status is not a visa. Indeed, even an approved I-539 change of
status is not a visa. Therefore, an alien who has never filed for a change of status, an alien
who has filed an I-539 but abandoned the petition by departing, and an alien who has been
granted a change of status are essentially the same for purposes of re-entry.




                                              46
had already completed their schooling and were returning for some other
purpose, or were entering as visitors as indicated by their B-1/B-2 visas.
      INS inspectors are also missing another piece of important information
concerning students – whether they are, in fact, still going to school or have
terminated their studies. The evidence shows that Atta represented to the
primary inspector on this occasion that he had been in school for five or six
months, and we found that the secondary inspector likely discussed Atta’s
attendance at Huffman Aviation once the secondary inspector was aware of
Atta’s I-539 application. But neither inspector was aware that Atta had in fact
completed his schooling the month before in December, since the INS does not
collect this information about foreign students.33

           4.   Atta’s length of admission
      According to INS records in NIIS, on January 10, 2001, the secondary
inspector admitted Atta as a B-2 visitor for 8 months, until September 8, 2001,
rather than for the 6-month period regularly granted to B-2 visitors. It is not
clear why Atta was admitted for this time period.34
      The 8-month B-2 admission was outside of the normal admission period
according to officials at the Miami and JFK POEs and at FLETC. We received
contradictory information, however, regarding whether this was an error by the
secondary inspector. Two supervisors told us that Atta should not have been

    33
      We discuss this issue and other problems in the INS’s foreign student program in
more detail in Chapter Six of this report.
    34
        Atta’s departure I-94, which we obtained from the contractor, shows a stamp
authorizing admission until February 9, 2001. That date is crossed out and what appears to
be another date is handwritten underneath the stamped date. The handwritten date is
difficult to read, however, and could be interpreted as authorizing Atta’s entry until
September 2001 or July 2001. We believe that the likely scenario is that the primary
inspector initially authorized Atta to stay until February but then decided to send Atta to
secondary. The secondary inspector then handwrote the actual admission date after
interviewing Atta. Because the INS computer system reflects that Atta was authorized to
stay until September, it appears that the handwritten date was interpreted to indicate a
September date. The secondary inspector was unable to identify the handwriting, tell the
date that was written on the form or recall other details to assist us in interpreting the
handwriting. In any case, Atta’s admission date was subsequently changed to July 2001 (for
reasons that we discuss below).




                                            47
granted the extra two months and that the secondary inspector should have
written on the I-94 why the extra time was being granted. Some INS officials
said that supervisory approval was required to allow more than the 6-month
admission. Other INS officials indicated, however, that the decision was
within the inspector’s discretion.
      In any case, Atta’s entry period was later changed to six months. On
May 2, 2001, Atta went to the Miami District Office to inquire about extending
the date of admission for a companion who also had entered the United States
on a B-2 visa on January 10, 2001, but had been given only a 6-month
admission instead of the 8-month admission given to Atta. Once at the District
Office, Atta spoke to an immigration inspector who normally was assigned to
work at the Miami airport, but who was working a 1-day detail at the District
Office.
      According to this inspector, Atta and his companion requested that Atta’s
friend’s 6-month admission be extended to 8 months since Atta had received an
8-month admission. Atta showed the inspector his and his friend’s I-94 and
passport. The inspector told the OIG that she determined that since Atta was
admitted to the United States with a B-2 visa, he should have been permitted to
stay a maximum of six months. The inspector’s supervisor at the District
Office concurred and stated that if there was a good reason for an 8-month
visitor visa, it should have been noted on the I-94. Therefore, to correct the
mistaken 8-month admission for Atta, the inspector made a notation on the
back of Atta’s I-94 that an error had been made, sent this I-94 to the contractor
who data enters information from the I-94, issued Atta a new I-94 with an
admission date for six months until July 9, 2001, and noted in the “comments”
section that the previous I-94 had been issued in error. 35


    35
       When we reviewed INS records, they appeared to reflect two entries by Atta into the
United States on January 10, 2001, which initially raised a question as to whether Atta had
entered twice on the same day or whether a second person posing as Atta also entered on
January 10, 2001. The NIIS printout for the first entry reflects that Atta entered with an
admission period of January 10, 2001, to September 8, 2001 (admission number
68653985708). The second record reflects a second entry on January 10, 2001, with an
admission period from January 10, 2001, to July 9, 2001 (admission number 10847166009).
However, this occurred because the inspector at the Miami District Office who changed
Atta’s admission date failed to follow the proper procedure to ensure that the previous entry
would be corrected, and a new entry was created in NIIS. The inspector sent the old I-94
(continued)

                                             48
     C. Atta’s third entry – July 19, 2001, Miami, Florida
      Atta left the United States again from Miami International Airport on
July 7, 2001, headed for Zurich, Switzerland. He re-entered the United States
on July 19, 2001, at Atlanta Hartsfield International Airport, using his B-1/B-2
visa. The OIG confirmed that a “hit” or a “lookout” did not appear on the IBIS
screen when the primary inspector swiped Atta’s passport.36 The OIG also
confirmed that Atta was admitted through the primary inspection process and
was not referred to secondary.
      At the Atlanta airport, Atta was inspected by a primary inspector who
had been employed with the INS as an inspector since 1997. This inspector
told the OIG that he did not recall the inspection of Atta. Atta was admitted for
four months, until November 12, 2001, as a B-1 visitor.
      As noted previously, the B-1/-B-2 visa permits entry for either business
(B-1) or pleasure (B-2) purposes. After the alien states his purpose for visiting,
the inspector admits the alien under one of the two categories. It therefore
appears that Atta stated some business purpose for visiting that fit within the
B-1 category, even though his previous entries had been under the B-2
category. The inspector did not recall Atta or why he admitted Atta for a
business purpose, and no INS record sheds further light on the reason for Atta’s
admission under a B-1 visa.
      We also sought to determine whether the fact that Atta had recently
entered the United States twice for six months on each occasion should have
affected the inspection process. The OIG found no INS requirement or policy,

(continued)
and the corrected I-94 to the contractor which data enters I-94s for the INS. The May 2,
2001, transaction with Atta was data entered and then uploaded to NIIS as if it were a new
entry by Atta. This happened because the inspector issued a new I-94 with a new admission
number on it. To prevent two entries from occurring in NIIS, the inspector should have
crossed out the admission number on the new I-94, made a reference to the previous
admission number and noted that it was not a new entry.
    36
        The OIG obtained an FBI document indicating that Atta was issued a citation for a
traffic violation in Fort Lauderdale, Florida, on April 26, 2001, and that a warrant for his
arrest was issued on June 4, 2001, for failing to appear in court. The evidence shows,
however, that this information would not have appeared on the IBIS screen of the primary
inspector.




                                              49
written or otherwise, that an alien be referred to secondary based solely on the
fact that the alien had departed and re-entered the United States recently on
several occasions. We were informed by INS officials that multiple entries is
but one factor the inspector uses in determining whether the alien appears
suspicious or appears to be attempting to reside or work in the United States.
Our review of the information available to the inspector does not reveal any
basis for concluding his admission of Atta was improper.

IV. Alshehhi’s Entries into the United States
      Marwan Yousef Mohamed R-Lekrab Alshehhi, born on May 9, 1978,
was a citizen of the United Arab Emirates. Alshehhi held a United Arab
Emirates passport, issued January 2, 2000, and valid until January 1, 2005. On
January 18, 2000, Alshehhi was issued a B-1/B-2 visa at the United States
Consulate in Dubai, United Arab Emirates. This multiple-entry visa was valid
for 10 years, until January 17, 2010. Alshehhi used this passport and visa on
each of his three entries to the United States, which we describe in turn.
      We show a timeline of Alshehhi’s contacts with the INS on the next page
of the report.

    A.    Alshehhi’s first entry – May 29, 2000, Newark, New Jersey
      According to INS records, on May 29, 2000, Alshehhi flew from
Brussels, Belgium, to Newark International Airport in New Jersey. His arrival
I-94 listed his country of citizenship as the United Arab Emirates and his
country of residence as Germany.
      The OIG confirmed that a “hit” or a “lookout” did not appear on the IBIS
screen when the primary inspector swiped Alshehhi’s passport. He was
admitted through the primary inspection process as a B-2 visitor for six months
and was not referred to secondary inspection.
      The primary inspector who admitted Alshehhi had been employed with
the INS as an inspector since May 1997. He told the OIG that he did not recall
the inspection.
      The inspector said that when encountering an alien with a B-1/B-2 visa
and no prior entries recorded in his passport, he would have asked questions
concerning the purpose of the trip, the anticipated length of the trip, who the
alien would be visiting, where he would be staying, and the length of any
previous trips to the United States (if the alien acknowledged prior visits). The


                                       50
                                                                                                4/18/01
                                                                                   Alshehhi departs from Miami Intl Airport, FL,
                                                                                        to Amsterdam, The Netherlands.
                                                                         1/11/01
                                                             Alshehhi departs from JFK Intl
                                                         Airport, NY, to Casablanca, Morocco.

                                                                       12/19/00
                                                                                                                              9/11/01
                                          Alshehhi takes the FAA examination                                              Terrorists attack
                                         to obtain a commercial pilot's license.                                         the United States
                                               8/29/00
                                             Huffman Aviation
                                 7/03/00
                                             completes and gives
                            Alshehhi enrolls
                                             Alshehhi INS Form I-20.
           1/18/00      at Huffman Aviation
     Alshehhi issued a        in Venice, FL.
B-1/B-2 visa in Dubai, UAE,
   valid for 120 months.

           2/1   3/1   4 / 1 5/1   6/1     7/1   8/1   9/1 10/1 11/1 12/1 1/1        2/1   3/1   4/1   5/1   6 / 1 7/1    8/1   9/1 10/1 11/1 12/1   1/1     2/1   3/1    4/1


January 2000                   5/29/00                                                                                                                                   April 2002
                         Alshehhi arrives at
                                                                                                                                                                 3/11/02
                       Newark Intl Airport, NJ;
                                                                                                                                                            Huffman Aviation
                       admitted as a B-2 visitor                                                                                   9/24/01
                                                      9/22/00                                                                                                receives school's
                            until 11/28/00.                                                                                     ACS, Inc. in
                                             INS receives Alshehhi's                                                                                        copy of Alshehhi's
                                                                                                                                London, KY, receives
                                      I-20 form and I-539 change of status                                                                                 approved I-20 forms.
                                                                                                                                school's copy of
                                             application requesting a                                                           Alshehhi's approved I-20 form.
                                               change from visitor
                                                                           1/18/01                                    8/09/01
                                                   to vocational
                                                                       Alshehhi arrives                    INS approves Alshehhi's I-539
                                                 student status.
                                                                   at JFK Intl Airport, NY;                 change of status application;
                                                                  admitted as a B-1 visitor              granted M-1 status until 10/01/01.
                                                                        until 5/17/01.

                                                                                                   5/02/01
                                                                                         Alshehhi arrives at Miami Intl
                                                                                      Airport from Amsterdam; admitted
                                                                                        as a B-2 visitor until 11/02/01.




                                                                                                                                                                                      elo




                                                                                    51
inspector said that if the alien failed to answer these questions satisfactorily or
if the alien’s demeanor gave him any reason for concern, he would send him to
secondary for further questioning. 37 The inspector said that Alshehhi must
have represented that he was visiting the United States primarily for pleasure,
since he admitted Alshehhi under the B-2 category for six months, until
November 28, 2000.
     Our review of the information available to the inspector does not reveal
any basis for questioning his admission of Alshehhi. His passport and visa
appear to have been valid, and there was no information available to the
inspector through lookout checks that would have suggested that Alshehhi
should be referred to secondary inspection.

     B.    Alshehhi’s second entry – January 18, 2001, New York, New York
     Alshehhi (like Atta) enrolled in Huffman Aviation’s professional pilot’s
program in August 2000 and filed an application with the INS for a change in
status from visitor to student, which the INS received on September 19, 2000.
On December 19, 2000, Alshehhi (like Atta) completed his flight training
course.
     On January 11, 2001, Alshehhi departed the United States from JFK
Airport for Casablanca, Morocco. A week later, on January 18, 2001, Alshehhi
returned to JFK Airport from Casablanca.
      During this entry, Alshehhi presented the same passport and B-1/B-2 visa
that he used on his first entry to the United States. Therefore, Alshehhi’s
passport should have indicated that he had departed the United States just
seven days earlier, on January 11, 2001.
      The OIG confirmed that a “hit” or a “lookout” did not appear on the IBIS
screen when the primary inspector swiped Alshehhi’s passport. On this entry,
however, Alshehhi was sent to secondary and was admitted through the
secondary inspection process as a B-1 visitor until May 17, 2001.



    37
      The primary inspector told the OIG that Alshehhi’s country of citizenship, the United
Arab Emirates, was not at the time of special interest to the INS and that, because it was not,
Alshehhi did not warrant additional scrutiny.




                                              52
      INS computer records (the INS referral report) contain the following
reason for Alshehhi’s referral to secondary: “SUBJ left one week ago after
entry in May (2000). Has extension and now returning for a few more
months.” The referral report also notes a referral code of “03 Travel
History/Routine.” According to INS inspectors, this 03 code refers to
nonimmigrants, and “Travel History/Routine” means that the nonimmigrant
has no history of overstay. 38
      The primary inspector who handled Alshehhi told the OIG that she
recalled this entry. She said that based upon her recollection and the referral
report, she referred Alshehhi to secondary because his lengthy prior stay and
short absence as reflected in his passport suggested to her that Alshehhi was
trying to “beat” the immigration system and was attempting to establish
residence in the United States. She said that she felt that Alshehhi was
probably living in the United States and had not bothered to obtain a proper
visa.
      The secondary inspector who interviewed Alshehhi had been an INS
inspector for 23 years and had worked mostly as a secondary inspector since
1990. The secondary inspector told the OIG that he had a “vague recollection”
of handling Alshehhi on January 18, 2001. He said that he thought that
Alshehhi was polite during his inspection and was not confrontational in any
way.
      INS records show that Alshehhi was in secondary for 30 minutes. The
secondary inspector estimated that he interviewed Alshehhi for a total of 10 out
of the 30 minutes. The referral report reflects the following comments by the
secondary inspector: “Was in US gaining flight hours to become a pilot.
Admitted for four months.”
      The secondary inspector said that, although he had a vague recollection
of Alshehhi, he did not recall the specifics of his inspection. Based on reading
the referral from the primary inspector, the secondary inspector said he would
have known that the primary inspector was suspicious of the length of
Alshehhi’s stay for pleasure on his prior visit and his immediate return to the

    38
       Alshehhi, like Atta, left the United States a little more than a month after his prior
admission period had expired on November 28, 2000, but he did not overstay since he filed
an I-539 on September 19, 2000, prior to the expiration of his admission period.




                                             53
United States after a 1-week absence. The secondary inspector said that based
upon his own comments on the report, he also had learned that Alshehhi had
already been attending flight school to become a pilot. The secondary
inspector said that at a minimum he would have checked the NCIC database
for criminal history and the NIIS database to check Alshehhi’s prior entries.
He said that he also would have checked CLAIMS, which would have
confirmed that Alshehhi had filed the I-539 change of status application.
      Based on his review of the record available now, the secondary inspector
pointed to a number of reasons why he did not believe Alshehhi was
attempting to illegally work or live in the United States indefinitely. He noted
that Alshehhi had previously been admitted to the United States under a B-2
visa and then left the United States before he had to (given that he was
permitted to stay in the United States while the I-539 was pending). In
addition, Alshehhi had used the same passport and visa for both visits. The
secondary inspector also noted that he did not see in the record any other
indications of concern, such as being late for the course, lack of English skills,
lack of a plane ticket to the site for the training course, or lack of money for
school. He stated that he would not have considered the fact of Alshehhi’s two
admissions within a short time frame as significant, since most countries now
issue visas for 10 years and aliens are entitled to come and go as they wish, as
long as they do not overstay. According to the secondary inspector, under the
circumstances, he did not consider that Alshehhi’s behavior indicated an
individual who was attempting to “play the system” and to live and work in the
United States.
      The secondary inspector admitted Alshehhi under the business visitor (or
B-1) category. The secondary inspector indicated that he likely understood that
Alshehhi was coming to the United States to log flight hours to become a pilot,
not to go to school full-time. He said that the INS often admits individuals
under B-1 visas for the purpose of attending seminars and training, including
flight training. He said, for example, that the B-1 category is commonly used
to admit aliens to take computer training in order to obtain a certification.
      The secondary inspector’s supervisor on January 18 had been an
immigration inspector for seven years and a supervisory inspector for more
than four years.39 This supervisor told the OIG that he agreed with the

    39
         The supervisor did not encounter Alshehhi on this occasion.



                                              54
secondary inspector concerning the appropriateness of admitting visitors for
flight training under a B-1 visa.
       The supervisor stated, however, that if Alshehhi had sought a B-1
admission specifically to continue flight training school to obtain a certificate,
then the B-1 was the wrong category of admission and that he should have
been required to obtain a student visa. The supervisor stated that absent any
evidence of prior overstays or a criminal record, the alien would likely be given
an I-193 waiver and temporary M-1 status while he remained in the country.
The supervisor said that he probably would have supported a waiver because of
all of the things the student did “right,” including filing an I-539 and not
overstaying on his previous visits. According to this supervisor, students are
given the benefit of the doubt if possible. He said that the only way that they
would be returned to their country would be if there were proof of malice and
intent to deceive.
      The secondary inspector admitted Alshehhi for four months, until
May 17, 2001. The secondary inspector said that Alshehhi must have given a
specific reason why he needed a 4-month stay in this country. According to
the secondary inspector’s supervisor, it was the port’s policy to admit business
visitors for a minimum of three months. He said that port policy allows for up
to six months, at the inspector’s discretion, if the alien presents a satisfactory
reason.
      Based on our review of the evidence available to the inspector, we
concluded that his admission of Alshehhi was not contrary to INS practices at
the time.

     C. Alshehhi’s third entry – May 2, 2001, Miami, Florida
      Alshehhi made his third and final entry to the United States on May 2,
2001, at Miami International Airport. He had left the United States from
Miami on April 18, 2001, bound for Amsterdam, and he returned to Miami on
May 2 from Amsterdam. He presented the same passport and visa as on the
previous two entries.
     The OIG confirmed no “hit” or “lookout” appeared on the IBIS screen
when the primary inspector swiped Alshehhi’s passport. He was admitted
through the primary inspection process as a B-2 visitor for six months, until
November 2, 2001.



                                        55
      The primary inspector who admitted Alshehhi had been an inspector
since 1997. He told the OIG that he did not recall the inspection, and INS
records do not indicate anything else noteworthy about the inspection.
      The inspector told the OIG that the fact that Alshehhi had made two
previous visits to the United States and stayed for several months on each visit
would not have made any difference in his inspection. He said that in his
estimate at least 50 percent of the passengers that he sees have a travel history
or pattern similar to that of Alshehhi. He said that he would not have referred
Alshehhi to secondary absent some kind of suspicious behavior or potential
document fraud. Our review of the information available to the inspector does
not reveal any basis for concluding his admission of Alshehhi was improper.

V. OIG Conclusions on the INS’s Admission of Atta and Alshehhi
      Atta’s and Alshehhi’s three admissions into the United States followed
the same pattern. They each held valid passports and B-1-/B-2 visas, good for
multiple entries into the United States. The immigration inspectors who
admitted them during their first and third entries did so routinely, without
referring them to secondary inspection. Understandably, the inspectors had no
memory of their encounters with Atta and Alshehhi, given the many
inspections they have conducted since then. From the evidence, however, it
appears that these inspectors did not admit Atta and Alshehhi in violation of
INS policies and practices in light of the information available to the inspectors
at the time of these admissions. We found no indication that the inspectors
were presented with or were aware of any information that would have caused
them to refer Atta and Alshehhi to secondary inspection.
       However, after Atta and Alshehhi both left the United States in January
2001 and separately returned a few days later, they both were referred to
secondary inspection for further questioning. It appears that Atta was referred
to secondary because the primary inspector believed that Atta was attending
flight school and that Atta should be referred to secondary for further
questioning to determine if an M-1 visa was required.
      The secondary inspector stated that he believed that Atta was a legitimate
student who had no criminal record or history of overstays. He said that he
would have admitted Atta under the B-2 category if he concluded that Atta’s
school attendance was incidental to a pleasure purpose. Atta’s filing of an I-
539 change of status application might have indicated that he was intending to
attend school on a full-time basis. Because the secondary inspector does not

                                       56
recall what Atta said during the inspection and the written record is limited, we
cannot determine what Atta represented about his school plans or whether the
secondary inspector’s decision to admit him was improper.
      If the secondary inspector believed that Atta was returning to the United
States to attend school on a full-time basis, the secondary inspector should
have concluded that Atta needed an M-1 visa. INS personnel to whom we
spoke asserted, however, that even though Atta did not have an M-1 visa, it is
likely that he would have been admitted through the waiver process. They
contended that because Atta had no record of prior criminal or immigration
violations and had made a good-faith attempt to change his status to an M-1
classification, INS supervisors likely would have admitted him through the
waiver process.
      While this appears to be an accurate assessment of how the INS treated
applicants like Atta at the time, the legal requirements for granting a waiver to
Atta were not met. Atta did not demonstrate “an unforeseen emergency” as to
why he did not have the M-1 visa, which the INS regulations require for such
waivers. Yet we were told that prior to September 11, INS inspectors did not
typically enforce this requirement when granting waivers, so it is likely that
Atta would have been admitted regardless of what the secondary inspector
concluded about his school plans.
       A similar analysis applies to Alshehhi’s second admission to the United
States in January 2001, under the B-1 (business) visa classification. If
Alshehhi stated that he intended to attend flight school full-time, he needed an
M-1 visa for admission to the country or a waiver. On the other hand, if
Alshehhi stated he was coming to the United State to log flight hours, he was
admissible under the B-1 business visa that he received. The INS’s referral
report does state that Alshehhi “was in the US gaining flight hours to become a
pilot.” Based on our review of this evidence, we concluded that his admission
of Alshehhi was not contrary to INS practices at the time. However, even if
the secondary inspector had determined that Alshehhi required a student visa, it
is likely that Alshehhi, like Atta, would have received a waiver to enter the
United States.
      The INS’s prevailing mindset in dealing with foreign students at the
POEs until September 11 was that students were not a concern or a significant
risk worthy of special scrutiny. Consistent with this approach, INS inspectors
and supervisors, who incorrectly believed that they had broad discretion to
grant waivers, would admit students through the waiver process when they

                                       57
appeared at POEs without the proper documentation and did not present any
evidence of inadmissibility. Since September 11, the INS has issued guidance
to the field restricting use of the waiver process and has also taken other steps
to more closely scrutinize the admission of students to the United States. We
discuss those steps in Chapter Seven of this report.




                                       58
                                 CHAPTER FOUR
      THE INS’S DELAYED PROCESSING OF ATTA’S AND
     ALSHEHHI’S APPLICATIONS FOR CHANGE OF STATUS
I.     Introduction
      In this chapter of the report, the OIG addresses the first of the two
questions presented by the Attorney General in his March 13, 2002,
memorandum requesting our investigation:
       • Why did the INS take so long to process the change of status
           applications, including the I-20 forms, of Atta and Alshehhi?
We begin with detailed information about the forms used in the change of
status process and the circumstances that gave rise to Atta and Alshehhi filing
change of status applications with the INS. Next we describe the processing of
Atta’s and Alshehhi’s change of status applications at the Texas Service
Center, as well as the processing of the I-20 – the form that was sent to the
contractor and returned to Huffman Aviation in March 2002. We then analyze
the reasons that the INS took several months to process the change of status
applications of Atta and Alshehhi.
      Because it is directly related to the issue of the processing of the I-539
applications, we also analyze whether the INS properly approved Atta’s and
Alshehhi’s change of status applications. In addition to examining each step of
the adjudication process, we examine information that should have been
available to the adjudicator before the adjudication was completed but was not.

II. Process to Obtain Nonimmigrant Student Status
     As we previously discussed, foreign students who want to study in the
United States can obtain legal permission to do so in two ways. The method
pursued by the majority of foreign students is through the student visa process.
The State Department is responsible for issuing visas to nonimmigrants outside
the United States who intend to become full-time students.40 Nonimmigrants


      40
        During fiscal year 2001, the State Department issued 319,518 F visas to students and
their dependents for the purpose of attending academic or language courses in the United
States and 5,658 M visas to students and their dependents for the purpose of attending
(continued)

                                             59
may also ask the INS to change their status to students after they have entered
the United States through other legal means.41 This method does not involve
the State Department.
      To change their status to student while in the United States, the
applicants file INS Form I-539 (Application to Extend/Change Nonimmigrant
Status), 42 along with the appropriate fee 43 and the appropriate “evidence.” (We
show a blank I-539 form in the Appendix at page A-3.) 8 CFR § 248.3(b).
Applicants must sign the I-539 form and submit copies of their I-94 form, a
copy of their passport, and documentary evidence of financial support. 8 CFR
§ 214.2(f)(i)(A) – (C).
       The student also must submit to the INS a completed I-20 form. The first
page of the 4-page I-20 form is completed by the school and specifies the
student’s name, date of birth, and citizenship; the school’s name, address, and
INS school certification code; the name, length, and cost of the program for
which the student has been accepted; the school’s English proficiency
requirements; and information on the student’s financial resources. Page one is
known as the “school copy” because it is eventually returned by the INS to the
school. The second page contains a set of instructions for completing and
filing the form. The third page is identical to the first page and also must be
completed by the school. The last page contains signature lines, which must be
signed by an approved school official if the student plans to leave the country
temporarily. The last two pages constitute the “student copy,” which is
returned by the INS to the student after the adjudication decision is rendered.

(continued)
vocational or other nonacademic courses. We discuss this method of obtaining a student
visa more fully in Chapter Six.
    41
        During fiscal year 2001, 28,880 aliens were approved for a change of status to student
status. Of these, 27,848 adjusted their status to that of an academic or language student (F)
and 1,032 adjusted their status to that of a vocational student (M).
    42
       The I-539 form is used by nonimmigrants who want to either change their status or
extend their status. The extension of status process is similar to, although not exactly the
same as, the change of status process.
    43
        In September 2000 when Atta and Alshehhi submitted their I-539 applications, the
fee for filing an I-539 was $120.00. The amount was raised to $140.00 in February 2002. 8
CFR § 103.7(b).




                                              60
(We show an I-20 form in the Appendix at page A-8.) Both the school copy
and the student copy of the I-20 must be signed by the appropriate school
official and by the student. 8 CFR § 214.2(f)(1)(i)(A) and § 214.2(m)(1)(i)(A).
      Change of status application forms (form I-539) are processed and
adjudicated at one of four INS service centers. The I-539 instructions direct
the applicant to send the form to a particular service center depending upon
where the applicant lives. Since Atta and Alshehhi were living in Florida, they
were required to send their applications to the Texas Service Center. At the
Texas Service Center, the I-539 is adjudicated by a Center Adjudications
Officer (CAO) based on a review of the file. Unlike with some INS
applications, no in-person interview is conducted for the adjudication of I-539s.
      Once the CAO approves the change of status application, the CAO
stamps both the student copy and the school copy of the I-20. The CAO also
writes in the new status and the dates for which the status is being granted. If
the applicant is an F-1 student, the CAO will write “duration of status” or
“D/S” on the I-20s. If the applicant is an M-1 student, the CAO will fill in the
dates of the course of study as stated on the I-20 plus 30 days.
      Immediately following the approval, the adjudicator returns the student
copy to the student through the mail. The school copy of the I-20 is mailed to
Affiliated Computer Services, Inc. (ACS) in London, Kentucky, the INS
contractor who data enters information from the I-20s that is eventually
uploaded to an INS database.
     In 2001, under its interpretation of its contract, ACS data entered
information from the school’s copy of the I-20 and retained the form for 180
days. After 180 days, ACS mailed the school’s copy of the I-20 to the
school. 44

III. Huffman Aviation’s Initiation of Atta’s and Alshehhi’s Applications
     for Change of Status
     According to Rudi Dekkers, the Chief Executive Officer and President of
Huffman Aviation International, Atta and Alshehhi first appeared at Huffman
Aviation on July 1, 2000, and spoke to Huffman’s student coordinator, who

    44
      After March 15, 2002, the INS instituted new procedures for the processing of I-20s.
We discuss those changes in Chapter Seven of this report.




                                            61
provided them with information on the flight school. Atta and Alshehhi
returned to Huffman Aviation on July 3, 2000, and enrolled in a professional
pilot’s course. Dekkers stated that at the time that Atta and Alshehhi became
students, approximately 75 percent of Huffman’s enrollments were foreign
students.45 Dekkers told the OIG that to his knowledge, Atta and Alshehhi
were the only foreign students at his school who were already in the United
States when they applied. He said his students normally submitted applications
from overseas.
       Dekkers stated that he believed Atta and Alshehhi had previously
attended another aviation school, so both had some piloting experience. He
said they presented their logbooks when applying at Huffman to show proof of
previous flight hours. According to Dekkers, he required Atta and Alshehhi to
first take private lessons with Huffman Aviation before enrolling in the
professional pilot’s course. He said that he did this to make sure that they were
“serious” about the course. He added that he routinely required students to first
take private lessons for two to three months before enrolling in a course.
Dekkers stated that Atta and Alshehhi were ready to take the professional
pilot’s course at the end of August 2000.
      Huffman Aviation is certified by the INS as a vocational school (as
opposed to an academic school) authorized to accept foreign students. Dekkers
told the OIG that his policy was to issue I-20s to all of his foreign students and
to require them to obtain M-1 visas in order to take any of his professional
courses.46 At the end of August, Atta and Alshehhi requested that Huffman
Aviation’s student coordinator provide them with the appropriate INS forms to
enable them to apply for a change of status to become M-1 students.
     Atta’s and Alshehhi’s I-20 forms stated that the Huffman course ran from
September 1, 2000, until September 1, 2001. In fact, their course work was
completed by December 2000. According to Dekkers, the professional pilot’s

    45
         Dekkers stated that currently only a small number of his students are foreign students.
    46
       Dekkers told the OIG that he believed that it was permissible for foreign students to
take private flight lessons while in the country on a B-1/B-2 visitor’s visa but that he
required students to obtain M-1 student visas or M-1 student status to be “on the safe side.”
Because Atta and Alshehhi were not taking sufficient hours to be considered full-time
students, they were not in fact eligible to apply for the change of status. We discuss this
issue more fully in Section VII C 2 of this chapter of this report.




                                               62
course can be completed in up to one year, although some students working
diligently are able to complete the course sooner. He said that the course has
no required beginning and end dates, and that these dates are determined by the
student’s preference and progress. When the student has accrued a sufficient
number of flight hours (based on Federal Aviation Administration [FAA]
regulations), the student is eligible to take the pilot’s license test. According to
Dekkers, a course period of one year is normally listed on the I-20 to enable
students to finish the course at their own pace.47 The Huffman student
coordinator told the OIG that Atta and Alshehhi specified that they wanted the
course dates to be listed on the I-20 to run from September 1, 2000, through
September 1, 2001.
      According to INS records, the INS received Atta’s and Alshehhi’s
change of status applications on September 19, 2000. While their applications
were pending, Atta and Alshehhi continued taking the training course at
Huffman Aviation through December 2000. On December 19, 2000, they
completed the course by passing the FAA pilot’s test. According to Huffman
records, from July 2000 through December 2000, Atta was billed for 194.4
hours of flight instruction and 27.2 hours of pre/post flight instruction;
Alshehhi was billed for 203.6 hours of flight instruction and 24.1 hours of
pre/post flight instruction.

IV. Processing at the Texas Service Center
      Personnel at the INS Texas Service Center (TSC) were responsible for
processing and adjudicating Atta’s and Alshehhi’s applications for change of
status. We describe the administrative and adjudication process for these
applications in the sections that follow.

     A.   INS service center organization and mission
       INS Service Centers primarily process and adjudicate applications and
petitions that do not require face-to-face interviews with applicants.
      Atta and Alshehhi submitted their I-539 applications for change of status
to the TSC, the service center with responsibility for processing and


    47
      We discuss whether Huffman Aviation should be authorized by the INS to issue I-20s
in Chapter Six of this report.




                                          63
adjudicating applications from Florida, where both men were residing and
attending flight school. The TSC was run at the time by Deputy Service Center
Director Carmelo A. Ortiz. Ortiz, who became the Deputy Service Center
Director in 1997, served as the Acting Director of the TSC for several months
prior to the arrival of the permanent Director on September 11, 2001. In
addition to the Director and Deputy Director, the TSC has several Assistant
Center Directors. The positions relevant to this report are four Assistant Center
Directors for “Adjudications” (who oversee adjudications of different kinds of
applications) and the Assistant Center Director for the Enforcement Operations
Division, which handles referrals from the adjudicators of potential benefit
fraud cases.48
      Many of the operations of service centers, such as the clerical functions
associated with processing applications – including mail handling, data entry,
and storage retrieval – are handled by a contractor. The adjudication functions,
on the other hand, are handled by INS CAOs.
      The TSC is composed of two facilities: a “headquarters” facility in
Dallas, Texas, which houses the INS personnel, including the CAOs; and a
warehouse in Mesquite, Texas, operated by contractor personnel who receive
and process for eventual adjudication all applications sent to the TSC,
including I-539s.49 In 2001, the TSC employed approximately 300 INS
employees (including 100 CAOs) and 430 contractor employees. In fiscal year
2001, the TSC received 919,664 applications and completed 708,344
applications.



    48
       An organizational chart depicting the relevant positions within the TSC is on the next
page of the report.
    49
        In September 2000, when the Atta and Alshehhi I-539s were received at the TSC, the
contractor operating the Mesquite processing facility was Labat-Anderson, Inc. On July 3,
2001, the INS entered into a contract with JHM Research and Development, Inc. (JHM) to
handle the clerical processing of applications at the Mesquite facility. JHM began operating
the Mesquite facility on July 7, 2001. According to the JHM Deputy Site Manager, a
significant number of employees hired by JMH to work at the Mesquite facility formerly
worked for Labat-Anderson at the facility. The INS has a unit at the Mesquite facility, the
Contract Performance Analysis Unit, which is responsible for monitoring the contractor’s
performance.




                                             64
65
     B.      Processing and adjudication of I-539 applications for change of
             status
      When Atta and Alshehhi submitted their I-539s in September 2000,
applications for change of status were processed and adjudicated at the TSC in
the manner described below. 50 A chart depicting this process is on the next
page.

             1.   Pre-adjudication processing
      Applicants for change of status are directed by the instructions on the
INS forms to mail their applications to a particular post office box (depending
on the type of form and the appropriate service center) and to attach the
prescribed fee. Contractor personnel pick up the mail and subject it to a
cursory review – a “slit and peek” – to determine the type of application and to
ensure that it is accompanied by a remittance. These employees then segregate
the applications by type, endorse the remittances for deposit, and forward the
applications to a second group of mail room employees, known as the “set-up
team.”
       The set-up team reviews the application to ensure there are no obvious
problems that would prevent further processing. The most frequent
disqualifying grounds are that the TSC does not have jurisdiction to adjudicate
the application; that the remittance is for the wrong amount; or that the
application is not signed. If one of these problems is identified, the application
is rejected and returned to the alien without further processing.
      If none of these problems is present, the file set-up personnel assemble
each application, remittance, and supporting documentation in a “receipt file.”
The receipt files are transferred, oldest first, to a section called Data Entry,
usually within one day of receipt of the application at the TSC.




    50
         With limited, minor exceptions, the process has not changed from September 2000 to
today.




                                             66
                      INS I–539 Change of Status Application Process
        Applicant submits INS I-539 application to the appropriate INS Service Center:
        September 15, 2000
        Mohamed Atta sends his I-539 and I-20 applications to the Texas Service Center Mesquite facility.


        INS contractor mailroom receives application and reviews for signature and appropriate
        fee; if incomplete, returns to sender; if complete, date-stamps and creates receipt file:
        September 19, 2000
        Atta’s application is date-stamped and a file is created.

        Receipt file given to Key Entry Operator, who enters data into INS CLAIMS. Bar code
        label with unique file number is generated and affixed on file:
        September 22, 2000
        Atta’s application is entered into CLAIMS and receipt file number produced.

        Notice of receipt letter printed and sent to applicant:
        September 22, 2000
        Notice of receipt letter generated and sent to Atta from the Mesquite facility.

        Receipt file is batched in groups of 25 and held for 2-3 days to ensure monetary fees are
        collected and tallied.

        Receipt file is sent to the file room in the Work Distribution Unit (WDU):
        September 25, 2000
        Atta’s file is received by the WDU.

        File is “called up” by a supervisor for assignment to a Center Adjudications Officer (CAO):
        July 6, 2001
        Atta’s file is “called up” for adjudication at the TSC.

        CAO reviews the file for supporting documentation. CAO decides to approve, deny, or
        request additional evidence for each application.

        CAO approves application and sends student copy of I-20 to the student:
        July 17, 2001
        CAO approves Atta’s I-539 application and sends student copy of the I-20 to Atta.

        CAO updates CLAIMS after approving I-539 and approval notice is generated and sent:
        July 17, 2001
        CAO updates CLAIMS; approval notice is automatically generated and sent to Atta from Mesquite
        facility.


        CAO places school copy of I-20 in a tray, and I-20s are eventually mailed to ACS in London,
        Kentucky:
        Exact date unknown
        CAO places Huffman Aviation copy of I-20 in tray; I-20 is mailed by clerical employee to ACS.

        CAO returns adjudicated file to Mesquite facility where it is stored in the WDU for 90 days in
        case of inquiry about the file is received before being sent to Federal Records Center:
        August 14, 2001
        Atta’s file returned to the WDU.


This chart depicts the process for I-539 change of status applications processed at the Texas Service Center in 2000-
2001.
      Data entry personnel, called key entry operators, enter certain
information from the application and the remittance directly into the INS’s
Computer Linked Application Information Management System (CLAIMS). 51
The key entry operators are responsible for separating the remittance from the
application, 52 reviewing the file again for a limited number of grounds for
rejection, such as the absence of a required signature, and manually keying in
(“capturing”) specified data from the application into CLAIMS.53 After the
requisite information is keyed into CLAIMS, the system automatically
generates and prints a bar code label with a unique file number, which is
affixed to the receipt file; the bar code label also records the initials of the key
entry operator and the date of entry. 54 In addition, address labels are generated
once the data entry is completed.
      According to the Assistant Site Manager for Data Entry, on average a key
entry operator processes an I-539 in 2-3 minutes. After the data from the
application is keyed in and accepted by the system, CLAIMS automatically
generates a notice on INS form I-797 to the applicant informing him or her that



    51
       CLAIMS is an INS mainframe computer system that has been used in the service
centers since the mid-1980s to record the receipt of various types of applications. In the
service centers, the data entry is performed into the Local Area Network of CLAIMS.
    52
        The key entry operator places the remittance in a lock box. The fee also is recorded
in the database entry for the application. At the end of the day, the amount in the lock box is
compared against the total amount entered on the applications processed to ensure financial
accountability. We were told that the fees from applications processed at the TSC amount to
approximately $12.5 million per month.
    53
       The information captured from an I-539 application for change of status includes the
date received at the TSC; the name and address of the alien; the date the alien’s present
nonimmigrant status expires; and the admission number from the alien’s I-94 form.
    54
        The bar code label containing the unique file number is used to track the receipt file
throughout the remainder of the adjudication process. As the file proceeds from Data Entry
through each successive stage of the process, it is checked in and out by employees who
scan the bar code. The locations of the file as it makes its way through the process are
stored in the Receipt and Alien File Accountability Control System (RAFACS). The
RAFACS entries identify the date of the action and the Responsible Party Code to which the
file was checked in or out. The Responsible Party Code may be a work station, a file shelf
location, or an INS employee.




                                              68
the application has been received at the TSC. These receipt notices are printed
and mailed out within one to two days.
      Following data entry, the files are sent to a “2-day hold” area to allow the
contractor time to ensure that the money collected by the key operators tallies
with the amounts inputted into the system. Once the daily receipts are
balanced and the money is deposited, the batched receipt files are scanned into
RAFACS and are sent to the Work Distribution Unit (WDU) in the file room.
Receipt files are stored in the WDU until they are requested or “called up” by
INS personnel for adjudication. The files are stored in the file room in order of
date received by the TSC mail room.
      Files are “called up” by Supervisory Center Adjudication Officers
(SCAOs), who send a work order to the WDU requesting that the contractor
deliver a specified number and type of receipt files to the SCAO or directly to
designated CAOs.
       The WDU fills the work order by gathering the requisite number and type
of files (oldest files first), scanning the bar codes into RAFACS, and moving
the files from the Mesquite facility to a small mail room operation at the Dallas
facility, which is also run by the contractor. Contractor personnel at the Dallas
facility deliver the mail to the person or area, including CAO work areas,
designated in RAFACS by the Responsible Party Code. We were told that on
average it takes one to three days from the request to the receipt of files. When
CAOs receive the files, they acknowledge receipt by scanning the bar code
label into RAFACS.

           2.   The adjudication process
      CAOs at the TSC are assigned to one of several Adjudications Divisions.
Each Division is responsible for one or more “product lines” consisting of one
or more types of applications. In July and August 2001, when Atta’s and
Alshehhi’s applications were adjudicated, I-539s were under the Division that
also had responsibility for naturalization applications (N-400s). 55



    55
       The service centers mainly handle only clerical processing with respect to N-400s,
and the actual adjudication takes place in INS’s district offices. However, denials of
naturalization applications are completed in the service centers.




                                            69
       CAOs may approve or deny an application for a change of status or
request additional evidence. After the CAO makes the adjudicative decision,
the CAO stamps the application and the student and school copies of the I-20
to indicate whether the application has been approved or denied, and if
approved, the period of stay authorized. Following adjudication, the CAO
updates the CLAIMS database to reflect the disposition of the application. 56
The CAO then sends the student copy of the I-20 to the applicant, reflecting the
approval and authorized period of stay.57 At the time that Atta’s and
Alshehhi’s applications were adjudicated, the CAO also forwarded the school
copy of the I-20 to a clerical employee, who periodically sent batches of school
I-20s to the INS contractor responsible for processing and storing the I-20. The
CAO then returns the receipt file – now minus the I-20s – to the Mesquite
facility for storage.

     C. The TSC did not adjudicate Atta’s And Alshehhi’s I-539
        applications in a timely manner
       As indicated by the mail room’s date stamp, the TSC received Atta’s and
Alshehhi’s applications for a change of status on September 19, 2000. 58 Their
applications were adjudicated and approved on July 17, 2001, and August 9,
2001, respectively – approximately 10 months and 10½ months after receipt
and less than 2 months before the September 11, 2001, attacks. As discussed
below, we found that the delay in adjudicating these applications was
principally the result of a policy decision by the INS to assign a low priority to
the adjudication of change of status applications, which led to a substantial
backlog in I-539 applications awaiting adjudication at the TSC. We concluded
that the delay was not the result of any action by the contractor that had
responsibility for processing the applications.


    56
        This update causes CLAIMS to automatically generate an approval notice (INS form
I-797) that is sent to the applicant separately from the I-20. No such approval notice is sent
to the school.
    57
       If the CAO denies the application, a denial letter stating the reasons for the denial is
prepared and sent to the applicant. The school and student copy of the I-20 remain in the
file.
    58
      CLAIMS indicates that their applications were received on September 22, 2000,
because that is the date that the applications were entered into CLAIMS.




                                               70
      Through RAFACS we tracked the process of Atta’s and Alshehhi’s
applications through the TSC.

           1.   RAFACS history for Atta’s I-539 application
          • On September 22, 2000, a data entry operator created the file in
            CLAIMS.
          • On September 25, 2000, the WDU received the file from Data
            Entry and filed it in the area of the WDU reserved for I-539
            applications awaiting adjudication.
          • On July 6, 2001, the WDU transferred the file to the Dallas
            facility. Although the date of the work order requesting the file is
            not recorded in RAFACS, on average it took the contractor one to
            three days to fill a work order and transfer the files.
          • On July 20, 2001, at 6:42 a.m., the file was checked in – i.e.,
            receipt was acknowledged – by the CAO who adjudicated the file.
            It is unlikely that the file was in transit from the WDU to the CAO
            for 14 days. We were told that, much more likely, the file was
            delivered to the CAO’s work station along with numerous other
            files within a few days of being charged out of the WDU, but that
            it is a common practice of CAOs to acknowledge receipt of a
            group of files as they prepare to adjudicate them, rather than when
            the files are physically received.
          • On July 20, 2001, at 7:17 a.m., after adjudication of Atta’s
            application, the CAO indicated in RAFACS that the file was “in
            transit” back to the Mesquite facility.
          • On August 14, 2001, the WDU received the file from the Dallas
            facility and placed it in 90-day storage pending shipment to the
            Federal Records Center. 59


    59
       The current CLAIMS record for Atta also indicates that his file number was accessed
on March 12, 2002. It states that “data changed in record” occurred on that date. The OIG
sought to determine the reason for this entry. The OIG found that a TSC CAO had learned
about the I-20s arriving at Huffman Aviation in March 2002 and wanted to determine if she
had adjudicated the files. She said that she accessed CLAIMS and opened the record but did
(continued)

                                           71
           2.    RAFACS history for Alshehhi’s I-539 application
              • On September 22, 2000, a data entry operator created the file in
                CLAIMS.
              • On September 25, 2000, the WDU received the file from Data
                Entry.
              • On May 2, 2001, the file was acknowledged as received by an
                Immigration Information Officer (IIO). 60
              • On August 7, 2001, the IIO transferred the file to the CAO who
                adjudicated the file.
              • On August 8, 2001, the CAO who adjudicated the file
                acknowledged receipt of the file.
              • On August 13, 2001, the CAO transferred the file back to the
                Mesquite facility.
      The RAFACS history for the two applications reveals that the contractor
at the Mesquite facility processed and prepared both applications for
adjudication timely and consistent with the standard procedures in effect at that
time. Both applications were entered into CLAIMS within three days after
receipt at the TSC. They were received in the WDU and available for
adjudication six days after receipt.




(continued)
not make any changes. She said that she pressed the wrong key in an attempt to exit the
record in CLAIMS.
    60
        The OIG sought to determine the reason that the file was sent to an IIO. We were
told that IIOs respond to telephone inquiries about applications and also adjudicate some
less complicated applications. We were also told that while IIOs at the TSC are supposed to
keep logs of telephone inquiries and the files that are pulled as a result of those inquiries, in
actuality they do not. When the OIG interviewed the IIO to whom RAFACS indicated this
file was sent on May 2, 2001, she said that it is possible that the file was assigned to her for
adjudication and that she subsequently passed on the file because she had never been trained
to adjudicate change of status applications for students.




                                               72
           3.   Backlogs at the TSC
      What is evident from the RAFACS data is that the cause of the delay in
adjudicating the applications was that neither file was called up from the WDU
by the INS for adjudication in a timely fashion. The Atta application sat in the
WDU for almost ten months; the Alshehhi application sat in the WDU for
approximately seven months and another three months passed before it was
actually adjudicated. From the evidence available to the OIG, it appears that
the delay in the INS’s adjudication of Atta’s and Alshehhi’s applications was
typical for the TSC. The OIG reviewed 70 other I-539 change of status
applications for vocational students that were received by the TSC in
September 2000 and determined that they too were adjudicated in July and
August 2001.
       INS Headquarters and TSC personnel consistently told the OIG that
adjudicating I-539 applications has always been a “low priority” at the INS and
that this has resulted in substantial backlogs. The INS’s emphasis since 1996,
according to INS personnel, has been on naturalization (N-400s) and
adjustment of status (I-485) applications.61 For the past several years,
adjudications priorities have been distributed via memorandum by the Deputy
Executive Associate Commission for the Immigration Services Division. I-539
applications were not on the list of priorities until fiscal year 2002 (which
began October 1, 2001). In the priorities memoranda, target processing times
are listed for the priority adjudications, and the forms that are not listed as a
priority are given a target processing time of 180 days. For fiscal year 2002,
when processing I-539s became a priority, the target processing time was listed
as five months.
      The TSC’s average processing times for I-539s have remained
consistently high since at least 1998. Average processing time for I-539s for
FY 1998 was 102 days; for FY 1999 it was 129 days; for FY 2000 it was 129
days; and for FY 2001 it was 200 days. The graph on the next page illustrates
this point.


    61
        Adjustment of status applications are filed by immigrants seeking to change their
immigrant status to become lawful permanent residents of the United States while change of
status applications are filed by nonimmigrants seeking to change from one nonimmigrant
classification to another.




                                           73
             Texas Service Center
           Average Processing Time


200
180
160
140
120
100                                       I-539
80
60
40
20
 0
      98   99                  00    01
                 Fiscal Year




                74
 The TSC’s actual processing time report for July 2001 shows that the I-539s
  being adjudicated in July 2001 had been pending for 282 days, or almost 9
 months. The OIG also found that the TSC adjudicated significantly fewer I-
                      539s in FY 2001 than in FY 2000.
       As a result of the low priority given to processing I-539s at the TSC prior
to May 2001, no group of adjudicators in the TSC Adjudications Divisions was
dedicated solely to adjudicating I-539s. The INS does not have national
standard operating procedures (SOPs) for processing I-539s, and each service
center has developed its own procedures for handling them. In addition, TSC
managers could not tell the OIG which Assistant Center Director for
Adjudications had responsibility for I-539 applications prior to May 2001.
TSC Managers stated that responsibility for the I-539 was shifted among
different managers at different times. Many TSC managers told the OIG that
prior to May 2001, I-539s were adjudicated only episodically when the backlog
of applications grew “excessive.” When this occurred, I-539s would be
distributed to CAOs in all the divisions and, on some occasions, to
Immigration Information Officers. The adjudication “blitz” would continue
until the backlog was reduced to an acceptable level. 62
      In May 2001, the responsibility for I-539 applications was placed with a
different Assistant Center Director for Adjudications, who had responsibility at
the time for the product line that consisted of naturalization applications. She
told the OIG that she was concerned when she reviewed the processing time
report and saw that I-539s were taking several months to process.63 She said
that she asked the TSC managers at the time whether she could have additional
personnel assigned to her group to adjudicate I-539s. She said that she was
advised that additional personnel were not available but that she could assign
two CAOs to adjudicate I-539s on a full-time basis. According to this
Assistant Center Director, she assigned two senior examiners full time and she
intended for them to continue to devote all of their time to I-539 applications

    62
       Since September 11, 2001, the INS has focused significantly more attention on I-539
applications. The TSC has since created a permanent supervisor who is responsible only for
I-539 applications. The INS recently lowered the target processing time for I-539s to 30
days. For a further discussion of this issue, see Chapter Seven of this report.
    63
       The processing time report from April 2001 shows that the TSC was then
adjudicating applications received in August 2000.




                                           75
until they asked to be switched from the assignment. These two adjudicators
processed only I-539 applications from May 2001 until December 2001. One
of these two CAOs approved Atta’s application on July 17, 2001, and approved
Alshehhi’s application on August 9, 2001.

           4.   Delay in the transmission of the school I-20 form to ACS
      As mentioned previously, at the time Atta and Alshehhi’s applications
were approved, school copies of I-20s were mailed to ACS, the INS contractor
responsible for processing school copies of I-20s. Based on the available
record, the OIG was unable to determine when the Atta and Alshehhi I-20s
were mailed from the TSC to ACS in London, Kentucky. ACS received the
school copies of Atta’s and Alshehhi’s I-20 forms on September 24, 2001,
approximately 2 months and 2½ months, respectively, after the I-539
applications had been approved by the TSC.
      Part of this delay was likely caused by confusion and administrative
disorganization at the TSC. In July or August 2001, an Examinations Assistant
was assigned to provide clerical support to the two CAOs processing the I-539
backlog. 64 E-mails provided to the OIG indicate that this employee was
assigned to the backlog project on August 9, 2001, and that she did not begin
mailing I-20s until August 20. Based on e-mails and interviews, we
determined that personnel at the TSC were asked to instruct the Examinations
Assistant in the correct procedures for mailing I-20s, but that there was some
confusion about the correct address for ACS, the contractor in Kentucky. TSC
personnel had sought guidance from INS Headquarters personnel on which
address to use. A Headquarters employee provided two addresses for ACS,
stating in an e-mail, “Its [sic] a little confusing, don’t you think?”
     The Examinations Assistant inquired on August 20, 2001, as to whether a
determination had been made as to the proper address. Some time after she


    64
        TSC personnel were not able to describe to the OIG exactly how the I-20s were
mailed before the Examinations Assistant was assigned the responsibility for collecting and
mailing the I-20s. The TSC standard operating procedures in effect at the time did not
address this issue and simply directed the CAO to send the I-20 to the contractor. We were
told that the CAO would place the I-20 in “trays” located on two different floors of the
building in Dallas and that the trays would be emptied periodically and the contents mailed
to the contractor.




                                            76
made the inquiry, she began mailing the I-20s to one of the two addresses
provided by the INS Headquarters employee. By e-mail dated September 19,
2001, an INS Headquarters employee advised the TSC that she had obtained
the correct address and identified one of the two addresses previously provided.
This address, however, was not the address to which the Examinations
Assistant had been sending the I-20s. A TSC employee forwarded the new
address to the Examinations Assistant, telling her, “Don’t worry about the [I-
20s] you have already sent to the [the incorrect address]. They’ll either figure
it out or send them back to us.”65

V. ACS’s Processing of the School Copies of Atta’s and Alshehhi’s I-20
   Forms
      In addition to the delay caused by the mailing problem, ACS, the data
entry contractor in London, Kentucky, stored the school copies of Atta’s and
Alshehhi’s I-20s for six months after processing them before returning them to
the school.
      In 2001, ACS provided data capture, storage, and retrieval services to the
INS for a variety of INS forms, including the school copy of the I-20 form.
ACS received Atta’s and Alshehhi’s I-20 forms on September 24, 2001, and
extracted and processed the relevant information from those forms within
several days. ACS then placed the forms in storage for six months, the period
ACS believed that it was required to maintain the forms as set forth in its
contract with Uniband.66 On March 5, 2002, based on instructions issued by
the INS in late February 2002 (the reasons for which are discussed more fully
below), ACS mailed several thousand I-20s to the respective schools; among
these I-20s were forms originally completed by Huffman Aviation and
provided to Atta and Alshehhi. Huffman Aviation reportedly received the I-
20s for Atta and Alshehhi on or before March 11, 2002.



    65
       The Examinations Assistant said that she presumed that the batch of I-20s sent to the
incorrect address was forwarded to the correct address because she never received anything
returned from the contractor. It is unclear, however, how the I-20s would have been
returned to her since the envelope that she used for mailing contained only the gene ric return
address for the TSC and no cover memorandum of any kind was provided with the I-20s.
    66
         ACS worked under a subcontract with Uniband, Inc. (later Uniband Enterprises).




                                              77
      The evidence shows that ACS timely processed the I-20 forms associated
with Atta’s and Alshehhi’s I-539 applications and placed them in storage. The
evidence also shows that ACS operated under an understanding that its contract
with Uniband provided that it should store the school copy of the I-20 for 180
days after processing was completed. What is unclear, however, is whether
Uniband’s contract with the INS – which was the basis for ACS’s contract with
Uniband – required something other than a 180-day storage requirement in the
processing of I-20s. We found evidence that indicates that while the INS
contemplated a storage requirement for other INS forms processed by Uniband
and by ACS, the INS intended that I-20s be processed and returned to the
schools within 30 days. But based upon the record available to us, we are not
able to conclude what the actual intent of the contract was or who, if anyone,
made a mistake with respect to the processing of I-20s. We are concerned,
however, that the INS, through lack of attention to the contract, permitted the
contractor to process forms contrary to the INS’s intent.

     A.   ACS contract to process INS immigration forms
      ACS is based in Dallas, Texas, and provides business processing and
information technology services to commercial and government accounts.
With respect to government accounts, ACS has contracts with various agencies
of the federal government, including the INS.67 Since approximately 1982, a
wholly owned subsidiary of ACS or a predecessor company, either as a
subcontractor or the prime contractor, has provided mail room services,
microfilming, data capture, and document storage for multiple INS forms – in
particular the I-20 form and some or all I-94 forms. These services have
always been performed by ACS or its predecessor at a facility in London,
Kentucky. 68
      Data captured from the forms by ACS is transmitted electronically to the
INS for eventual upload into several INS databases: information from the I-94
forms is eventually included in the Nonimmigrant Information System (NIIS),
the INS’s principal record-keeping system for nonimmigrants; and information

    67
      In 2001, ACS had revenues of $3 billion, employed approximately 35,000 people,
and maintained 500 offices in 35 countries.
    68
       The wholly owned subsidiary of ACS in London, Kentucky, is called ACS Business
Process Solutions.




                                          78
from the I-20 forms is eventually included in the Student and Schools System
(STSC), which provides the INS with statistical information pertaining to
nonimmigrant students and the schools that enroll them. However, ACS has
not and does not enter data into these or any other INS databases directly or
maintain any INS information systems.
      From approximately 1982 to 1996, the INS contracted directly with ACS
to process various forms, including I-20s and I-94s. In 1996, the INS awarded
the prime contract to Uniband, Inc., a Native American tribal-owned company
located in Belcourt, North Dakota. Uniband subcontracted with ACS to
provide the processing and storage functions for most of the INS forms covered
in the prime contract – including I-20s and I-94 departure records. In 1996, the
INS awarded Uniband a 5-year contract for processing the various forms;
Uniband, in turn, subcontracted most of the work, including the processing of
I-20s, to ACS.69 In October 2001, ACS became the prime contractor when the
INS entered into a blanket purchase agreement with ACS to provide data entry
and storage functions for several INS forms.70 No INS employees work at the
ACS facility in Kentucky, not even an employee responsible for monitoring the
performance of ACS.

     B.      How ACS processes I-20 forms
      The ACS London, Kentucky, facility receives completed I-20 forms from
INS service centers, ports of entry, and schools.71 ACS employees pick up the
mail from the post office and deliver it to mail room employees who open the

    69
         According to INS, the total value of this contract was approximately $100 million.
    70
       At the time that ACS was awarded the prime contract, ACS subcontracted the
processing of I-94 arrival forms to Goodwill Industries in San Antonio, Texas, and to Uintah
River Technology, LLC, a tribal-owned company in Duchesne, Utah. Under the present
contract, the ACS facility in London, Kentucky, continues to process the I-94 departure
forms and the I-20 forms. Because of a bid protest, ACS did not actually begin work under
the new contract until December 18, 2001.
    71
       When nonimmigrants obtain a student visa from a United States consulate, they will
have both copies of the I-20 when they enter at a port of entry. The inspector stamps both
the school copy and the student copy of the I-20, returns the student copy to the student, and
sends the school copy to ACS. If a student transfers to a different school, the new school is
responsible for issuing a new I-20 form to the student and for sending the school copy of the
new I-20 form to ACS for data entry.




                                              79
mail and separate the I-20s and other forms by type. Each type of form is then
grouped into batches – I-20s are typically grouped in batches of 1000 – so ACS
can estimate the number of each type of form received on a given day. These
segregated batches are placed in records storage boxes, which are then dated.
Prior to December 18, 2001, ACS was not required to log any of these mail
receipt operations into a tracking system. 72
      The set-up boxes, each containing batches of a specific type of form
received on a given day, are moved from the mail room to the document
preparation station, where ACS employees ensure the documents are ready for
scanning and microfilming. Prior to December 18, 2001, this was the first
point in the process at which the boxes were logged into a tracking system.
Document preparation employees check the forms for the required signatures
(on the I-20, the nonimmigrant’s signature and the designated school official’s
signature), label multiple copies of forms and attachments as such, and repair
any rips or tears in the documents. The boxes are then logged out and sent to
the Microfilming/Scanning section.
      At the Microfilming/Scanning work station, I-20 forms and any attached
documentation are microfilmed and image scanned.73 For each receipt date,
ACS makes two sets of the microfilm – an original and duplicate. The
duplicate microfilm is shipped immediately to the INS Records Management
Branch, in Washington, D.C.; the original microfilm is held for 30 days and
then shipped to the same place. The scanned images of the I-20s are used
solely for processing purposes. The images are electronically transmitted to
different computer workstations within the London, Kentucky, facility and to
other ACS facilities for data entry. The scanned images eventually are


    72
       For mail received after December 18, 2001, the date ACS began work under the new
contract, information on each box set up by the mail room is entered into a tracking system
(called the Master Control Program). The system captures the ID code of the employee
creating the box and the date/time the forms in that box were received and processed, and
generates a box header sheet with a bar code. The mail cannot progress to any other
workstation in the facility until the appropriate entries are made in the tracking system. This
tracking system is separate from the tracking system used at the TSC. Different bar code
numbers are used at each facility.
    73
       Most of the other INS forms ACS receives for processing do not require
microfilming.




                                              80
discarded as authorized by the contract. Following scanning, the computer
system transmits small batches of the I-20 images to data entry operators.
       At Data Entry, operators capture certain information from the forms: for
I-20s, they enter information about the student and school, dates of expected
attendance, type of status (F-1 or M-1), major field of study, and name of the
designated school official. 74 If the I-20 does not reflect a valid school code, it
is returned to the INS district office with responsibility for the school. Data
entry operators keyed in between 800 and 850 I-20 forms each day.
     After data entry, the captured information is transmitted to Quality
Control, which randomly samples forms to ensure that data entry accurately
captured the requisite information. 75 Additionally, at this stage the computer
system runs an automated edit check that flags certain problems.
       After completion of the quality control review, the “source documents”
(such as the school I-20s) are sent to storage; the data captured from the forms
are transmitted in ASCII form electronically to the INS data center, 76 where
another INS contractor, Electronic Data Systems (EDS), is responsible for
eventually uploading the information in the appropriate INS database, such as
NIIS and STSC. The ACS tracking system is updated to show the time spent
in Data Entry/Quality Control and the date the information was transmitted to
EDS. Under the terms of the 1996 contract, Uniband, and ACS, as the
subcontractor, had five calendar days to process I-20s from point of receipt to
data transmission to the INS data center. Under the new contract, effective
December 18, 2001, ACS must accomplish the process in three calendar days.

    74
       ACS is not required to capture the unique receipt file number (Service Center
Number) assigned by the service centers to I-539 applications and written on the I-20 form
by the CAO at the time of adjudication.
    75
        Data entry operators in quality control actually re-key in the information from the
scanned images. If these quality control operators key in something different for a particular
data item than the original data entry operator keyed in, then the computer system generates
an error message. For each error message, the quality control operator must re-key the data
item to verify that there was not a keystroke error. If the re-key is correct, but the error
message persists, the quality control operator must correct the original data entry operator’s
mistake.
    76
         This data center is referred to as the Justice Data Center and is located in Dallas,
Texas.




                                                81
      After the source documents are microfilmed, scanned, and data entered,
they are stored for a specified time period, depending upon the type of form.
The source documents were moved from the Data Entry section to an on-site
storage portion of the facility, which maintains the documents in records
storage boxes that specify the date received at ACS and by form type. ACS
personnel told the OIG they understood that it is necessary to archive these
documents for some period in case the source documents are needed for
forensic purposes or as evidence in legal proceedings. The contract in effect at
the time estimated that the INS would request the contractor to retrieve 6,000
documents annually. In 2001, ACS received eight requests from the INS to
retrieve archived documents; three of these requests were for student forms.77
      Following the prescribed storage period, ACS mails the school copy of
the I-20 to the school. To prepare the school copy of the I-20s for mailing, the
forms are fed into a machine that trifolds each form so that the school address
(completed by the school) will show in an envelope window. The folded forms
are then fed into a second machine, which stuffs the forms in an envelope and
seals the envelope. Clerical personnel then complete a quick quality control
check that consists of flipping through the stack of envelopes to make sure the
address shows in the window. The envelopes are put in a mail tray and
delivered to the Post Office.
    The contract authorizes ACS to destroy most of the other source
documents after the storage period has expired.

     C. The mailing of Atta’s and Alshehhi’s I-20s to Huffman Aviation
      Officials from both Uniband and ACS told the OIG that they understood
the contract between Uniband and the INS in effect in September 2001, when
ACS received the adjudicated Atta and Alshehhi I-20s, to require ACS to store
the school copy of the I-20 for 180 days. They also stated that following the
requisite storage period, the contract required ACS to return to the school, and
not destroy, the I-20 form. As a result of these contractual requirements, they
maintained, ACS was obligated to maintain possession of the original (school



    77
     The eight requests required retrieval of more than 22,000 documents in storage at the
ACS London, Kentucky, facility. A single request required retrieval of 22,904 documents.




                                            82
copy) I-20s for Atta and Alshehhi until March 24, 2002 (180 days after the date
of receipt, September 24, 2001).
      ACS mailed the school copies of the I-20s of Atta and Alshehhi to
Huffman Aviation as part of a mass mailing on March 5, 2002. Huffman
Aviation received Atta’s and Alshehhi’s I-20s on or before March 11, 2002,
approximately two weeks before the 180-day storage requirement expired.
This mailing was initiated at the direction of the INS. Representatives from
ACS told the OIG that it was obligated to process all work received before
December 18, 2001, the date its contract with the INS took effect, under the
terms of its former subcontract with Uniband and to process all work received
after December 18, 2001, under the terms of the new contract, which required
ACS to return the I-20s to schools within 30 days.78 In late February 2002,
INS representatives met with ACS at the London, Kentucky, facility to discuss
the execution of the new contract. With respect to all forms that were being
held in storage under the terms of the previous contract, the INS asked ACS to
accelerate the rate at which it was sending out archived I-20s to bring its
inventory of archived I-20s in line with the requirements of the new contract.
In compliance with this request, ACS conducted several mass mailings of
forms within a several day period. On March 5, 2002, Atta’s and Alshehhi’s I-
20s were part of one of these mass mailings that included 4,000 forms and
were therefore not maintained for the entire 180-day period.79



    78
       When ACS was awarded the new contract, Uniband – the only other company that
made a bid for the contract – filed a protest with the INS. Between October and December
18, 2001, while the protest was being assessed, ACS processed forms under the terms of the
previous contract. This bid protest did not affect the processing of the Atta and Alshehhi I-
20s, which had been received on September 24, 2001.
    79
        After reviewing the draft report, the INS obtained from ACS a letter dated May 9,
2002, in which ACS stated that it did not receive any written instruction from the INS to
mail I-20s on March 5, 2002. The INS asserted in its written response that it was “not aware
of any such written or oral instructions to ACS.” It is not clear to us why the INS underwent
such effort to dispute a point that is not made in the report. We do not assert that the INS
directed ACS to mail I-20s on March 5, 2002. INS representatives met with ACS in late
February 2002 and discussed reducing the inventory of forms being stored under the terms
of the previous contract by mailing them as soon as possible. In response to these
instructions, ACS conducted several mass mailings, one of which occurred on March 5.




                                             83
    D. OIG’s analysis of ACS’s processing of the I-20s

         1.   Atta’s and Alshehhi’s I-20s were handled in the same
              manner as other I-20s received by ACS at the time
       The path that the Atta and Alshehhi I-20 forms took through the ACS
facility and how long they remained at each station can mostly be determined
from data entered into the tracking system used by ACS at the time (and with
minor changes in place today). As explained above, the system does not track
individual forms; it tracks “batches,” small numbers (50 or so) of the same type
of form grouped together for processing.
     The tracking system contained the following information on the two
batches of I-20s containing the Atta and Alshehhi forms.

              a.    Atta’s I-20


         Receipt at ACS                        9/24/01
         Start of batch scanning               9/25/01 12:27 PM
         Completion of scanning                9/25/01 12:32 PM
         Start of batch data entry             10/02/01 2:30 PM
         Completion of batch data entry        10/02/01 3:17 PM
         Start of batch quality control        10/03/01 6:23 AM
         review
         Completion of batch quality           10/03/01 6:24 AM
         control review
         Start of batch data transmission      10/05/01 8:10 AM




                                          84
                b.    Alshehhi’s I-20


          Receipt at ACS                           9/24/01
          Start of batch scanning                  9/25/01 12:29 PM
          Completion of scanning                   9/25/01 12:32 PM
          Start of batch data entry                10/02/01 2:32 PM
          Completion of batch data entry           10/02/01 3:17 PM
          Start of batch quality control           10/03/01 6:23 AM
          review
          Completion of batch quality              10/03/01 6:25 AM
          control review
          Start of batch data transmission         10/05/01 8:10 AM


      Based on the information logged by ACS as the forms made their way
through the process, it took ACS approximately 10 calendar days to process the
Atta and Alshehhi I-20 forms from receipt through transmission to the INS.
Although it took ACS twice the 5-day contract requirement to process these
two files, the tracking system data shows that the forms were not unduly
delayed at any stage of the process. Moreover, it appears that the delay
resulted from an enormous volume of forms submitted to ACS following
September 11, 2001. 80
     The evidence also shows that Atta’s and Alshehhi’s I-20 forms were not
processed any differently from other I-20s submitted around that same time
period. In each case, ACS processed the I-20s from receipt through data



    80
       In the two weeks following September 11, 2001, ACS received more than twice the
number of I-20s it was anticipating. For the months preceding September 2001, ACS
received on average 46,233 I-20 forms per month. In September 2001, ACS received
115,516 I-20s, the bulk of which was received after September 11, 2001. On a single day in
late September 2001, ACS received approximately 19,000 I-20 forms.




                                           85
transmission within a matter of days, stored the I-20s for 180 days, and
returned the I-20s to the appropriate school.

             2.   The contract requirements for handling I-20s after
                  processing
      While we found that ACS did not process or store the Atta and Alshehhi
I-20s differently from other I-20s, we found evidence that the INS had intended
for I-20s to be mailed to schools within 30 days of processing, not after 180
days of storage. This 30-day processing requirement appears to have been in
the INS’s previous contracts for processing these forms. In addition, the
language in ACS’s current contract is almost exactly the same as the language
in the prior contract – the one in force in September 2001 – and requires ACS
to return I-20s within 30 days of processing. Below we discuss these
contractual requirements because we found that the INS may not have provided
sufficient attention to this contract to ensure that the contractor and its
subcontractor’s performance was consistent with the INS’s intent.
      The 1996 contract between the INS and Uniband contained several
provisions defining the time period the contractor was required to store
documents following processing. 81 At least one of these provisions also
provided that following passage of the storage period, the contractor was to
destroy the forms.82 The contract also contained a provision specifically
requiring the contractor to return the school copy of the I-20 to the school
within 30 days after processing.
     Section C.5.1.3 of the contract, entitled “Document Storage, Retrieval
and Disposal,” stated:
               The Contractor shall store all original source documents
         for a period of 120 days, except for the Visa Waiver I-94, I-94T
         and I-92 documents. These documents shall be stored for a


    81
      The contract between Uniband and ACS did not shed any light on this issue. It
simply provided that “[ACS] shall provide storage/retrieval and destruction services of all
document types, according to specific contract requirement.”
    82
       Following the events of September 11, 2001, the INS directed its contractors not to
destroy any archived documents.




                                             86
     period of one (1) year.... Original documents shall be destroyed
     within 7 days after the document’s storage period has expired.
      The same section of the contract, however, contained a provision –
Section C.5.1, entitled “Document Collection and Control” – that referred to
special processing requirements for certain specified documents:
           The Contractor shall provide, implement, and maintain
     procedures to ensure the receipt, accountability, and control of
     approximately sixty million (60,000,000) documents from
     various locations ... throughout the United States and Canada.
     Samples of the forms and documents to be processed and
     specific requirements for the processing of each document are
     provided as Attachments B and C, respectively, in Section J of
     this contract.
     Attachment C to Section J of the contract, entitled “Specific
Forms/Documents Processing Requirements,” contained a provision providing
several specific processing requirements for I-20 forms. That provision
provided, in pertinent part:
           I-20A/B, I-20M/N
           Return page 1 of the I-20 to the school thirty (30) days
           after processing.
(Emphasis added.)
      In July 1998, the INS issued a Task Order (what we refer to as Task
Order No. 1) to the contract that included a Statement of Work effectively
superseding the description of the work set forth in Section C.5 of the contract.
The most significant change was that I-92s would no longer be stored for one
year but for 180 days. Other forms would continue to be stored for 120 days.
Task Order No. 1 also contained, however, a paragraph entitled “Scope of
Work,” that repeated word-for-word the provisions in Section C.5.1 of the
underlying contract, quoted above, which refers to the specific requirements for
particular forms as stated in the attachments, specifically Attachment C.
      The INS and Uniband modified Task Order No. 1 and thus the contract in
August 1998. The modification changed the standard storage period for
original source documents from 120 days to 180 days. But this modification
did not, at least explicitly, modify or amend the provisions in the Scope of
Work clause in Task Order No. 1, which incorporates by reference the specific


                                       87
requirements for particular forms as stated in the attachments, specifically
Attachment C.
      Several ACS employees acknowledged that at some point in the past,
ACS did return I-20 forms to the schools within 30 days. These employees
recalled that the storage requirements for I-20s changed from 30 days to 120
days and then again to 180 days, although they did not recall when the changes
occurred or what precipitated the changes.
      ACS representatives told the OIG that it was their understanding that the
August 1998 modification to the contract superseded the prior storage
requirements for all source documents and set a new storage requirement of
180 days.83 It appears that ACS followed this interpretation for several years –
until December 2001, when ACS signed a contract with INS that, like the 1996
contract with Uniband, specified a 30-day storage requirement for I-20 forms
in Attachment C to the contract.
      Based upon our reading of the contract and subsequent modifications, we
believe that it was the INS’s intention that I-20 forms be returned to the schools
in 30 days, as explicitly set forth in Attachment C to the original contract. Our
interviews with the INS personnel who were responsible for managing the
Uniband contract did not result in any further clarity regarding the INS’s intent
with respect to the processing of I-20 documents, as expressed in the special
processing requirements in Attachment C, or whether at some point that intent


    83
        After reviewing a draft of this chapter of the report, ACS in its written response
stated, “until we reviewed the draft report, ACS had never seen the specific language
governing the storage of I-20 documents found in Att. C to the Uniband prime contract.”
ACS also asserted that it adhered to the provision in the INS/Uniband contract that governed
storage of source documents (Section C.5.1.3 discussed above) as that provision was
modified over time. We note, however, that ACS did not destroy I-20s after the storage
period expired as the storage provision required but instead returned the I-20s to the schools.
The requirement that I-20s be returned to the schools was contained in the special
processing requirements set forth in Attachment C to Section J of the INS/Uniband contract.
In addition, ACS was aware of other specific processing requirements for the INS forms it
handled – such as the data elements required to be captured – which were set forth in other
attachments in Section J of the INS/Uniband contract. Furthermore, we note that ACS’s
subcontract with Uniband specifically referenced the INS/Uniband contract Statement of
Work and that the Statement of Work contained paragraph C.5.1, which specifically
provided that special processing requirements for certain forms were in Attachment C.




                                              88
changed and the INS sought to have all forms handled by ACS processed and
stored for 180 days.84
       The management and oversight of this contract was the responsibility of
the INS’s Office of Information Resource Management (IRM), which is a
component of the Office of Management. IRM personnel responsible for this
contract believed that administration of this contract should have fallen to the
Inspections Division, and they sought to have administrative responsibility for
the contract reassigned to Inspections.85 As a result, IRM assigned the contract
a low priority. The Contracting Officer’s Technical Representative (COTR)
within IRM who had responsibility for the INS-Uniband contract told the OIG
that, because of other duties he was assigned, he exercised minimal oversight
of the contract. He stated that he visited the Uniband facility only once prior to
the day the contract was closed out and similarly visited the ACS facility only
once. Neither visit was for the purpose of reviewing any specific contract
requirements. He stated that at the time he was not familiar with the terms of
the contract, and there is no evidence that he made any effort to monitor the
contractor’s compliance with the provisions of the contract.86 As one
employee who dealt with the contract told the OIG, IRM’s management of the
Uniband contract was tantamount to “non-management.” As a result of this
“laissez-faire” monitoring of the contractor’s performance, it does not appear




    84
       The INS’s present contract with ACS is structured exactly the same as the 1996
contract. The section entitled “Description of Work” contains both a general documents
storage provision (Section 3.1.3), and a provision specifically noting that “[s]pecific
requirements for the processing of each document are provided as Attachment C . . . .”
(Section 3.1). Attachment C contains a provision requiring the contractor to return the
school copy of the I-20 within 30 days after processing. Since ACS began work under the
new contract in December 2001, it has been complying with the 30-day requirement for
processing I-20s.
    85
       Responsibility for the INS contract that was awarded to ACS in October 2001 has
been placed in the Inspections Division.
    86
        The IRM employee stated that in the past, a group of INS employees was stationed at
the facility to monitor the contractor’s performance of the contract, but that for budgetary
reasons, the group was disbanded. Since that time, the INS has not had any personnel
stationed at the ACS facility.




                                            89
that the INS ever advised Uniband or ACS that its 180-day storage of I-20s was
inconsistent with the terms of the contract.87

VI. OIG Conclusions Regarding the Delay in Sending the I-20 Forms to
    Huffman Aviation
      Huffman Aviation received its copies of Atta’s and Alshehhi’s I-20 forms
in March 2002, more than a year and a half after the forms were submitted to
the INS in September 2000 and approximately seven months after the I-539
change of status applications were approved in July and August 2001.
      We found that the delay in sending the I-20 forms to Huffman Aviation
was attributable to several causes. First, the INS did not adjudicate Atta’s and
Alshehhi’s I-539 change of status applications for approximately 10 months.
The INS has historically placed a low priority on the adjudication of I-539
applications, and the adjudication of these applications was significantly
backlogged in 2001.
     Second, after Atta’s and Alshehhi’s applications were approved in July
and August 2001, ACS did not receive the I-20 forms from the INS for
approximately two months after adjudications. Processing was delayed for
many weeks due to disorganization in the INS’s system for mailing the I-20s to
ACS.
      Third, ACS processed Atta’s and Alshehhi’s I-20 forms quickly upon
receipt in September 2001 but did not mail the forms to Huffman Aviation for
almost 180 days. ACS’s actions were consistent with its understanding of its
contract at the time and were consistent with its handling of other I-20 forms
processed by ACS at the time. However, we found evidence that the INS had
intended for the I-20s to be mailed to schools within 30 days not after 180
days.
      We are troubled by the INS’s lack of attention to its contract with
Uniband and its lack of attention to the performance of ACS in processing
I-20s. Even operating within a system that designated I-539s as a low priority,
we believe that the INS’s Office of Information Resource Management, which

    87
       After reviewing a draft of the report, the INS acknowledged that “program
mismanage ment was a factor” and asserted that it had “constructively accepted” ACS’s
storage of I-20s for 180 days because it never objected to ACS’s actions.




                                           90
was responsible for monitoring the contract, should have been more familiar
with the terms of the contract and exercised more oversight to ensure that its
contractor was abiding by the INS’s understanding of the terms of the contract,
especially since no INS employees worked at the ACS facility. We believe
that the INS should have paid more attention to the performance of the
contract.

VII. Adjudication of Atta’s and Alshehhi’s I-539s
      In addition to investigating what caused the delay in the INS’s processing
of the I-20s that were sent to Huffman Aviation on March 11, 2002, we
evaluated whether the INS properly approved Atta’s and Alshehhi’s change of
status applications.
       The adjudication of I-539 change of status applications consists primarily
of a review to ensure that the applicant has submitted the proper documents
and the proper fee. This process is not designed to screen for potential
criminals or terrorists; it is designed to ensure that applicants can demonstrate
that they have the financial resources to support themselves while in the United
States. INS employees at all levels told the OIG that the INS’s philosophy
with respect to applications for INS benefits, and specifically the change of
status benefit, is that applicants are presumptively eligible for the benefit unless
they affirmatively demonstrate that they are not eligible. The percentage of
approvals for I-539 change of status applications (not including extension of
stay applications) has been 83 percent, 88 percent, 90 percent, and 91 percent
for fiscal years 1998, 1999, 2000, and 2001, respectively, and field personnel
told the OIG that in their experience the majority of the denials stem from an
applicant failing to timely file the change of status application. 88

     A.    Requirements for approval for I-539 change of status
      In the sections that follow, we discuss several issues related to the change
of status adjudication process.




    88
       We provide a graph on the next page depicting the number of approvals and denials
of I-539 change of status applications in the TSC in fiscal year 2001.




                                           91
                                                Texas Service Center FY01
                                               I-539 Change of Status Only

                    1,700
                    1,600
                    1,500
# of Applications




                    1,400
                    1,300
                    1,200
                    1,100
                    1,000                                                                             APPROVALS
                      900
                      800
                      700                                                                             DENIALS
                      600
                      500
                      400
                      300
                      200
                      100
                        0
                            Oct- Nov-   Dec- Jan-   Feb-   Mar-   Apr- May-   Jun- Jul-01 Aug- Sep-
                            00    00     00   01     01     01     01   01     01          01   01
                                                            Month




                                                                   92
Signature requirement
       When a CAO initially receives a file containing a change of status
application for student status, the CAO should first ensure that the I-539 has
been signed and that the two I-20s have been signed by the school official and
by the student.89 If the forms have not been signed, the adjudicator is supposed
to return the entire application to the applicant. However, this procedural
requirement is not explicitly stated in the SOPs for the I-539 applications that
were in use at the TSC at the time that Atta’s and Alshehhi’s applications were
adjudicated. TSC personnel stated that since the signature requirement pertains
to all forms adjudicated in the service centers, it was not considered a
requirement particular to the I-539 and therefore unnecessary for inclusion in
the SOPs. In addition, the signature requirement is not addressed in the
Adjudicator’s Field Manual, since the portions of the INS’s Adjudicator’s Field
Manual that address nonimmigrants have not yet been completed.
      With respect to Atta’s and Alshehhi’s I-539 applications, both signed the
I-539 forms and submitted the appropriate fee. The school copy of both Atta’s
and Alshehhi’s I-20s were signed by an official representing Huffman
Aviation, but not by Atta or Alshehhi.
       We learned in interviews with TSC personnel that adjudicators
consistently return I-539s that have not been signed. But with respect to the
I-20 forms, which require the signature of the school official and the student,
CAOs often do not return the application form to the student if the I-20 has not
been signed by the student, only if the I-20 is not signed by the school official.
Instead of returning the application to the student, the CAO normally makes a
note to the student that the student copy of the I-20 must be signed, and this
information reaches the student when the student copy of the I-20 is returned to
the student after adjudication. According to TSC personnel, CAOs have
adopted this practice because it is more efficient than returning the entire
application to the student simply to obtain a signature. TSC personnel stated
that since the student copy of the I-20 must be signed by the student to re-enter



    89
         As stated previously, contractor clerical personnel initially review the I-539 to ensure
that it has been signed and that the appropriate fee has been attached. The CAO’s review of
the I-539 for the signature is the second review in the process.




                                               93
the country, the student would eventually be required to sign the form by an
inspector at the port of entry.

           1.    Proof that applicant timely filed the application
       Another preliminary step that the CAO must conduct is ensuring that the
applicant filed the application prior to the lapse of his or her current status. On
the I-539 form, applicants state their current nonimmigrant status and the date
that the status expires. This information can be verified by the CAO by
reviewing the copy of the arrival I-94 submitted by the applicant. TSC
personnel told the OIG that the TSC considers the application “received” when
INS date stamps the application in the mail room. If the CAO determines that
the application was not timely filed, the adjudicator will set the application
aside in a stack of files that the adjudicator later prepares for denial. 90
     In this case, Atta and Alshehhi timely filed their I-539 applications. The
TSC received Atta’s and Alshehhi’s applications on September 19, 2000, and
they were both data entered on September 22, 2000. 91 Atta’s admission as a
B-2 visitor on June 3, 2000, was not scheduled to lapse until December 2,
2000. Alshehhi’s admission as a B-2 visitor on May 29, 2000, was not
scheduled to lapse until November 28, 2000. 92


    90
       TSC personnel told the OIG that CAOs typically set aside one day of the week to
handle denials, returns, and requests for information. With respect to denials, the CAO
prepares a denial letter that is sent to the applicant. Denials of change of status applications
cannot be appealed.
    91
        Atta and Alshehhi actually enrolled in Huffman Aviation at the end of August but did
not file their change of status applications with the INS until September 19, 2000. This was
permissible under the law at the time because the law did not require persons who wished to
change to student status to file the application prior to starting school. 8 CFR § 248.1(c).
Since September 11, 2001, the INS has taken steps to change this regulation and recently
issued a proposed interim rule to require nonimmigrants to complete the change of status
process before beginning school. This proposed regulation change is discussed in Chapter
Seven, Section III A of this report.
    92
       Alshehhi incorrectly stated on his I-539 application form that he had entered the
country on May 9, 2000. In addition, he also incorrectly stated that his current status was
scheduled to expire on January 17, 2010; this date was the expiration date of his B-1/B-2
visa.




                                               94
           2.    Evidence requirement
      After the CAO determines that the application form was signed and
timely filed, the CAO must ensure that the applicant has submitted the proper
evidence as required by law and by the instructions on the I-539. To change to
nonimmigrant student status, the applicant must submit a copy of the I-94, a
copy of his or her passport showing that it and the visa have not expired, and
documentary evidence of financial support in the amount indicated on the I-20.
      INS regulations do not define what constitutes sufficient “documentary
evidence of financial support.” The portions of the Adjudicator’s Field Manual
addressing nonimmigrants have not been completed, and the Field Manual
does not contain any guidance for adjudicators on this issue. We also found no
reference to this topic in INS’s Operations Instructions. According to Service
Center personnel that we interviewed, there is no centralized guidance on what
evidence is required to be submitted or what evidence should be considered in
adjudicating an I-539 change of status application. As a result, each service
center has developed its own guidance. TSC personnel stated that adjudicators
are provided with examples of documents that can be submitted, such as copies
of bank statements, a letter from a bank, or a copy of the parents’ tax return if
the family, but not the student, is currently living in the country. With respect
to students from European countries, TSC personnel stated that CAOs at the
TSC are trained that a letter or affidavit from the parents stating that they will
support the student is also acceptable. We found that much of the
determination is left to the discretion of the adjudicator.
      If an adjudicator determines that the appropriate evidence has not been
submitted, the adjudicator can make a request for more evidence, which results
in the application being put on hold until the applicant complies with the
request. The adjudicator may also deny the application. If an adjudicator
determines that the appropriate evidence has been submitted and that the other
requirements discussed above have been met, the adjudicator will approve the
application. 93


    93
       According to TSC personnel, CAOs are not required to review the documents to
determine if they might be fraudulent. Rather, adjudicators review the documents to
determine if they are facially valid. One CAO told the OIG that it is not the role of the CAO
to look behind or challenge the documents. However, TSC personnel also said that if the
adjudicator notices something amiss about the copies of the documents submitted, the CAO
(continued)

                                             95
       In this case, Atta and Alshehhi each submitted copies of their I-94s, valid
passports, and valid visas. In addition, each submitted a bank statement record
signed by a bank official demonstrating a joint account between Atta and
Alshehhi with a balance on September 6, 2000, of $21,372.52. Atta and
Alshehhi also each attached a handwritten note stating that each was being
supported by his family and that money was being transferred to their account
regularly. Atta and Alshehhi also submitted copies of a lease for a property
that they were renting in Venice, Florida.
     In sum, based on our review of the steps taken by the adjudicator and the
evidence presented by Atta and Alshehhi, we concluded that the adjudicator
approved Atta’s and Alshehhi’s I-539 applications in accord with INS polic ies
and practices. Because the I-20s were not signed by Atta or Alshehhi,
however, the adjudicator should have returned the applications. But TSC
adjudicators rarely returned such forms without a signature.

     B.    Length of stay for nonimmigrant vocational students
      Atta’s and Alshehhi’s I-20s stated that their course of study was from
September 1, 2000, until September 1, 2001. Their admission period was
noted on their I-20s as being from September 1, 2000, until October 1, 2001,
which is one year plus 30 days. We investigated to determine whether this
time period was appropriate.
      As discussed earlier in this report, foreign students are permitted to stay
in the United States for different lengths of time, depending on their status and
course of study. Vocational students, or M-1 students, are authorized to be
admitted “for the period of time necessary to complete the course of study …
plus thirty days within which to depart from the United States or for one year,
whichever is less.” 8 CFR § 214.2(m)(5). According to the guidance in the
Inspector’s Field Manual, however, the admission period for an M-1 student


(continued)
can send the file to the division within the service center that handles benefit fraud
investigations – the Enforcement Operations Division. We found that in reality,
adjudicators are discouraged from scrutinizing applications for possible fraud because of the
pressure to produce completed adjudications. For a discussion of the production pressure
faced by adjudicators, see Section VII D below.




                                             96
cannot exceed one year. 94 As stated earlier in this report, the portions of the
Adjudicator’s Field Manual addressing nonimmigrants have not been
completed.
      According to the adjudicator in this case, his understanding of the law
and INS policy was that a vocational student is entitled to be in status for only
one year. He stated that he wrote in the end date of the admission period with
an additional 30 days because it is the grace period that all vocational students
are provided so that they can leave the country. He said that inspectors who
encountered the I-20 would understand that the 30 additional days were the
grace period only and not the time the student was considered in status.
According to other Service Center personnel, this practice of allowing a
vocational student whose course of study is one year an additional 30 days to
vacate is not uncommon, and there is no INS policy prohibiting this practice. 95
INS inspectors interviewed by the OIG stated, however, that they admit
vocational students only for one year even if the course is scheduled to last for
one year and that no additional days are added for the “grace period.”
      In sum, we found that the law permits a vocational student to remain in
status for a total of one year and that there is no provision for an additional
grace period after the expiration of the 1-year period. In this case, the CAO’s
decision to include a 30-day grace period in the status period for Atta and
Alshehhi was incorrect.
     This mistake did not, however, affect the legal status of Atta and
Alshehhi as of September 11, 2001. Even if Atta and Alshehhi had been given
M-1 status for only one year, Atta and Alshehhi would have been in the
country legally on September 11 based on their still valid B-1/B-2 visas.
Moreover, Atta re-entered the United States for the last time on July 19, 2001,
and was admitted as a B-1 visitor until November 12, 2001. Alshehhi was


    94
       Under “Terms of Admission” for M-1 students, the manual states: “Admit as M-1 to
the end date of the course, as specified on the I-20, plus 30 days. Do not exceed 1 year.”
    95
        The INS Office of General Counsel attorney responsible for handling benefits issues
told the OIG that in her opinion the regulation regarding M-1 students is ambiguous as to
whether vocational students whose course of study is exactly one year are also entitled to the
30-day period within which to depart the United States that is given to all other vocational
students.




                                             97
admitted for the last time on May 2, 2001 as a B-2 visitor until November 2,
2001.

     C. Information that could have affected the adjudication

           1.    Completion of the course by Atta and Alshehhi on
                 December 19, 2000
      According to federal regulations, students are eligible for nonimmigrant
student status only while they are pursuing a “full course of study.” Once
students complete their course of study, they are no longer in student status and
must leave the country. 96 8 CFR § 214.1(a)(3). We sought to determine
whether the school or the student has any obligation to report to the INS that
the student has completed school or terminated his or her studies for some
other reason.
      With regard to students, the law does not require them to report any
information to the INS about their student status. Students are obligated to
leave the United States once they are no longer in student status.
      With respect to schools, the reporting obligations are not clearly set out
in the law. Section 101 of the INA, which defines academic and vocational
students, includes the following language about academic and vocational
schools: “… institution[s] shall have agreed to report to the Attorney General
the termination of attendance of each nonimmigrant [academic or
nonacademic] student and if any such institution fails to make reports promptly
the approval shall be withdrawn.” 8 USC § 1101(a)(15)(f) and (m).
      The regulations state that the INS will provide to the schools a list of
students at least once a year, and once the schools have this list, they are
obligated to notify the INS of any student on the list who is no longer in school
or taking a full course of study. 8 CFR § 214.3(g)(3). We found that the INS
has not provided these lists to the schools since 1989 because of problems with
the INS’s computer system that records information about students, the Student



    96
       The regulations require that nonimmigrants must depart the United States at the
expiration of their authorized period of admission or upon abandonme nt of their authorized
nonimmigrant status.




                                            98
and Schools System or STSC.97 Unless the INS has requested information
about the status of students, the schools do not have any affirmative obligation
to report this information to the INS.
      We also found that when schools voluntarily provide this information to
the INS, the information is provided to the INS district office in which the
school is located, but the INS rarely takes any action on this information.
Moreover, the INS has no system by which this information, if reported, is
shared with the service centers or put into any computer system.
      The course of study for Atta and Alshehhi was defined on their I-20s as
lasting from September 1, 2000, until September 1, 2001, and the TSC CAO
approved their student status until October 1, 2001. However, Atta and
Alshehhi passed the required examination to obtain a pilot’s license on
December 19, 2000, and had finished their course of studies at Huffman
Aviation by the time the TSC CAO approved their change of status. But the

    97
       The OIG obtained a memorandum dated May 26, 1995, from the INS Commissioner
to the Deputy Attorney General, which describes immigration controls on foreign students in
response to specific questions by the Deputy Attorney General. One of the questions asked
by the Deputy Attorney General was: “How regularly (semester-by-semester, annually, etc.)
does INS check on whether foreign students are maintaining status?” The INS’s response in
part was:
        Current regulations provide for sending a data print-out of ‘F’ and ‘M’
    students listed in the Service’s automated Student/School System as attending a
    school for the school to verify, correct, and return to the INS’ contractor-
    supported data center to update the student information on the system. This
    massive revalidation effort has been suspended since December 1989 because
    major systemic limitations and data linkage problems within the STSC system-
    design related to file structure, ability to archive, purge or otherwise merge
    duplicate data contained in form-driven files relative to most current updates,
    could not be overcome.
The INS did not take any immediate steps to correct the problem. Instead, as the INS
indicated in the next paragraph of the memorandum, the INS initiated “a study for correcting
the system problems with the aim of engineering a database to effectively support all student
and school information requirements, including an assessment of the viability of the current
STSC database and alternative recommendations to establish a reliable repository of student
and school data.” This new computer system, the Student and Exchange Visitor Information
System (SEVIS), is scheduled to be implemented in 2003. For a complete discussion of
SEVIS, see Chapter Six of this report.




                                             99
CAO had no information in the file or in any computer system by which he
could have been aware that Atta and Alshehhi had completed the pilot’s
program in December 2000. Had the CAO been aware of this information, he
would have approved the application but would have allowed admission only
between September 1, 2000, and the end of the program, plus 30 days.

           2.    Lack of sufficient hours for “full course of study”
       An applicant is not entitled to change to student status unless the
applicant is pursuing a “full course of study.” For vocational students, a full
course of study requires “at least eighteen clock hours of attendance a week if
the dominant part of the course of study consists of classroom instruction, or at
least twenty-two clock hours a week if the dominant part of the course of study
consists of shop or laboratory work.” 8 CFR § 214.2(m)(9)(iii). Huffman
Aviation billing records show that neither Atta nor Alshehhi attended school
the required 18 or the required 22 hours per week. Accordingly, they did not
meet the “full course of study” requirement. 98
      Nonetheless, the CAO had no way of learning that information. Schools
are required to certify on the I-20 that each student has enrolled in a full course
of study to obtain the M-1 visa or the change of status to an M-1. Once
Huffman Aviation certified Atta’s and Alshehhi’s I-20s, the CAO had no
reason not to accept the certification at face value. In addition, as stated above,
the INS has not asked schools since 1989 to report students who are failing to
take a full course of study.

           3.    Departures by Atta and Alshehhi while their I-539
                 applications were pending
      As discussed earlier in this report, Atta and Alshehhi left and re-entered
the United States on two occasions while their I-539 applications were
pending. The INS’s stated policy is that nonimmigrant students abandon their
I-539 applications if they leave the country while the application is pending
and that the application should be denied by the adjudicator. 99 Therefore,

    98
       We discuss the issue of whether Huffman Aviation offers a full course of studies and
should therefore be authorized to issue I-20s in Chapter Six of this report.
    99
      The only written record of this policy that we were able to find was contained in a
June 18, 2001, memorandum written by Acting Assistant Commissioner Thomas Cook
(continued)

                                            100
according to this INS policy, Atta’s and Alshehhi’s applications should have
been denied for abandonment.
      The CAO who adjudicated their cases, however, was not aware that Atta
and Alshehhi had departed the country, even though this information was in the
INS’s computer system. A nonimmigrant’s arrivals to and departures from the
United States are supposed to be recorded on I-94 forms, which are collected
by inspectors when a nonimmigrant arrives into the country and are supposed
to be collected by the airlines when a nonimmigrant departs the country. The
airlines should send the forms to the INS to be data entered by an INS
contractor and later uploaded into the INS’s Nonimmigrant Information
System (NIIS).
      Although adjudicators have access from their computer terminals to
NIIS, we found that CAOs were not required at the time to check NIIS before
making a decision on an I-539 application. Unless a copy of the I-94 was not
attached to the application and the CAO needed to access NIIS in order to
confirm the date the applicant arrived, CAOs normally did not check NIIS.
     On March 15, 2002, after the controversy about Atta’s and Alshehhi’s
change of status applications surfaced, the INS issued new requirements with
respect to processing I-539s, including the requirement that NIIS be checked
before the I-539 is adjudicated.100

     D. Production pressures and the I-539
      We found that while CAOs have the ability to check NIIS and refer cases
suspected of fraud to the Enforcement Operations Division, they do not
routinely do so because of pressure to adjudicate cases quickly. For example,
one experienced CAO told the OIG that he has not accessed NIIS regularly in
the past because, even though it would only take approximately 30 seconds to



(continued)
purporting to reiterate INS’s “long standing” policy. According to the TSC Supervisory
CAO who is currently responsible for managing the processing of I-539s and who provides
training to CAOs on I-539s, she did not see the Cook memorandum until March 21, 2002,
when it was distributed to the field from INS Headquarters via e- mail.
    100
          We discuss the INS’s changes to the I-539 process in Chapter Seven of this report.




                                              101
complete the transaction, it was not worth the time to do so because it would
interfere with the CAO completing the required number of cases.
      Moreover, adjudicators are evaluated based on the number of
applications they complete. Their performance appraisal rating is based on a
point system, and adjudicators receive points for each application or petition
they adjudicate. The number of points assigned to an application is based on
the complexity of the type of adjudication. For example, an adjudicator
receives 15 points for each change of status application adjudicated. Although
denial letters and requests for evidence require significantly more time for
adjudicators to review, they do not receive any additional points for completing
these transactions. According to the performance work plan for CAOs in effect
between March 2001 and April 2002, to achieve an outstanding rating, a
journeyman CAO would be required to obtain over 1,149 points during an 8-
hour period. To obtain an excellent rating, the journeyman CAO would have
to obtain 880 to 1,149 points. For the GS9/11 CAO, the outstanding level
requires over 1,072 points in an 8-hour period, and the excellent rating requires
806 to 1,072 points. If we assume an average of 1,000 points and a CAO
adjudicating change of status applications, this would require the adjudicator to
complete approximately 66 applications in an 8-hour day. Factoring in 30
minutes for lunch but no breaks, an adjudicator would spend approximately 7
minutes on each application. To achieve the required 1,000 points, the CAO
would actually have to complete cases even faster than this average, because
the averages are calculated with no breaks and no delays such as preparing
denial letters or requests for information. One experienced TSC adjudicator
told the OIG that he adjudicates approximately 75 I-539 applications per day.
      The U.S. General Accounting Office also recently observed the
production pressure faced by adjudications officers and the effect this pressure
has on an adjudicator referring cases for fraud investigation. See “Immigration
Benefit Fraud: Focused Approach is Needed to Address Problems,” Report
No. GAO-02-66, January 2002, p. 5 and p. 29. The GAO stated, “Some
adjudicators told us that because of the pressure to adjudicate cases quickly,
they did not routinely use investigations staff to look into potentially fraudulent
applications: doing so would take more time and reduce the number of
applications they could review.” The OIG has also addressed the impact of the
production pressure faced by adjudicators on the quality of adjudications in our
July 2000 report on the INS’s “Citizenship USA Initiative,” a program in fiscal
year 1996 that targeted reducing the backlogs in the naturalization program.


                                       102
    E.    OIG conclusions regarding the adjudication of Atta’s and
          Alshehhi’s change of status applications
      The adjudicator who approved Atta’s and Alshehhi’s change of status
application did so in accord with INS policies and practices at the time. The
process for reviewing these applications was not designed to uncover criminals
or potential terrorists. Rather, it was a paper-driven process that required the
applicant to meet minimal standards to obtain the desired change of
nonimmigrant status. Applicants were viewed as presumptively eligible unless
they clearly demonstrated that they were not eligible. On paper, Atta and
Alshehhi met the requirements for change of status, and the adjudicator
routinely approved their applications.
       We noted several problems with the adjudication process, however.
First, Atta and Alshehhi had not signed their I-20 forms, which technically
should have resulted in the applications being returned to them. However, the
TSC had adopted a practice of bringing the missing signature to the attention of
the student by noting it on the student copy of the I-20, which was eventually
returned to the student after adjudication of the application. The INS should
determine whether this practice is consistent with INS policy and then address
this issue in national standard operating procedures and the Adjudicator’s Field
Manual.
      Second, the adjudicator approved Atta’s and Alshehhi’s admissions for
one year plus thirty days. Federal regulations are clear that vocational students
are permitted to remain in vocational student status for the length of their
course of study, with a maximum of one year. The TSC practice of permitting
vocational students whose course of study is one year an additional 30-day
grace period may exist at other service centers. If, as it appears to us, this
practice is contrary to INS regulations and policy, the INS should take steps to
correct this practice.
       Finally, and most importantly, we found that the adjudicator did not have
complete information about Atta and Alshehhi before adjudicating their
applications. Although Atta and Alshehhi had finished their course at Huffman
Aviation by the time their applications were adjudicated, the process is not
designed to collect this information and even if it were collected, to make this
information known to adjudicators in the service centers. Similarly, Atta and
Alshehhi were not entitled to student status because they were not taking a
“full course of study” as required by law, but the INS did not have any system
for collecting or otherwise providing this information to adjudicators. In

                                      103
addition, the adjudicator was not aware that Atta and Alshehhi had departed the
United States twice while their applications were pending, thus rendering their
applications abandoned. Although the INS captures information about
departures in its NIIS database, adjudicators were not required to access NIIS
in every case to ensure that the applicant had not departed the United States
while the application was pending.
      In sum, while the adjudicator approved the applications in accord with
standard INS practices and policies existing at the time, these practices and
policies were significantly flawed. They resulted in adjudicators approving
applications without complete information.
      The INS has since revised some of its procedures for change of status
applications and has proposed regulations that affect the processing of these
applications. We address these processing and regulatory changes in
subsequent chapters of this report.




                                      104
                                CHAPTER FIVE
     THE INS’S FAILURE TO STOP DELIVERY OF THE I-20S
                  TO HUFFMAN AVIATION
I.    Introduction
     In this chapter of the report, we discuss the second question specifically
presented to us by the Attorney General:
      • Why did the INS fail to stop the delivery of the school’s copy of the I-
           20 form after Atta and Alshehhi were identified as terrorists who
           participated in the attacks of September 11, 2001?
To investigate this issue, we interviewed managers and other employees in the
two INS components with the most relevant jurisdictions over Atta’s and
Alshehhi’s I-20s: the Immigration Services Division and the Enforcement
Division. The Immigration Services Division had responsibility for the TSC;
the Enforcement Division had responsibility for the investigative activity
associated with the September 11 attacks and worked closely with the FBI.
Both the Immigrations Services Division and the Enforcement Division fall
within the Office of Field Operations. Below we describe the actions of INS
employees in the aftermath of September 11 and their reasons for not retrieving
the I-20s. Thereafter we analyze their actions and explanations.

II. Actions of ACS and INS Employees

      A.    Actions of ACS
      Before addressing the INS’s failure to stop the delivery of the I-20s to
Huffman Aviation, we discuss ACS’s role in this matter. We concluded that
ACS should not be criticized for mailing out the forms. First, as a government
contractor, ACS takes its direction from the INS. In addition, as discussed in
the rest of the chapter, no one from the INS contacted ACS about Atta’s and
Alshehhi’s I-20s. Absent instructions from the INS, ACS had no independent
responsibility to check its records to verify whether it possessed documents
related to terrorists from September 11.
     Moreover, the processing of I-20s is a clerical function that is mostly
automated. Although a clerical employee would have seen the names of Atta
and Alshehhi when he or she data entered the information from the I-20s in
October 2001, clerical employees at ACS had no responsibility for determining

                                        105
whether the information they were typing was related to terrorists from
September 11. In addition, as described earlier in this report, the mailing of the
I-20s is a completely automated process. ACS personnel perform a quick
quality control check that consists of making sure that the address of the school
appears in the envelope window but do not see the name of the student when
doing so.
      For these reasons, we do not believe that ACS bears any responsibility
for not stopping the I-20s from being mailed to Huffman Aviation.

    B.    Actions of the TSC personnel and INS Headquarters managers
          overseeing the service centers
      Immediately after the terrorist attacks of September 11, INS personnel
checked their records regarding the individuals believed to be responsible for
the attacks. By the evening of September 11, 2001, TSC personnel working on
their own initiative determined through database searches that the TSC had
granted M-1 student status to Atta and Alshehhi and that the receipt files were
being stored in the Mesquite facility. The next morning, two TSC employees
went to the Mesquite facility and retrieved the Atta and Alshehhi receipt files.
Later that same day, TSC management and INS Headquarters personnel
responsible for TSC operations (the Immigration Services Division) were
aware that TSC personnel were in possession of two of the September 11
terrorists’ files.
      As this section describes, we determined that no INS manager or
employee inquired about the location of Atta’s and Alshehhi’s I-20s or
requested additional information about the files, such as the status of the I-20s.
The Headquarters and TSC managers we interviewed indicated that they did
not consider the issue of physically retrieving the I-20s. Most surprisingly,
they told the OIG that even if they had thought about the I-20s, they were not
aware that the I-20s were still being processed because the contractor stored the
I-20s for 180 days before returning them to the appropriate school.

          1.   Retrieval of the Atta and Alshehhi files at the TSC
      The TSC’s Enforcement Operations Division consists of eight
Investigative Research Specialists (IRS), seven of whom handle investigations




                                       106
into possible benefits fraud.101 One of the IRSs is a computer specialist who
manipulates and searches INS’s computer systems for data that would be
useful in benefits fraud investigations. The IRSs report to the TSC Assistant
Center Director for the Enforcement Operations Division, Gary Bradford. On
September 11, Bradford had been for several weeks the Acting Deputy Center
Director. He was on vacation the week of September 11. Bradford did not
return to the office until the following Monday. One of the Investigative
Research Specialists was the Acting Assistant Center Director in Bradford’s
absence and had been for several weeks prior to September 11.
       Two of the TSC’s other IRSs stayed at work on September 11 on their
own initiative and began running computer checks based on information they
obtained about the terrorists from news services and the Internet. According to
one of these IRSs, by the evening of September 11, he and his co-worker had
determined that Atta and Alshehhi had submitted I-539 applications to the TSC
and identified that the TSC had the receipt files of both. On the morning of
September 12, the IRSs went to the TSC file room, located in the auxiliary
facility in Mesquite, Texas, and retrieved both receipt files. The IRSs said they
notified the Acting Assistant Center Director for the Enforcement Operations
Division, who in turn notified Bradford and the Acting Service Center
Director, Carmelo Ortiz.
       The Acting Assistant Center Director told the OIG that he also e-mailed
the TSC’s point of contact at INS Headquarters in the Enforcement Division of
the Office of Field Operations, who is a Senior Special Agent, to inform him
that the TSC had the files and that he would await direction from INS
Headquarters as to what to do with the files. According to the Acting Assistant
Center Director, he also faxed the I-539s to the Senior Special Agent’s
attention at INS Headquarters. The Acting Assistant Center Director told the
OIG he was never contacted by the Senior Special Agent or anyone else at INS
Headquarters about the files. According to the Senior Special Agent, he
responded to the Acting Assistant Center Director by e-mail and instructed him
to fax copies of the files to INS Headquarters, and that based on this

    101
        The TSC Enforcement Operations Division is different from the Headquarters
Enforcement Division. The TSC Enforcement Operations Division reports to the TSC
Center Director, who reports to the Immigration Services Division in INS Headquarters, not
to the Enforcement Division in INS Headquarters.




                                           107
instruction, the Acting Assistant Center Director faxed copies of the files to
INS Headquarters on September 12, 2001. 102 Shortly thereafter, the Senior
Special Agent faxed the documents to FBI Headquarters.
      On September 24, 2001, the FBI’s Dallas Division asked the TSC for the
original files on Atta and Alshehhi. A Dallas Division Special Agent told the
OIG that on that same day he was assigned a lead that had originated from the
FBI’s Norfolk Division instructing the Dallas Division to go to the TSC and
“obtain all information” relating to Alshehhi and Atta. 103 The FBI agent told
the OIG that he went to the TSC and contacted the IRS who had been the
Acting Assistant Center Director, who signed over to the FBI both Alshehhi’s
and Atta’s original receipt files.104 On September 25, 2001, the FBI agent
forwarded by facsimile to Norfolk and other FBI offices copies of the
documents obtained at the TSC. In the cover memorandum, the FBI agent
summarized his original task as being to “retrieve the original INS files at the
Texas Service Center, Mesquite, Texas, regarding [Atta and Alshehhi].”
      The Acting Assistant Center Director and the other IRSs interviewed by
the OIG stated that they did not discuss the I-20s or whether there was any
additional information related to the files. They said that they were concerned
with preserving the files in the event that they contained forensic evidence that
could be used in the terrorist investigation that was being led by the FBI. The
receipt files contained the I-539 applications and supporting documentation.
They did not contain the I-20s because by this time, the student copies of the
I-20s had been returned to Atta and Alshehhi and the school copies of the I-20s
were on their way to ACS for processing.




    102
         Both the Acting Assistant Center Director and the Senior Special Agent told the OIG
that they no longer had any e- mail messages related to this issue.
    103
        The lead was sent to the Dallas Division by electronic communication dated
September 13, 2001, and indicated that a search warrant of a commercial post box
maintained by Atta and Alshehhi revealed information that had come from the TSC.
    104
        TSC personnel told the OIG that, although it was unclear why, the TSC kept a copy
of the Atta file but did not keep a copy of the Alshehhi file.




                                           108
          2.   Actions taken by TSC and INS Headquarters managers
       On the morning of September 11, the INS Associate Commissioner for
Service Center Operations, Fujie Ohata, traveled on a plane with the new TSC
Director, Evelyn Upchurch, who was scheduled to report to the TSC on
September 11. Ohata told the OIG that she believes that she was informed by
Ortiz about the fact that the TSC had identified the Atta and Alshehhi files and
that the TSC was retaining the files until they were requested by the FBI. The
INS Deputy Executive Associate Commissioner for Immigration Services
Division, William Yates, told the OIG that he knew very soon after September
11 that the TSC had the Atta and Alshehhi files, although he could not recall
how he became aware of this. According to Bradford, Ortiz, Ohata, and Yates,
they all sought to ensure that the files were properly maintained and that the
appropriate personnel knew to provide the files to the FBI. They all told the
OIG that they did not inquire further, however, about the status of the I-20s or
whether all records related to the files had been located and provided to the
FBI.
       The OIG also sought to determine whether anyone in the service center
management, whether in Texas or in Washington, D.C., sought to review the
files or have the files reviewed to determine if the cases had been adjudicated
properly. The OIG asked the Acting TSC Director at the time, Ortiz, whether
he discussed the disposition of the files at any meetings with other TSC
managers, and he said that he had not. He said that he considered the files to
be part of an investigation and that information about the files should be kept
“confidential.” Other TSC personnel told the OIG that they heard “rumors”
and “gossip” that the TSC had the Atta and Alshehhi files, but they were not
officially informed of this fact. We also asked the Assistant Center Directors
for Adjudications, including the ACD who had responsibility for I-539
applications and who was an experienced I-539 adjudicator, whether they were
ever asked to review the files to determine if the adjudications had been
handled properly, and they all said that they either had not been asked or did
not know about the files. INS Headquarters managers also told the OIG that
they did not discuss the files further once they were assured that the files were
being maintained properly.




                                      109
         3.   Reasons TSC and Immigration Services Division personnel
              did not stop the I-20s before they were mailed to Huffman
              Aviation
      None of the TSC employees involved with handling the Atta and
Alshehhi files, none of the TSC managers, and none of the managers at INS
Headquarters responsible for oversight of the service centers inquired about the
location of the school copy of the I-20s associated with Atta’s or Alshehhi’s
file. All the employees we interviewed indicated that they did not think about
the I-20s. They provided a number of different reasons for not doing so, which
we discuss below. Most troubling to us was the fact that none of the managers
we interviewed was aware of the contractor’s duties or requirements with
respect to processing the I-20s. While all the managers told the OIG that they
were aware that the I-20s were sent to a contractor in another state, they stated
they did not know anything about the contractor’s process for the I-20s,
including that the contractor stored the I-20s for six months before returning
them to the school.

              a.   TSC personnel
       The TSC Enforcement Operations Division personnel whom we
interviewed told the OIG that once they retrieved the files from the Mesquite
facility, their primary focus was on making sure that the files were handled in
such a way that any forensic evidence would be preserved. They said that they
did what they understood was their duty, to notify INS Headquarters about the
files and to wait for further instructions. The Acting Assistant Center Director
at the time said that he was disappointed not to receive further instructions
from the Enforcement Division at INS Headquarters, but that he made no
further contact with INS Headquarters about the files.
       The Assistant Center Director for Enforcement Operations, Gary
Bradford, told the OIG that he saw no need to discuss the files further or
conduct any further investigation based on the Enforcement Operations
Division’s assessment that the paperwork appeared to have been properly filed
and adjudicated. He also said that within a day or so of September 11, the
Enforcement Operations Divisions at all the service centers staffed their offices
24 hours per day and 7 seven days per week to respond to requests for
information and other needs of the INS and the FBI. He said that because of
all the activity centered around the investigation following the events of



                                      110
September 11, Atta’s and Alshehhi’s files receded in importance and were no
longer a concern once the FBI had retrieved them.
      All the Enforcement Operations Division employees we interviewed
stated that even if they had considered the I-20s, they would have believed that
the I-20s were already at Huffman Aviation and had been accounted for by the
FBI. They indicated that since they all knew that the cases had been
adjudicated months earlier and since none of them were aware of the
contractor’s processing requirements, they would have believed that the I-20s
had long since been processed by the contractor.
       Ortiz, the Acting TSC Service Center Director in mid-September 2001,
told the OIG that he was made aware of Atta’s and Alshehhi’s files and that
once he was confident that they were being handled appropriately, there was
nothing else to do with respect to the files. He said that since he considered the
files to be part of the FBI’s investigation and the terrorists were dead, he did
not see any reason to discuss the files with the TSC’s Assistant Center
Directors to determine whether the cases had been properly adjudicated. In
addition, he said that his focus was on the safety of the two TSC buildings
because of fears of further attacks and several bomb threats that resulted in
evacuations in the days following September 11. He told the OIG that he was
not aware of the contracting requirements with respect to the I-20s; he only
knew that they were processed by a private company in Kentucky.

               b.   Immigration Services Division managers
      Fujie Ohata, the Associate Commissioner for Service Center Operations,
landed on a plane in Dallas, Texas, the morning of September 11 because she
was escorting the new TSC Director to her post. Ohata told the OIG that she
learned about the files of Atta and Alshehhi the next day from Ortiz. Ohata
said that she recalled telling Ortiz to make sure that the appropriate law
enforcement agencies had what they needed. Ohata said that she felt
comfortable that the files were being dealt with appropriately, which was her
concern. She said that in the aftermath of the events of September 11, she was
dealing with a number of issues with respect to service center employees
throughout the country who, like her, were stranded away from their duty
stations. She also said that she was ensuring that all of the service centers were
up and running.
      Ohata said that she returned to Washington on Thursday, September 13,
and that she recalls having a limited conversation with Yates about the fact that

                                       111
at least one of the suspected terrorists had been granted benefits by the INS
through the TSC. She said that she informed Yates, her supervisor, that the
TSC had located the file and was in the process of transferring it to the FBI.
Ohata told the OIG that she did not recall any meetings at INS Headquarters
about the files or any discussion about determining whether the files had been
properly adjudicated. She said that she was not asked to do anything else with
respect to the files, nor did she ask anyone to do anything else with respect to
the files.
     Ohata told the OIG that she was not aware of anything in the contract
between INS and the contractor regarding the I-20s and a storage requirement
of 180 days. She said that she learned only recently about this arrangement
from INS briefings to the media.
       Yates, the Deputy Executive Associate Commissioner for and the person
in charge of the Immigration Services Division, told the OIG that he was not
sure how he was made aware of the terrorists’ files in the TSC but that he
recalled getting telephone calls from the field about this matter. He suggested
that since he was aware that the files were being maintained appropriately for
law enforcement purposes, there was nothing else to do with respect to these
files, and he did not give any further instructions about them.
      He said that in the aftermath of September 11, he took his direction from
then-Executive Assistant Commissioner for Field Operations Michael Pearson,
who immediately established a “Command Center” at INS Headquarters for
coordinating information. According to Yates, his first instructions from
Pearson were to set up the service centers’ Enforcement Operations Divisions
to operate around the clock, seven days per week. Yates said that his office
was also asked, based upon a request from the White House, to compile a list
of the dates, times and locations of naturalization ceremonies all over the
United States, which he said he believed arose because Bush Administration
officials were planning to attend naturalization ceremonies as a means to
demonstrate support for immigrants after the September 11 attacks. According
to Yates, this directive generated an enormous amount of work.
       Yates told the OIG that he was aware that significant numbers of requests
were made throughout the INS for original A-files and receipt files and that
these files were provided to the particular law enforcement official or entity
that requested the file. However, Yates said that he never received any
instruction to collect all INS files or records with respect to the terrorists once
they had been identified, nor did he ever issue such an order on his own

                                       112
initiative. According to Yates, with respect to the pulling together all of the
files, he and other Immigration Services Division personnel took their
instructions from law enforcement personnel, since the files were related to an
FBI investigation.
      With respect to the processing of I-20s, Yates said that he was not aware
of the contractor’s process for handling I-20s and stated specifically that he
was not aware that the contractor stored the I-20s for 180 days after processing
them. He also stated that to his knowledge no one within the Immigration
Services Division was aware that the contractor stored the I-20s for 180 days.
Yates told the OIG that prior to the events of September 11, responsibility for
the I-539 “product line” had never been assigned to a particular manager in the
Immigration Services Division. 105 Yates suggested that no one in the
Immigration Services Division had any information about the processing of the
I-20s because the contract was not managed out of the Immigration Services
Division. He told the OIG that it was his understanding that the contract
governing the processing of the I-20s and other INS forms was managed by the
Inspections Division within the Office of Field Operations.106

           4.   OIG analysis
      No one in the TSC or the Immigration Services Division was specifically
asked to provide every document or record relating to Atta and Alshehhi or
was asked specifically to locate the I-20s associated with their files. Although
the lead provided to the FBI Dallas Special Agent stated “all information”
should be gathered, the FBI agent’s understanding was that he was going to the
TSC to “retrieve the original INS files [of Atta and Alshehhi].” He told the
OIG that he did not believe that he asked for every document associated with


    105
        Yates said that since the events of September 11, an INS employee who has been
working on various standard operating procedures was directed to expedite the completion
of the national SOPs for I-20s.
    106
         According to Yates, when news of Atta and Alshehhi’s I-20s first appeared in the
media, most managers from INS Headquarters were in San Francisco, California, for a
Commissioner’s Conference. He said that he discussed the issue of the contract and was
told that it was an Inspections Division contract. In fact, the contract with ACS has been
managed by the Inspections Division only since October 2001. Prior to that time, the Office
of Information Resource Management was responsible for the contract.




                                           113
Atta and Alshehhi and that there was no discussion about whether he was being
given the entire file. He said that the Acting Assistant Center Director told him
that he had the files and that the Enforcement Operations Division had checked
the names through all of the INS’s computer systems.
       No one involved with the Atta and Alshehhi files in the TSC
Enforcement Operations Division attempted to retrieve the I-20s or otherwise
conducted any research about their location. We also found that neither the
managers at the TSC nor in the Immigration Services Division issued any
instructions about the Atta and Alshehhi files or specifically instructed anyone
to locate the I-20s. Due to the commendable initiative of two TSC IRSs, the
files of Atta and Alshehhi were identified and retrieved from the Mesquite
facility within 24 hours of the attacks of September 11. In the days following
September 11, the focus of both TSC personnel and managers and Immigration
Services Division managers once they were aware of the files was that the
appropriate steps be taken to provide the files to the FBI. Once TSC and
Immigration Services Division managers were confident that the files had been
handled appropriately, the managers considered the issue resolved and moved
on to other matters.
       We recognize that the events of September 11 created overwhelming
demands on all law enforcement agencies, including the INS. Within several
hours of the destruction, however, the TSC had identified an important link
between the TSC and the terrorists involved in the attack. In our view, it was
the responsibility of the TSC managers and their supervisors in the
Immigration Services Division to manage their piece of this significant event in
a thorough manner. Although the FBI may not have asked specifically for the
I-20s or even “all files relating to Atta and Alshehhi,” we believe that INS
managers should have taken the initiative to ensure that the FBI was either
provided with all immigration records relating to the terrorists, including the I-
20s, or at least notified of the existence of the documents. The evidence shows
that they did not.
      We believe that TSC Enforcement Operations Division personnel bear
some responsibility for failing to consider whether to retrieve the Atta and
Alshehhi I-20s before they were mailed to Huffman Aviation. The
Enforcement Operations personnel who located the files certainly deserve
credit for their initiative in locating the Atta and Alshehhi files. Nonetheless,
since they and their managers serve in an investigative function and were
aware that the I-20 form was one of the documents used in the change of status


                                       114
adjudication process, they should have at least inquired as to the status of
Atta’s and Alshehhi’s I-20s, even if they believed that they were already sent to
the school. All TSC Enforcement Operations Division personnel we
interviewed told the OIG that they wanted to preserve the original files for
forensic evidence. But despite the fact that the I-20 is supposed to contain
original signatures, none of the Enforcement Operations Division personnel
inquired about or took any action to retrieve the I-20s. Moreover, if the Acting
Assistant Center Director at the time and Bradford thought that the I-20s were
already at Huffman Aviation and therefore beyond their reach, they should
have brought this to the attention of the FBI agent who retrieved the Atta and
Alshehhi files.
       We believe that the Immigration Services Division managers – Yates and
Ohata – as well as the TSC manager at the time, Ortiz – bear even more
responsibility than the TSC Enforcement Operations Division personnel for
failing to take action with respect to the I-20s. Yates, Ohata, and Ortiz told the
OIG that their main concern was ensuring that the FBI had the information that
it needed. At the same time, all three acknowledged that they were aware that
the I-20 was part of the change of status adjudication process for students. To
ensure that the FBI or other law enforcement agency were aware of all
documents and information associated with the terrorists, they should have at
least inquired about the status of the I-20s or directed that INS personnel take
steps to make sure that all parts of the file and records had been collected,
including the I-20s. While we recognize that the days following September 11
were extraordinary, had this type of analysis occurred any time between
September 11 and March 2002, the I-20s could have been identified, located,
and offered to the FBI.
      As the person in charge of the Immigration Services Division, Yates had
the greatest responsibility to consider the broader implications of INS’s
dealings with Atta and Alshehhi. Although Yates told the OIG that he was
taking direction from Executive Associate Commissioner for Field Operations
Pearson in the aftermath of September 11, we believe that it was Yates’
responsibility to recognize that the INS needed to identify all of its documents
and records regarding the terrorists and to ensure that appropriate steps were
taken to make the FBI aware of these documents. If Yates believed that it was




                                       115
not his place to take the initiative to address the issue, he should have at least
raised it with Pearson.107
       More troubling than the disposition of these two particular I-20s,
however, is the fact that no one in the Immigration Services Division or the
TSC to whom we spoke was aware of the processing requirements of the
school copy of the I-20 form. This information is important for several
reasons. Service centers sometimes need to retrieve an I-20 from ACS. The
INS’s contract allows the INS to request a certain number of records from ACS
annually. Service center employees, particularly Enforcement Operations
Division employees who would likely be making the requests as part of an
investigation, should have been aware of this information and the procedure for
making the requests. They should also have been aware of any storage
requirements for the I-20 in order to determine the likelihood that the I-20
would even be in the ACS facility. In addition, schools and applicants often
call the INS to inquire about the status of their applications and forms. As part
of their responsibility to be knowledgeable and informed when responding to
inquiries from the public, service center employees should know what happens
to the I-20 once it leaves the INS. The fact that no one did reflects a troubling
lack of management and attention to detail.

     C. Actions of INS Headquarters Enforcement Division personnel
      In addition to the failings of TSC and ISD personnel, we evaluated the
actions of INS Headquarters Enforcement Division personnel with regard to
the I-20s that were mailed to Huffman Aviation. Our analysis of their actions
is described in this section.

             1.    Organization of Enforcement Division
      The Enforcement Division falls under the Office of Field Operations. In
September 2001, the Executive Associate Commissioner for Field Operations,
Michael Pearson, was responsible for the three regional directors, the Border
Patrol, the Office of International Affairs, and three large divisions –
Enforcement, Immigration Services, and Detention and Removal, each of
which is headed by a Deputy Executive Associate Commissioner. The


    107
          We discuss Pearson’s actions in the next section of this chapter.




                                              116
Enforcement Division was headed by the Deputy Executive Associate
Commissioner for Enforcement, who at that time supervised three assistant
commissioners, one for investigations, inspections, and intelligence. The
Acting Assistant Commissioner for Investigations supervised four branch
chiefs, each of whom was responsible for a different substantive area within
the investigative arena.
      Of the four branches, the National Security Unit (NSU) was most directly
involved in the investigation that arose out of the events of September 11. The
NSU is headed by Walter “Dan” Cadman. Around September 2001, it was
comprised of several Senior Special Agents, three of who were working in the
FBI’s Counterterrorism Division. One of the Senior Special Agents has
responsibility for the INS agents who participate in the Joint Terrorism Task
Force with other law enforcement agencies.

          2.   Events at INS Headquarters on and around September 11
       Enforcement Division personnel described to us the chaotic conditions at
INS Headquarters and the many assignments they were working in the
immediate aftermath of the September attacks. On the morning of September
11, Pearson activated the Operations Center at Headquarters, an emergency
crisis center that had not previously been used. Pearson said that he also
directed all INS enforcement branches to operate at Threat Level One. Ports of
entry were reinforced with additional manpower. Pearson directed that a
24-hour command center be established at each regional office.
      The FBI activated its Special Incidents Operations Command (SIOC) in
response to the attacks of September 11, and three INS agents working in FBI
Headquarters formed the core of an INS desk that served as a full-time INS
point of contact for the FBI agents and support personnel who were working in
the SIOC at any given time. The flow of information between the INS field
agents and the FBI passed through the INS’s NSU.
      The INS Operations Center’s initial focus was to check the list of
passengers on the four hijacked planes through INS computer systems. The
NSU also supported the FBI’s investigation, and a team of INS agents assisted
in conducting reviews of the several hundred aliens arrested during the
investigation. With respect to the lists of suspected terrorists or “watch lists,”
the NSU provided information to the INS’s Inspections Division to make sure
that suspected terrorists did not leave the country. The INS updated
information about the suspected terrorists as the information became known.

                                       117
      In the INS’s Intelligence Division, personnel began immediately to
assemble data about the suspected terrorists once the passenger lists had been
obtained. They began working on a detailed timeline that would reflect and
analyze the movements of the terrorists as well as identify associations among
them. In addition, suspected terrorist lists containing as many as 6,000 names
were disseminated, and efforts were made to identify information the INS had
with respect to persons on the list and to determine if the information was
accurate.

           3.    Enforcement Division requests for information and the
                 handling of Atta’s and Alshehhi’s files
       The Enforcement Division personnel interviewed by the OIG told us that
there was no request or instruction from the Enforcement Division to assemble
all files, records, or documents related to the 19 terrorists or to any terrorist in
particular. 108 In addition, Enforcement Division personnel, in particular the
three INS agents who worked with the FBI and served as the FBI’s point of
contact with the INS, stated that they were not aware of any request from the
FBI for the INS to assemble all INS files, records, or documents with respect to
the terrorists.
      As discussed previously, TSC personnel located and retrieved the Atta
and Alshehhi files on September 12, and the Acting Assistant Center Director
from the TSC’s Enforcement Operations Division, e-mailed a Senior Special
Agent at INS Headquarters about the files. According to the Acting Assistant
Center Director, he e-mailed this Senior Special Agent because he was the
service centers’ point of contact within the Enforcement Division. This Senior
Special Agent worked in the Fraud Section, and his usual duties included,
among other things, approving agents working undercover in fraud cases. The
Senior Special Agent said that he did not have managerial responsibility for the
Enforcement Operations Divisions in the service centers and did not typically
have contact with them. The Senior Special Agent said that, although he
normally worked in the Fraud Section, on September 11 he was doing what
was needed in the NSU.

    108
       Pearson told the OIG that only after the I-20s of Atta and Alshehhi appeared in the
newspaper in March 2002 did he issue a specific order that all field offices be searched for
any additional documents related to Atta and Alshehhi as well as the 17 other terrorists.




                                            118
      The Senior Special Agent told the OIG that he recalled receiving an e-
mail from the TSC about files that the TSC had located concerning the
terrorists. He said that he recalled e-mailing the Acting Assistant Center
Director back and directing him to fax the documentation to him at INS
Headquarters. The Senior Special Agent said that once he received the fax
from the TSC, he faxed the documents to the FBI, where the documents would
have been routed to one of the INS agents working in the FBI’s SIOC at the
time. The Senior Special Agent said that he did not call or follow up with the
TSC about Atta’s or Alshehhi’s documents. The Senior Special Agent said
that he was not asked to conduct any further follow up about the documents
that he faxed to the FBI.

          4.   Reasons stated by Enforcement personnel for not asking for
               all INS records or files related to the terrorists
       The Enforcement Division personnel we interviewed consistently stated
that in the initial wake of the events of September 11, their emphasis was on
obtaining information, not documents, files, or paper, about the identities of the
terrorists and on identifying any imminent additional attacks. Enforcement
personnel stated that after identifying the terrorists and ensuring that no
additional threats were forthcoming, the emphasis turned to managing the
information related to the suspected terrorists lists and the arrests of several
hundred aliens for immigration violations. Cadman, the director of the NSU,
as well as other Enforcement Division personnel also stated that the
investigation with respect to the attacks of September 11 was within the
jurisdiction of the FBI, and that the NSU’s role was to coordinate the FBI’s
requests for information from the INS and the responses from the field.
Enforcement personnel also told the OIG that the NSU assessed information
that was generated in the field and sent to the Enforcement Division mainly in
the form of Special Incident Reports to determine what might be of value to the
FBI.
      We asked each person from the Enforcement Division we interviewed
why, once it became known that the INS had granted student status to Atta and
Alshehhi, efforts were not made to obtain the I-20s related to the change of
status applications. They told us that they did not consider the I-20s or discuss
whether they should be obtained. Looking back on their actions, they said they
were not attempting to build a case against the terrorists, since they were dead,
and that all necessary information concerning addresses, schools attended, and
entries into the country was being obtained from INS databases. They stated

                                       119
that if there had been some question as to the identity of the terrorists or some
other investigative need that was not being met by the information available,
they would have made additional efforts to track down all available
information. They acknowledged, however, that they made no reasoned
decision not to obtain the I-20s; rather, they had not considered the issue at the
time. Across the board, the Enforcement personnel stated that even if there had
been a need for the information in the files or in the I-20, they were not aware
of the processing requirements for I-20s. While most of the persons
interviewed said that they were aware that I-20s were associated with change
of status applications for persons requesting to become students, they stated
that they were not aware of any of the processing steps taken to return the I-20s
to the schools.
      With respect to the Atta and Alshehhi files received by the Senior Special
Agent in INS Headquarters, he stated that he was not aware at the time that
I-20s were processed by a contractor and that it was his understanding that the
I-20 was sent to the school once the case was adjudicated. He said that at the
time, the information contained in the I-20s, such as name, address, and
passport number, was more important than the actual files. He added that he
believed his role was to act as a conduit of information to the FBI.
      We interviewed each of the three INS agents who were working at FBI
Headquarters at the time and asked what they thought their role was with
respect to incoming information from the INS. One of the INS agents said that
he was primarily involved with operational matters such as preparing for
briefings rather than dealing with incoming information. The other two agents
told the OIG that as they received information from the INS, they would fill
out the proper FBI cover sheet for the information and forward it to the
appropriate desk in the SIOC for data entry into the FBI’s database. They
suggested that it was not part of their responsibility to assess the value or
purpose of the incoming information.

          5.   OIG analysis
      No one in the INS’s Enforcement Division issued any instruction to
obtain all documents, records, or files related to the terrorists involved with the
attacks on September 11. Nor did anyone within the Enforcement Division
issue any instruction with respect to the particular files of Atta and Alshehhi or
the associated I-20s, once it became known that the INS had adjudicated their
change of status applications. Enforcement efforts at INS Headquarters


                                       120
focused on the interruption of any additional terrorist activity and the arrest of
any potential terrorist conspirator. There was no emphasis on the collection of
documents.
      Several other reasons contributed to the Enforcement Division not
retrieving the I-20s related to the Atta and Alshehhi files. Many of the
personnel we interviewed described INS Headquarters as “chaotic” in the
immediate aftermath of September 11. In addition, in the days that followed
the attacks of September 11, the INS was inundated with specific requests for
information. Approximately thirty INS detailees were used to staff both the
NSU and the INS desks at the FBI SIOC. Across the country, up to half of all
INS agents were assigned duties with the FBI. At both the INS service centers
and the off-site contractor locations, personnel were working 24 hours a day,
seven days a week, to retrieve, assemble, and forward requested data and files.
      Although the INS was attempting to obtain a cumulative base of
information regarding the terrorists, their efforts were hindered by the fact that
there existed no infrastructure to manage investigative leads and findings.
Likewise, there was no systematic means of coordinating either the retrieval or
the distribution of known information. This led to inefficiency and work
duplication, with individual employees repeatedly querying and forwarding the
same information again to different recipients at different times. Also, because
many of the INS’s databases did not communicate with one another, a
multitude of computer queries was required to gather all of the known
information on any particular alien.
       However, as with our analysis of the actions of personnel from the
Immigration Services Division and the Texas Service Center, we believe that
this does not excuse the Enforcement Division personnel’s failure to consider
whether all documents regarding Atta’s and Alshehhi’s change of status
applications, including the I-20s, had been provided to the FBI. We believe
that the managers of the Enforcement Division, in particular Pearson as the
Executive Associate Commissioner of Field Operations, and to a lesser extent,
Cadman as the head of the NSU, bear some responsibility for failing to ensure
that the I-20s associated with the files of Atta and Alshehhi were, at a
minimum, identified for the FBI. Although we recognize that the FBI had
primary jurisdiction over the investigation of the terrorists acts committed on
September 11, the fact that all 19 terrorists were aliens who had contacts with
the INS created a greater responsibility for the INS to ensure that it was making
the FBI aware of all of its records associated with the terrorists. While we


                                       121
acknowledge that the aftermath of September 11 was extraordinary and that the
immediate need of the investigative effort was for information not documents,
at some point after the immediate crisis of September 11th had subsided it was
incumbent upon the managers in the Enforcement Division to assess whether
all available files and other records had been provided to the FBI. We believe
that the direction to conduct such an analysis should have come from Pearson.
We also believe Cadman, as the manager of the unit responsible for providing
information to the FBI, should also have recognized the need for such action
and at least raised the matter to his supervisors.
      Unfortunately, no one in the INS – either in INS Headquarters in the
Enforcement Division or the Immigration Services Division, or in the TSC –
ensured that the FBI was aware of all INS documents related to Atta, Alshehhi,
or the other terrorists. Most important, no one thought to inquire about the
I-20s related to Atta’s and Alshehhi’s change of status applications or to find
out where those I-20s were. This, in our view, was a failure on the part of
many individuals in the INS.

III. The INS’s Response to OIG Criticism
      The OIG provided officials from the INS’s Commissioner’s Office with
the opportunity to review this report prior to its release. In addition, Yates,
Ohata, Cadman, Pearson, Ortiz, Bradford, and the former Acting Assistant
Center Director for the Enforcement Operations Division at the TSC reviewed
Chapter Five. All were permitted to provide comments in response to the
report.
       INS Commissioner James Ziglar wrote in his response that the INS’s
failure to stop the delivery of Atta’s and Alshehhi’s I-20s was “inexcusable”
and said “[t]he INS does not hesitate to acknowledge this shortcoming.” Other
INS officials called the INS’s inaction “regrettable” and “an embarrassment.”
Nonetheless, the reviewing officials offered many reasons why they believed
INS officials should not be criticized for failing to provide the I-20s to the FBI.
They asserted that because the investigation was under the jurisdiction of the
FBI and because the FBI never asked the INS for the I-20s, the INS had no
responsibility to provide the I-20s to the FBI. Several of them also implied that
their responsibility is diminished by the fact that the I-20s were not necessary
to the FBI’s investigation. In addition, some reviewing officials argued that if
INS had failed, it was the fault of others, not themselves.



                                       122
      We do not find the reviewing officials’ comments persuasive. Atta’s and
Alshehhi’s I-20s continued to be processed after September 11, 2001, because
none of the managers we discuss in this chapter ever considered the I-20s or
took the appropriate managerial steps to ensure that their subordinates did.
Although the FBI had primary jurisdiction over the investigation, INS
employees were the only ones who were knowledgeable about the change of
status process and therefore they had an obligation to bring the existence of
these documents to the attention of the FBI. The FBI was not in a position to
ask for specific documents it did not know existed.
      We agree that the absence of the I-20s did not ultimately hinder the FBI’s
investigation. While the fact that the I-20s turned out not to be of significant
investigative value is fortuitous, it is irrelevant to the question of whether the
INS should have thought about them and made the FBI aware of them. In
addition, it was clear from our interviews that the failure to alert the FBI to the
I-20s was not the result of a reasoned decision that the I-20s had no
investigative value. Rather, INS personnel all acknowledged that they never
thought about the I-20s. We believe this was an unjustified failure on their
part.




                                       123
                              CHAPTER SIX
           THE INS’S FOREIGN STUDENT PROGRAM
I.   Introduction
       In this chapter, we discuss broader issues regarding the process by which
foreign students gain admission to the United States and how the INS tracks
and monitors them once they enter the United States. Our evaluation goes
beyond the circumstances regarding Atta and Alshehhi. In this part of our
review, which we began in November 2001 in response to our concerns about
the tracking of foreign students that the events of September 11 highlighted, we
focused on the INS’s processes for admitting foreign students and for
certifying schools as eligible to receive foreign students. We also evaluated the
INS computer tracking systems for foreign students – the system that exists
now as well as the system the INS is currently developing, the Student and
Exchange Visitor Information System (SEVIS). We describe the deficiencies
we observed in the INS foreign student program, the history and development
of SEVIS, the problems in the foreign student program that SEVIS is designed
to address, the deficiencies in the program that SEVIS will not address, and the
implementation difficulties for SEVIS.

II. Background
      The State Department is responsible for issuing student visas to foreign
students who want to study in the United States. It is the responsibility of the
INS, however, to determine which schools are entitled to accept foreign
students, to inspect the documentation of persons arriving with student visas, to
keep track of the entries and exits of foreign students, to know whether
students are continuing to maintain their status, to facilitate the removal of
students once their status ends, and to approve appropriate requests by
nonimmigrants who are in the country through some other classification to
acquire student status. Responsibility for each of these obligations is divided
among several different offices, divisions, and branches within the INS, as well
as among private contractors.
      The INS’s foreign student program has historically been dysfunctional.
The INS has acknowledged for several years that it does not know how many
foreign students there are in the United States. The INS’s foreign student
program came under increased scrutiny after the February 1993 bombing of the
World Trade Center when it became known that one of the terrorists was in the

                                      124
United States on an expired student visa. In April 1995, the Deputy Attorney
General asked the INS to address a departmental finding that the INS needed to
subject foreign students to thorough and continuing scrutiny, both prior to and
during their stay in the United States. In September 1996, Congress also
directed the Attorney General to develop and conduct a program to collect
certain information on nonimmigrant foreign students and exchange visitors
from approved institutions of higher education and designated exchange visitor
programs.109 In response to these directives and legislation, the INS plans to
implement a new computer system, SEVIS, which is designed to collect
information on full-time students and exchange visitors and their dependents.

     A.     Scope and methodology of review
      In conducting this part of our review, we interviewed various INS
Headquarters officials regarding current policies and procedures and SEVIS
implementation, including officials from the INS’s Office of Adjudications
(formerly located within the Office of Programs), the Investigations and
Inspections Divisions (within the Office of Field Operations), the Office of
Information Resources Management (within the Office of Management), and
the INS group titled “Strategic Information and Technology Development,”
which is responsible for coordinating between the policy groups and the
technical groups in the INS. In the field, we interviewed intelligence research
specialists assigned to the Enforcement Operations Divisions at the Texas and
California Service Centers to obtain information on program fraud. We also
interviewed the private consultant involved in developing SEVIS, the SEVIS
liaison with the FBI, and representatives from the Department of State and the
Department of Education. To obtain the schools’ perspectives on SEVIS, we


    109
         Foreign participants enrolled in State Department-approved educational and cultural
exchange programs must first obtain a J-1 visa to enter the United States. There are
approximately 1,500 program sponsors, including universities, summer camps, hospitals,
and private foundations. There are 13 program categories, including summer work/travel,
high school students, trainees, au pairs, short-term scholars, professors and research
scholars, college and university students, teachers, specialists, alien physicians, international
visitors, professors, and camp counselors. During fiscal year 2001, the State Department
issued 299,959 “J” visas. Although the exchange visitor program operates similarly to the
foreign student program, the primary difference is that the State Department, not the INS, is
responsible for approving and monitoring the sponsors of exchange visitor programs.




                                              125
interviewed officials from several organizations that represent schools,
specifically the Association of International Educators, the American Council
on Education, and the College Career Association.
       During January and February 2002, we visited four INS district offices
(Atlanta, New York, Chicago, and San Francisco) and the associated
international airports (Atlanta Hartsfield, John F. Kennedy, O’Hare, and San
Francisco). At these locations we interviewed INS adjudicators, investigators,
intelligence officers, and inspectors. At each location, we also reviewed the
files of 50 vocational, language, and flight schools, randomly selected from the
INS’s database of approved schools, for compliance with INS regulations.110
We also attempted to determine whether these schools were still active by
searching through various Internet web sites, including sites maintained by
accreditation organizations and federal and state educational approval agencies.

     B.    Statistics on student visas
      The number of foreign students enrolled in United States schools has
been steadily increasing over the years. During the 2000-2001 school year,
547,867 foreign students were enrolled in colleges and universities in the
United States. This represents an increase of 6.4 percent over the prior year,
the largest increase since 1980. Foreign students and exchange visitors,
however, account for a relatively small percentage of the total number of
foreigners who visit the United States, which in fiscal year 2001 totaled
approximately 232 million.
       During fiscal year 2001, the State Department issued 319,518 F visas to
students and their dependents for the purpose of attending academic or
language courses, and 5,658 M visas to students and their dependents for the
purpose of attending vocational or other nonacademic courses. During fiscal
year 2000, 308,944 F visas were issued and 6,465 M visas were issued. During
fiscal year 2001, the statuses of 28,880 aliens were adjusted to that of a student
status. Of these, 27,848 adjusted their status to that of an academic or language
student (F) and 1,032 adjusted their status to that of a vocational student (M).
The primary original visa designations were for business (B-1), pleasure (B-2),


    110
        We focused on these types of schools because, according to INS officials, they are
apt to be less stable and present a higher risk for fraud.




                                            126
or inter-company transfers (L-1). For fiscal year 2000, more than half of the F
visas were issued to citizens of Japan, South Korea, China, India, and Taiwan.
During this same period more than half of the M visas were issued to citizens
of Japan, Germany, the United Kingdom, Saudi Arabia, and Italy.

     C. The student visa application process
      An alien wanting to pursue full-time academic or vocational studies in
the United States first applies to a school that has been approved by the INS as
eligible to receive foreign students. After the student is accepted at the school,
the school fills out and sends to the student both the student copy and the
school copy of the I-20.
      The alien must then apply for a student visa at the nearest overseas
United States consulate. The alien must present to the consular officer a
current passport and photograph, both the student copy and the school copy of
the I-20 for the school that the applicant plans on attending, and documentation
to show that the applicant has the financial resources to pay for tuition and
living expenses. The State Department’s Consular Lookout and Support
System (CLASS) is queried to identify whether any negative information exists
on the alien. The consular officer reviews the paperwork and, if necessary,
conducts an in-person interview. 111 If approved, the consular office will issue a
visa to the applicant that indicates the school that the student will be
attending. 112
     Upon entering the United States, aliens present to the INS immigration
inspector their passport containing the student visa, both the student copy and



    111
         The State Department determines on a country-by-country basis when interviews are
required. Applicants are informed of the criteria that must be met in order to complete the
process without an interview. In some countries, interviews are required in almost all cases.
In all instances, consular officers can in their discretion require an interview if the
application appears questionable or if information in CLASS indicates that follow up is
needed.
    112
        Student visas are foil stickers that are placed in the appropriate page in an alien’s
passport. Unlike the B-1/B-2 visa, the student visa does not have a period of validity. The
length of stay is determined by the immigration inspector at the POE and is written on the
school copy and the student copy of the I-20.




                                             127
school copy of the I-20, and the I-94 (Arrival-Departure Record).113 The
immigration inspector reviews the I-20, checks to see if the passport contains
the appropriate visa, and writes the I-94 admissions number on both copies of
the I-20. The immigration inspector also determines the length of stay from the
I-20 and records either “duration of status” if the student has an F visa or the
dates for which the student is being admitted if the student has an M visa. The
immigration inspector then separates the student copy and the school copy of
the I-20, giving the student copy to the alien and keeping the school copy. The
INS transmits the school copy of the I-20 to ACS, where it is data entered and
eventually uploaded to STSC.114
       Foreign students are permitted to leave the United States and return after
a temporary absence. The regulations provide that to re-enter the country, the
alien must be in possession of the I-20, and the second page must be properly
endorsed with the signature of the designated school official (DSO) who
certifies that the student is leaving temporarily but will be returning to school.
Sometimes a foreign student will arrive at the port of entry with a missing or
incomplete I-20. If, in the judgment of the INS immigration inspector, the
student is otherwise admissible and no bad faith was involved, an alien may
still be admitted even if the alien is missing the I-20 or has an incomplete I-20.
In this circumstance, the inspector must complete INS form I-515, which
requires the student to obtain the appropriate I-20 form or the proper signature
on the form and to return to the INS with the documentation within 30 days.


    113
         An alien who wants to enter the United States as an exchange visitor must be
accepted to an approved exchange visitor program. Once an alien is accepted to an
approved exchange visitor program, the sponsor provides the alien with a Form DS-2019
(Certificate of Eligibility for Exchange Visitor Status). When applying for a visa, the alien
presents the consular officer with the IAP-66 as proof of acceptance into the program.
When entering the United States, the alien also presents the IAP-66 to the immigration
inspector who, in a similar fashion to the I-20 form, separates the IAP-66 form, giving one
copy to the alien and keeping one copy. The INS copy is sent to the Department of State,
Bureau of Educational and Cultural Affairs, for data entry into its database system, EVIS
(Exchange Visitor Information System).
    114
        As noted previously in this report, the immigration inspector also stamps the I-94
with the admission information and separates the I-94 into two parts. The departure portion
of the Form I-94 is given to the student; the arrival portion of the I-94 is mailed to ACS
where it is data entered and eventually uploaded into NIIS.




                                             128
      A flowchart depicting the student visa process is on the next page.

III. Deficiencies in the Foreign Student Program
      In our review, we found many deficiencies in the INS’s current foreign
student program, which we describe in detail below. In sum, we found that
because of the INS’s lack of controls over the schools and students and lack of
attention to this program, the foreign student program is highly susceptible to
fraud, and the INS has incomplete and inaccurate data about the schools and
students in the program.

     A.    Inadequacies in the INS’s process for approving schools
      Although federal regulations require that schools be certified before they
can accept foreign students, the INS’s review of schools consists primarily of a
review of paperwork submitted by the school. We also found that INS often
did not inquire further even when the paperwork raised obvious issues about
the school’s ability to meet the requirements for certification.

           1.      Legal requirements for schools to be certified to accept
                   foreign students
      Schools may be eligible to accept academic or language students (F visa
category), vocational students (M visa category), or both. According to federal
regulations, to be eligible to accept foreign students, a school must establish
that:
     • It is a bona fide school.
     • It is an established institution of learning or other recognized place of
          study.
     • It possesses the necessary facilities, personnel, and finances to conduct
          instruction in recognized courses.
     • It is, in fact, engaged in the instruction of students in these courses.
See 8 CFR § 214.3(e)(1).
      The certification regulations do not state that the school must offer
classes or instruction on a full-time basis. However, by definition under the
INA, an academic student or a vocational student is one who is pursuing a “full
course of study,” and the regulations further define “a full course of study.”
For vocational students, the regulations provide that a full course of study is “at


                                         129
                                           Student Visa Process
                                              as of July 2001
      Foreign student
                                                School(s) accepts
     applies to school(s)
                                                 foreign student
          in the U.S.



                                                  School(s) sends
                                                 completed I-20 to
                                                  foreign student
                                                                                         STUDENT MUST HAVE:
                                                                                    1.   Visa application
                                              Student applies at a U.S.             2.   Passport
                                                                                    3.   Endorsed I-20
                                             Embassy/Consulate for an
                                                                                    4.   Financial Evidence
                                               F-1 or M-1 student visa              5.   Proof of ties to home country
                                                                                    6.   English Proficiency


      F-1 or M-1 visa placed in                        State
     student’s passport; student          YES      Department            NO          Foreign student
       and school copy of I-20                    Consular Office                   denied student visa
        sealed in an envelope                      visa decision



                                              Foreign student arrives                          INS inspector
        Foreign student                         with student visa,                            reviews foreign
      travels to U.S. POE                   sealed I-20, and completed                    student’s documents to
                                                  I-94 at U.S. POE                         determine admission



             Inspe ctor stamps passport,
                I-94, and both copies
                   of I-20; indicates                                                          APPROVED
                   length of stay on
                  both copies of I-20



            Inspector gives student copy
               of I-20 to student and                           POE sends I-94s
         staples departure I-94 in passport;                   and school copies
          inspector retains arrival I-94 and                    of I-20 to ACS in
                 school copy of I-20                                 London, KY
                                                                                              ACS stores
                                                                                             I-94s for 180
                                                                                            days and then
                                                                      ACS, Inc.             destroys them
                  Foreign student                                    data enters
                  enters the U.S.                                I-94s and I-20s             ACS returns
                                                                                             the school’s
                                                                                             I-20 copy to
                                                                                               the school


POE: Port of Entry
INS: Immigration and Naturalization Service
INS Form I-20: Certificate of Eligibility for Nonimmigrant Student
INS Form I-94: Arrival-Departure Record
least eighteen clock hours of attendance a week if the dominant part of the
course of study consists of classroom instruction, or at least twenty-two clock
hours a week if the dominant part of the course of study consists of shop or
laboratory work.”115 8 CFR § 214.2(m)(9)(iii). Based on our interviews with
INS officials and on our reading of the regulations as a whole, we concluded
that a school must demonstrate that it is at least capable of offering a full
course of study. The school then certifies to the INS on the I-20 with respect to
each student that the student is actually enrolled in a full course of study.
       With respect to vocational schools (which include flight schools) and
language schools, schools must meet the following requirements to obtain INS
certification:
     • Be accredited, licensed, or otherwise approved by a state or federal
          agency.
     • Submit evidence that its courses of study are accepted as fulfilling the
          requirements for the attainment of an education, professional or
          vocational objective, and are not avocational or recreational in
          character. As evidence that the petitioner meets a vocational or
          professional objective, provide letters from three employers of the
          petitioner’s graduates, on the employer’s letterhead, stating the name
          of the graduate, the school of graduation, the position in which
          employed, and the period of employment.
     • Provide a copy of the school’s catalogue and, if not included in the
          catalogue, a written statement describing the size of its physical plant;
          nature of its facilities for study and training; educational, vocational, or
          professional qualifications of the teaching staff; salaries of the
          teachers; attendance and scholastic grading policy; amount and
          character of supervisory and consultative services available to students
          and trainees; and finances (including a certified copy of the
          accountant’s most recent statement of the school’s net worth, income,
          and expenses).


    115
        As discussed in other parts of this report, aliens wanting to attend school on a part-
time basis can enter the United States with a B-1/B-2 visa if their school attendance is
“incidental” to a primary pleasure purpose.




                                             131
          2.   The I-17 petition and the INS’s certification process
       In order to be permitted by law to have full-time foreign students in
attendance at their schools, a university, college, or other school must be
“certified” by the INS. 8 CFR § 214.3(a)(1). To become certified, a school
must submit a Form I-17 (Petition for Approval of School for Attendance by
Nonimmigrant Students) and supporting documentation to the local INS
district office. The school must indicate on Form I-17A the names of the
DSOs who will be authorized to certify the foreign students who have been
accepted to the school. Schools are required to notify the INS by submitting an
updated Form I-17 when there are changes in ownership, address, school term,
DSO, or the type of student for which the school was initially approved.
      Once the school submits the required documentation, the INS is required
to conduct an interview in person and under oath of an authorized
representative of the school. 8 CFR § 214.3(d). This requirement may be
waived by the INS district director.
      Each INS district has a designated “schools officer” who is responsible
for certifying that schools meet these requirements, although the schools
officer may have other responsibilities. We were informed that to certify
schools, the schools officer reviews the school’s petition and supporting
documentation. If the schools officer has a concern about the documentation,
the schools officer can request that the school provide additional evidence in
support of its petition.
      Upon approval of a petition, the INS sends an approval notice to the
school. In addition, the INS sends the I-17 to ACS. The school information is
data entered by ACS, and this information is eventually uploaded into the
INS’s STSC database.
      If the schools officer denies the petition, the INS must notify the school
in writing, state the reason for the denial, and inform the school of its right to
an appeal.

          3.   Inadequate resources devoted to school approval process
       We found that the INS devotes minimal resources to certifying schools
and, as a result, does not adequately review schools to ensure that they meet the
legal requirements for approval. We also found that the INS rarely re-reviews
schools to ensure that they are still active and still meet the requirements for
certification.


                                        132
      At each of the four districts we visited, the schools officer was a
collateral, low-priority duty, accounting for 5 to 20 percent of the officer’s
time. In the Atlanta and Chicago districts, an immigration inspector serves as
the schools officer; in the New York and San Francisco districts, a district
adjudicator serves as the schools officer. The immigration inspectors who
performed this function spent most of their time performing inspection-related
duties. The adjudicators who performed the function spent most of their time
on adjudications functions that are considered “priorities” of the INS, such as
naturalization applications and orphan petitions.

          4.   Lack of in-person interviews and site visits prior to approval
       In addition, despite the regulatory requirement that the INS interview in
person and under oath an authorized representative from the school prior to
approving the petition, we found that this requirement seemed to be enforced
fairly regularly in the 1970s and before that time, but these interviews no
longer occur. All four INS officers responsible for approving schools that we
interviewed stated that they did not require these interviews. We found that, at
least in relation to vocational and language schools, the INS was relying solely
on the documentation submitted by the schools without performing any
independent verifications, such as checking to see if the school is in fact
accredited or verifying information from independent websites.
       Although the regulations allow the District Director to waive the
interview requirement, the regulations seem to contemplate that such a waiver
would be granted on a case-by-case basis. Moreover, we did not find that the
interview requirement had been waived in any district we visited. We believe
that the lack of interviews stems more from the inability of the schools officers
to devote sufficient time to the process, rather than a reasoned decision that
interviews would not be useful and should be waived. Indeed, most of the
schools officers to whom we spoke were not even aware that interviews were
required.
       While the regulations do not affirmatively require the INS to conduct site
visits to schools before approving I-17 petitions, site visits were conducted
fairly regularly in the 1970s and earlier. Yet, few if any site visits have been
made since then in the four district offices we reviewed.
       During our review, we selected a sample of 200 vocational, language, or
flight schools from the INS’s approved-schools database (STSC) that were
approved by personnel in the INS’s Atlanta, New York, Chicago, and San

                                      133
Francisco districts. For these schools we reviewed the initial I-17 petition and
required supporting documentation submitted by the school, any subsequent I-
17s submitted by the schools, and any evidence contained in the file relating to
INS actions taken.
      Several of the approved schools selected in our review appeared
questionable to us and may not have been approved had a site visit been made.
Some examples follow:
    • A vocational school was approved in February 2001 to teach press
        printing operations. The I-17 and supporting documentation provided
        by the school indicated that the school was neither accredited, licensed,
        nor approved by a federal or state agency; the school’s brochure
        advertised that students would be doing “real” jobs for “real”
        customers and that students would be paid an hourly wage based on
        their grade. A site visit by the INS seems warranted to ensure that this
        is a school, as opposed to a business, operation.
    • A vocational school was approved in November 1990 to teach students
        to be wardrobe consultants, color designers, color coordinators, and
        personal stylists. The school’s catalogue indicated that the course
        consisted of five class sessions, seven to eight days each, separated by
        two to three months of home study. The documentation to support that
        the course meets a vocational or professional objective (i.e., that at
        least three graduates of the school have obtained employment in the
        particular field of study) consisted of letters from one graduate who
        now owns the school and two graduates who are self employed as
        color consultants.
    • A vocational school was approved in April 1981 to teach students the
        music business. The school’s Internet website, which promises to
        provide instruction on “How to be a successful singer, band, group, or
        manager,” does not include any information on the physical location of
        the school. Based on the website, this appears to be an on-line school.
        This school claimed to be accredited, but a search of the accreditation
        organization’s website revealed that the school was not currently
        accredited by the organization.




                                      134
          5.   Lack of re-certifications
       Federal regulations also provide that the INS may periodically review the
approval of a school for continued eligibility. Regular re-certifications would
help identify schools that are no longer active or schools that are committing
fraud. Regular re-certifications would also ensure that the approved schools
have maintained their accreditation, licensure, or approval status. According to
INS officials, re-certification of schools is particularly necessary for certain
types of schools – in particular, vocational, flight, and language schools – since
these schools tend to be transitory. For example, we found based on our
review of the files that in one re-certification effort, the INS learned that a
school no longer existed. When the adjudicator contacted a flight school that
had failed to respond to the INS’s inquiries, she was told that the school no
longer existed and that the owner, now living in Alaska, “lost his plane awhile
back.” In another file that indicated that a re-certification had been requested,
the INS identified a language school that had been issuing I-20 forms using
another school’s INS-approval code number. The owner of the school had
initially taught at the original school, which subsequently closed. When the
owner received the re-certification notice, she admitted to the INS what she
had been doing. Her explanation was that she had submitted the paperwork for
INS approval but, since the process was taking so long, she decided to continue
to use the old code number.
       Based on our review, we determined that the last nationwide re-
certification was conducted by the INS in 1983 (when the STSC system was
implemented). In addition, none of the INS districts we visited had been
performing regular re-certifications. In fact, only one of the districts, San
Francisco, had conducted any re-certifications since 1983, and this re-
certification effort occurred around 1990.
       We also reviewed the files of the 200 schools in our sample to try to
determine whether those schools were still active or accredited. Based on
preliminary checks we performed, including comparing the schools against a
list of closed schools maintained by the U.S. Department of Education, we
concluded that at least 86 of the 200 schools – or 43 percent of the schools –
were either no longer active or likely no longer active. Of the 114 active
schools in our sample, nine schools were no longer accredited by the original
accrediting organization they cited when they had completed their initial I-17
petition.



                                       135
           6.   Review of Huffman Aviation file
      As part of our investigation into the delayed notification of Huffman
Aviation about the student status of Atta and Alshehhi, we obtained from the
INS’s Miami District its file containing the documentation submitted by
Huffman Aviation requesting certification. We found, based upon our review
of the file and our interviews with officials from Huffman Aviation, that had
the INS conducted a site visit, it is likely that the school would have been
denied certification. Our review of Huffman Aviation documents leads us to
question whether its students were enrolled in a “full course” of studies, that is,
over 22 hours per week of course work since the primary course of study was
non-classroom work. In addition, we question whether Huffman Aviation
should continue to be eligible to issue I-20s for foreign students to obtain
student visas and changes of status.
      Huffman Aviation submitted its original I-17 petition on or about May
22, 1989. Only the first page of Huffman’s original I-17 was in the file we
obtained from the INS, although the file did contain additional supporting
documentation. 116 The President of Huffman Aviation had submitted an
affidavit that stated, “All students are required to attend classes daily and are
tested on a weekly basis.” In addition, a syllabus indicated that obtaining a
private pilot’s license would require 40 hours of flight time and 15 hours of
“Ground school and briefings” and that the course could be completed in
“about 45 days if you are flying every day.”
       On June 2, 1989, the INS responded to Huffman and requested additional
information, including “evidence that the school offer[ed] a ‘Full Course of
Study.’” The INS directed Huffman to the definition of “full course of study”
as set forth in the publication used by schools to assist in filling out the I-17
petition. Huffman submitted a response on October 2, 1989, and included
some of the additional information requested, but it did not submit anything
related to the “full course of study” request for information.



    116
        A new I-17 filed in August 1999 was also in the file. Huffman Aviation indicated on
the I-17 that it was submitting the I-17 to “update” Huffman’s records. Although it was an
update and not a new petition, the INS, as part of its process, reviews and approves these
types of I-17s like new I-17s. This I-17 petition was approved on October 1, 1999.




                                           136
      On November 20, 1989, the INS wrote to Huffman, again requesting
additional information, including “an addendum to your response to Question
#19 that lists all courses of study and the time necessary to complete each
course of study.” On December 21, 1989, Huffman submitted additional
information to the INS in support of its petition, indicating that among the
documents being submitted were “the relevant pages of our syllabus that
demonstrates that we do have a full course of study and the hour
requirements.”
      The INS responded on February 8, 1990, and for the third time stated that
additional information was requested with respect to, among other things, the
school’s ability to offer a full course of study:
              Please read the attached definition of ‘Full Course of
       Study’ VERY CAREFULLY. A ‘Full Course of Study’ for a
       school such as Huffman Aviation means a minimum of 18 to 22
       clock hours of attendance per week.[117] Neither the syllabus
       nor the addendum that you submitted indicate that your fulltime
       students attend the school for 18-22 clock hours per week.
       Please submit an addendum to Question 19 [on the I-17 petition]
       that lists each course of study and the time necessary to
       complete each one... If the school does not offer a ‘Full Course
       of Study’ according to this definition, the Immigration and
       Naturalization Service cannot approve the school for attendance
       by nonimmigrant students.
                The addendum should be in this format:
Commercial Pilot       500 hours (300 Hours ground school         20 Weeks at 25 Hours per Week
                                     200 hours flight time)

      The flight school then submitted a letter dated February 20, 1990, that
stated in the format requested the breakdown for each “full course of study”
that Huffman offered:
Private Pilot          106.5 hours (66.5 hours flight training)   4 weeks at 27 hours per week


     117
        As discussed earlier in this report, 18 hours per week attendance is required for
vocational students whose primary course of study is classroom work and 22 hours per week
attendance is required for vocational students whose primary course of study is lab or shop
work, i.e., non-classroom work.




                                               137
                              (40 hours of ground school)
The breakdown for the “Instrument Rating” course showed that it could be
completed in 3 weeks at 26 hours per week and that the “Commercial Pilot”
course would be completed in 20 weeks at 22.5 hours per week.
      On June 22, 1990, the INS approved Huffman Aviation’s I-17 petition.
       Based on the available evidence, we do not believe that Huffman
Aviation offered or currently offers a “full course of study.” We interviewed
Rudi Dekkers, the Chief Executive Officer and President of Huffman Aviation.
He told the OIG that his courses required no formal classroom study and that
the weekly flight time would not encompass 18 or more hours a week. Indeed,
Dekkers told us that flying 18 hours or more per week would be “too much.”
Although the information Huffman provided in its third response to the INS
stated in a conclusory fashion that it was meeting the INS’s requirements, the
supplementary material that it had submitted with its application showed that it
was not. For example, as stated above, Huffman submitted a syllabus
indicating that obtaining a private pilot’s license requires 40 hours of flight
time and 15 hours of “Ground school and briefings,” and that the course could
be completed in “about 45 days if you are flying every day.” Based on our
calculation, 55 hours over 45 days constitutes an average of 8.5 hours per
week, far less than the 22 hours per week required by the regulations for a “full
course of study” for vocational schools that offer primarily non-classroom
studies. In addition, the INS file that we reviewed contained a Huffman
Aviation document labeled “Commercial Pilot Training Course Outline.”118
Like the course syllabus, this document stated that obtaining a private pilot’s
license would require 40 hours of flight time and 15 hours of ground school
and seven weeks to complete the course. The document also stated that
obtaining a “Commercial Multiengine Instrument” rating required 25 hours of
flight time and 15 hours of ground school, and it stated “Full-time student,
completion in four weeks.” By our calculation, this would require
approximately 10 hours of instruction per week.
      Moreover, in its I-17 petition submitted in 1999, Huffman Aviation
indicated in response to Question 19, which asks for the courses of study and

    118
        From the condition of the file, we were unable to determine when the INS received
this document.




                                           138
time necessary to complete each, that its response was “Total time estimate:
approx. 6 months.” In addition, Huffman’s petition stated that the school’s
sessions were not based on semesters or quarters but that “students may start at
any time.” In response to the question asking for dates of sessions, Huffman
stated “[o]ur students register at all times of the year. Their programs are
organized to their individual needs.”119
      In addition to the requirement that Huffman Aviation must offer a “full
course of study,” it is also required to certify on I-20s that each student is
actually pursuing a full course of study. Huffman certified that Atta and
Alshehhi were pursuing a full course of study and that the dates for the course
were September 1, 2000, until September 1, 2001. But we found, based on
Huffman’s records, that Atta and Alshehhi never logged the requisite 22 hours
per week of instruction.
     A follow-up site visit to Huffman, based on the schools officer’s
concerns about the school’s ability to offer a full course of study, would have
provided the INS more accurate information with which to make its
determination about Huffman’s certification. Such a site visit never
occurred.120

     B.      Lack of security features on I-20 forms
       INS investigators and adjudicators consistently reported that they
believed that I-20 fraud is prevalent. The INS Inspector’s Field Manual alludes
to this concern, stating, “Fraudulently issued Forms I-20 are not uncommon.”
      Once a school is certified by the INS to accept foreign students, the INS
gives the school blank I-20 forms to provide to foreign students as proof that
they have been accepted by the school. In addition, schools are permitted to
obtain I-20 forms from private vendors who produce the software to generate


    119
          The INS did not request additional information before approving this I-17 petition.
    120
         While Huffman Aviation may not have been entitled to issue I-20s to foreign
students to obtain student visas, Atta and Alshehhi could have continued to pursue the
pilot’s license program on a part-time basis while in the United States on their visitor visas,
since INS practices consider such study as being consistent with the purpose of a visitor
visa. For a discussion of our concern about the INS’s lack of information about
nonimmigrants taking classes on a part-time basis, see Chapter Eight.




                                              139
the forms on a computer. The current I-20 form has no serial number or unique
stamp. As a result, the form lacks security features and is relatively easy to
counterfeit. Also, many schools that were once approved by the INS, but
which have either had their approvals withdrawn or have closed, still have a
supply of I-20 forms.
      As previously noted, foreign students may leave and re-enter the country,
but they must have the signature of a DSO on the student copy of the I-20,
signifying that the alien is still a student and plans to return to the school after a
temporary absence. However, immigration inspectors have no way to ascertain
the authenticity of the DSO endorsements. I-20 holders who are no longer
active students could easily forge subsequent DSO endorsements, enabling
them to re-enter the country.
       An official with the State Department’s Bureau of Diplomatic Security,
which conducts investigations of visa fraud, told the OIG that falsifying I-20s
is the most common method by which student visa fraud is committed.
Investigators in all four INS district offices we visited told us that school
employees with access to these forms have fraudulently issued I-20s to aliens
for a fee to enable them to enter the United States.
      Although fraud with I-20s is easy to commit, it is difficult to detect. I-
20s lack security features, and the State Department does not have access to
INS databases to confirm the information listed on the I-20, such as whether
the school is authorized to issue I-20s. Primary immigration inspectors at the
POEs also do not have access to the STSC database to confirm any information
on the I-20 form.

     C. Inadequacies in collecting information concerning student status
      To obtain student visas or student status, foreign students must be
enrolled in a full course of study, and to be considered in status, students must
remain enrolled as a full-time student. With respect to academic and language
school students, federal regulations specifically provide that “[t]he student is
considered to be maintaining status if he or she is making normal progress
toward completing a course of studies.” 8 CFR § 214.2(f)(5). Because
students must remain in school full time to be entitled to remain in status, the
INS needs to know when students are taking classes part-time, quit, fail, or do
not show up for school.




                                         140
      To receive INS certification, schools must agree to notify the INS when a
student terminates attendance at the school or is no longer enrolled in a full
course of study. However, the only affirmative reporting requirement is that
the school notify the INS of terminations or other lapses in attendance when
the INS provides the school with a list of students to identify. The INS has not
provided this information to schools since 1989.
     In addition, even when schools voluntarily report information about
students, the INS has no way to collect or record this information. Such
information is not systematically recorded in STSC or in any other INS
database. Schools in the past have attempted to report to the INS students who
were accepted by the schools and who were issued I-20s but who failed to
show (“no-shows”). However, the INS was so overwhelmed by the reports of
“no-shows” that it directed schools to no longer report this information.
      Since the INS does not collect information in STSC about the status of
students, currently the only way for an INS immigration inspector at a port of
entry to verify that a returning student is still in active status is to check that the
I-20 presented by the student contains a current endorsement by the school’s
DSO. Federal regulations do not require that this endorsement occur within
any specified time before the student’s departure, and the instructions on page
4 of the I-20 state that the endorsement is valid for six months.121 The
immigration inspectors we interviewed said that, as a normal practice, they
accept any DSO endorsement made within the year prior to the foreign
student’s entry. This means that the inspector has no way of checking the
authenticity of the DSO signature or knowing if students terminated their
studies after the date of the signatures. The signatures can easily be forged,
and the inspector has no way of detecting the fraud.

     D. Deficiencies in the Student and Schools System (STSC) database
     The STSC is the INS database that records information about the schools
approved to issue I-20s, the foreign students who have enrolled in approved
schools, and changes in identifying information about the schools or students

    121
         The regulations provide that students are permitted a temporary absence from the
United States and define temporary absence as five months or less for F-1 students. 8 CFR
§ 214.2(f)(4). The INS’s Operations Instructions define temporary absence for M-1 students
also as five months. OI 214.2(m).




                                          141
that are provided to the INS by the submission of a new I-17 or I-20. As noted
above, the I-20s and I-17s are sent to ACS, a private contractor in London,
Kentucky, for data entry, and this information is eventually uploaded into
STSC.
       We found that, for several reasons, the information in STSC is unreliable
and inaccurate. First, as stated previously, the INS does not collect certain
information about students, such as when they quit, fail, or do not show up at
the school from the beginning. STSC information about the schools is equally
unreliable because, as noted previously, the INS makes little effort to assess
whether certain schools are still accredited or even in existence. In some
instances, we found that while information in the hard copy file indicated that a
school was no longer in operation, there was no evidence that the INS provided
this information to ACS, the contractor that handles the data entry. We also
found that the INS has failed to provide to ACS updated information, such as
new addresses and name changes of schools, when that information was
submitted to the INS on a new I-17 by the schools.
       Therefore, not surprisingly, STSC is riddled with inaccuracies. As noted
previously, in our review of 200 files of schools we selected from STSC’s list
of “active” schools, 86 of those schools appeared to no longer be in
operation. 122 In addition, of the 114 active schools we reviewed, STSC showed
incorrect addresses for 40 schools and incorrect names for 16 schools. Of the
40 schools with incorrect addresses, we found documentation in eight of the
files that showed that the INS had been informed of the new addresses. Of the
16 schools with incorrect names, we found documentation in four of the files


    122
         Of the 86 schools we determined were no longer active or were likely inactive, we
found five cases in which there was a completed form in the file indicating that the INS had
determined that the school was no longer approved to issue I-20s. This happened when the
INS had received an I-20 from ACS that had been returned to ACS as undeliverable,
because there was no such address for the school, or because the school had informed the
INS that it was no longer in operation and wanted to withdraw its petition. This information
is usually recorded on an I-702 form (School Violations and Approval Review) and sent to
ACS for data entry and uploading into STSC. Based on our review of these five files, we
were unable to determine when or if these forms were ever sent for data entry, since they
were undated. We were told by personnel at one of the district offices that they did not
complete these forms but instead simply noted in the file that the school was being
withdrawn.




                                            142
that showed that the INS had been informed of the school’s name change. We
found no evidence in any of the files that ACS had been informed of any of
these changes.123
       We also found that processing errors contributed to the inaccurate
information in STSC. Two of the schools in our sample, which STSC
indicated were authorized to issue I-20s, were never approved and therefore
should never have been in the STSC system. When a schools officer denies
certification of a school, no forms are sent to ACS; however, when an
approved school is de-certified, the INS sends an I-702 form to ACS for data
entry. Based on our review of the schools’ files, we determined that the INS
schools officer for both schools mistakenly sent an I-702 to ACS for data entry.
It appears that since the schools were not in the system and could not therefore
be withdrawn, a record for the schools was created in STSC for the schools
based on the information on the I-702. While at the district offices, we also
randomly selected files of schools that had been approved by the district office
within the past two years and checked whether these schools had been entered
into STSC. Of the 38 files we selected, 14 (37 percent) did not appear in the
STSC database. We did not investigate whether this information was not in
STSC because the INS failed to provide the I-17 to ACS or because ACS failed
to enter the information.
      The consensus among the schools officers, immigration inspectors, and
investigators we spoke with during our site visits was that the STSC system
was unreliable and therefore not useful. At all four districts we visited, the
schools officers instead used alternate systems to track schools in their districts.
Two had developed their own databases, and two relied on paper records, such
as index cards.




    123
         The Enhanced Border Security and Visa Entry Reform Act of 2001, which was
approved by Congress and recently signed by the President, requires the Attorney General to
provide the Secretary of State with a list of all institutions certified to issue I-20s no later
than 30 days after the enactment of the Act. This list is intended for use by consular officers
to verify that persons applying for student visas are submitting I-20s issued by INS-
approved schools. Given the inaccuracies in the INS’s STSC database, we believe that any
list of approved schools would not be reliable.




                                             143
     E.    Lack of enforcement
       According to investigators we interviewed in the four district offices we
visited, conducting investigations of students and schools for visa fraud has
always been a low priority. Investigations personnel stated that with only
2,000 investigators nationwide, the INS did not have enough investigative
resources to devote to students and schools. According to these investigators,
their top priorities prior to September 11, 2001, were to apprehend criminal
aliens, disband large manufacturers of fraudulent documents, dismantle anti-
smuggling organizations, and stop worksites from employing illegal aliens.
Foreign students and schools were generally only investigated if they fit in one
of these categories. Since September 11, terrorism has become the top priority.
Additional duties that investigators have recently been assigned include
tracking down the approximately 300,000 aliens who have outstanding
deportation orders against them and conducting background checks on airport
employers and employees.
       Foreign students who are no longer in status because they quit school or
never showed up for school are considered overstays and can be removed from
the United States. As discussed previously, the INS does not systematically
collect this information about the students from the schools. Moreover, even
when the INS has the information, it generally takes no action. Some schools
report information about “no-shows” and “termination” to their local INS
district offices. In the district offices we visited where an adjudications officer
was the “schools officer,” information reported by schools was provided to
investigative personnel for entry into the INS’s National Automated
Information Lookout System (NAILS). But the investigative personnel did not
enter the information into NAILS.124


     F.    Lack of training for designated school officials and INS schools
           officers
      In addition to signing the I-20 certifying that students have been accepted
to a full course of study and have provided proof of ability to pay, Designated

    124
        NAILS is one of the law enforcement databases used by inspectors at the ports of
entry to determine whether possible derogatory information about an alien exists.




                                           144
School Officials (DSOs) are responsible for representing schools in all matters
related to foreign students. Their duties include, among other things,
complying with INS recordkeeping and reporting requirements; monitoring
student activities and reporting violations to the INS, such as failure to
maintain a full course load or engagement in unauthorized employment; and
notifying the INS of material changes in the school’s program, accreditation,
and level of education offered.
       Currently the INS has no formal, mandated training program for DSOs.
While the larger school associations, such as NAFSA, provide such training, it
is geared towards DSOs at public and private colleges and universities, not
vocational and language schools, who, according to INS officials, need more
training. 125 During our site visits, INS district office school adjudicators
commented on the need for such training. They noted that the DSO function
rotates frequently at schools and, as a result, many DSOs are untrained and
unaware of regulations. As a result, they said, violations of the law frequently
occurred.
      For example, the DSO who certified the I-20 forms for Atta and Alshehhi
for use in their applications for change of status told the OIG that at that time
she had just recently been assigned as the DSO and that she had been provided
no training. 126 As a result, she said she was unsure of what she was doing and
that either Atta or Alshehhi directed her on the proper procedures for filling out
the forms.
       INS personnel in district offices assigned to approve and monitor schools
also are not provided with any formal training. Instead, they learn on the job.
Many to whom we spoke stated that they were not sure what they were
supposed to be looking for when they certified schools. In the district offices
that we visited, the schools officers appeared unaware that regulations provided
that the INS should conduct an in-person interview with a school representative


    125
        NAFSA was originally called the National Association of Foreign Student Advisors.
In May 1990, the name of the organization was changed to “NAFSA: Association of
International Educators.” The acronym was retained despite the name change.
    126
        We also noted in our review of the INS’s Huffman Aviation I-17 file that it did not
contain an I-17 petition listing this school coordinator as a designated school official as
required by the regulations.




                                            145
before approving an I-17 petition. They also commented about the lack of
clarity in the regulations and the lack of INS guidelines for the approval
process. The INS informed us that it is now in the process of developing
certification procedures.

IV. Student and Exchange Visitor System (SEVIS)
      The INS is currently developing a new computer system to more closely
track information about foreign students and the schools in which they are
enrolled. This system, the Student and Exchange Visitor System (SEVIS), is
also designed to collect information about aliens enrolled in a State
Department-approved exchange visitor program. 127 In this section of the
report, we first describe the history of SEVIS, including the INS’s latest
schedule for implementation, and the visa process as it is designed to work
under SEVIS. Next, we analyze SEVIS, including the deficiencies in the
foreign student program that SEVIS is intended to address, some operational
problems in the foreign student program that SEVIS will not address, and the
impact of the implementation schedule for SEVIS.

     A.    History of SEVIS
      After the INS’s foreign student program came under criticism when it
was discovered that one of the terrorists involved in the February 1993
bombing of the World Trade Center was in the United States on an expired
student visa, the director of the Department of Justice’s Office of Investigative
Agency Policies sent a memorandum to the Deputy Attorney General citing
concerns regarding possible terrorism and alien criminal activity. This
September 24, 1994, memorandum specifically mentioned the need to subject
foreign students to thorough and continuing scrutiny before and during their
stay in the United States. On April 17, 1995, the Deputy Attorney General
asked the INS Commissioner to address this issue. This led to the formation of
an INS task force in June 1995 to conduct a comprehensive review of the F, M,

    127
        As noted previously, currently the State Department ma intains a database called the
Exchange Visitor Information System (EVIS), which functions similarly to STSC. Paper
forms are data entered into EVIS. Once SEVIS is introduced, the INS also will be
responsible for maintaining all of the information about foreign exchange visitors in SEVIS,
although the State Department will remain responsible for approving the sponsors that
participate in the foreign exchange program.




                                            146
and J visa processes. Besides the INS, the task force included members from
the State Department and the United States Information Agency, and experts in
the administration of international student programs.
      The resulting task force report, issued on December 22, 1995, identified
some of the same deficiencies in the foreign student program we discussed in
this chapter of the report, including deficiencies in the tracking and monitoring
of foreign students; weak and ineffective data systems; the ineffective district
office practice of assigning student/schools responsibilities as a collateral duty;
the lack of a system to monitor or audit schools; and the lack of clarity in
school approval requirements. The task force recommended, among other
things, that the INS collect and monitor information electronically about
foreign students through the issuance of student registration cards that would
contain biometric identification information through fingerprints and that
students be required to notify the INS whenever they changed their student
program, such as transfers, change of major, or other event.
      On September 30, 1996, Public Law 104-208, the Illegal Immigration
Reform and Immigrant Responsibility Act (IIRIRA) was enacted. It directed
the Attorney General, in consultation with the Secretary of State, to develop
and conduct a program to collect certain information on nonimmigrant foreign
students and exchange visitors from approved institutions of higher education
and designated exchange visitor programs. The information to be collected
included the alien’s name, address, date of birth, visa classification, student
status, course of study, academic disciplinary actions taken, and termination
dates and reasons. Schools had already been required by the INS since 1983 to
manually collect this data; IIRIRA mandated that the information was to be
collected electronically where practicable. IIRIRA also mandated that the INS
implement the system by January 1, 1998, use a phased-in approach (starting
with students and exchange visitors from at least five countries, with full
expansion within four years), and establish a fee of less than $100, which
would be paid by the foreign students and collected by the schools, so that the
program would be self-funded.
      In June 1997, the INS developed a computer program as a pilot project,
the Coordinated Interagency Partnership Regulating International Students
(CIPRIS), to test the concept of an electronic reporting system. CIPRIS was
tested at the Atlanta Hartsfield Airport, the INS Atlanta District Office, the
Texas Service Center, and 21 educational institutions in Georgia, Alabama,
North Carolina, and South Carolina. The most significant difference between


                                       147
the old process and CIPRIS was that schools provided information about
themselves and their students directly into INS computer systems instead of the
INS relying on information from forms being data entered after the fact by
contractors. In addition, the new process, which was later changed, was
intended to involve the issuance of student registration cards that would
contain additional identifying information about the student such as
fingerprints and photographs that were collected by the schools.128
      CIPRIS, and later SEVIS, encountered significant opposition from
several associations representing schools, particularly the Association of
International Educators, which represents 8,000 foreign student advisors at 2-
year and 4-year public and private institutions; the American Council on
Education, which represents 1,800 college presidents at 2-year and 4-year
public and private institutions; and Teachers of English to Speakers of Other
Languages, which has 14,000 members. Schools objected to foreign students
being subjected to monitoring; to schools being subjected to the burden of
collecting fingerprints and photographs of students for the registration cards;
and to schools being required to collect the processing fee from students, most
of whom would still be in their home countries when the fee would have to be
collected.
      The CIPRIS pilot program officially ended in October 1999. However,
the program continued after that date as a prototype pending the development
of a nationwide system. Around the time that the CIPRIS program ended, the
INS decided to abandon the idea of student registration cards and the collection
of fingerprints and photographs. The INS decided to drop the biometric card
requirement and instead use a “bar code” to be placed on the I-20 form issued
to the student.
      According to the INS, the CIPRIS pilot system was designed from its
inception as a “throw-away” program whose purpose was just to test the
feasibility of electronic reporting. In July 2001, the name of the program was
changed to SEVIS to distinguish between the two systems, which, although
they functioned similarly, were substantially different in design. Schools


    128
        Although IIRIRA mandated that the INS collect information about foreign students
attending only colleges and universities (not vocational or language schools), the INS
decided to include all foreign students in its new program.




                                          148
participating in the CIPRIS program were provided with separate computers to
operate CIPRIS; SEVIS participants would access the system through the
Internet with user passwords.
      In December 1999, the INS published a proposed regulation setting the
foreign student processing fee at $95. The INS received over 4,000 comments
to the regulation. On February 22, 2000, twenty-one U.S. Senators wrote to the
INS requesting a postponement of the fee rules. The INS, the Department of
State, and school representatives submitted proposed legislative changes for fee
collection to Congress in April 2000. Public Law 106-396, enacted on October
30, 2000, required that foreign students and exchange visitors pay the fee
directly to the INS (through the Attorney General) prior to applying for a visa,
rather than requiring schools to collect the fee and transmit it to the INS.
       Since the INS was relying on fee collections to fund SEVIS, the delays in
establishing the fee process affected the timing of the implementation of
SEVIS. And despite the changes in fee requirements, the school associations
continued their opposition to SEVIS. On August 2, 2001, with the support of
the school associations, H.R. 2779 was introduced to halt the implementation
of SEVIS altogether. 129 NAFSA issued a press release supporting the proposed
bill and stating that the implementation of SEVIS would: (1) send an
unwelcoming message to international students and exchange visitors by
singling them out for monitoring; (2) be costly for schools since its reporting
requirements would require overhauls of university information systems; and
(3) place an unacceptable financial burden on applicants.
      The September 11, 2001, terrorist attacks drew renewed attention to
foreign students. On October 26, 2001, Public Law 107-56, the Uniting and
Strengthening America by Providing Appropriate Tools Required to Intercept
and Obstruct Terrorism Act of 2001 (the USA PATRIOT Act) was enacted.
Section 416 of this law mandated that SEVIS be fully implemented before
January 1, 2003.



    129
        The House of Representatives Committee on the Judiciary referred H.R. 2779 to the
Subcommittee on Immigration and Claims on September 10, 2001. No further action was
taken and, as discussed in this chapter, Congress later passed legislation strengthening
SEVIS.




                                          149
      The USA PATRIOT Act also required SEVIS to include information on
the foreign student’s port of entry and date of entry, and it re-defined schools
required to be in SEVIS to include flight schools, language training schools,
and vocational schools.130 The law provided $36.8 million in funding for
SEVIS implementation. Because of this funding, the Office of Management
and Budget required the INS to delay implementation of any student fees until
the appropriation has been expended.
      In contrast to their prior opposition, both NAFSA and the American
Council on Education (ACE) issued public statements after the events of
September 11 supporting SEVIS implementation. We contacted
representatives of NAFSA, ACE, and the Career College Association, which
represents 950 schools that provide vocational programs, to discuss SEVIS
with them. All expressed support for SEVIS. While they described some
concerns related to the monitoring of students, they said that school
associations have accepted the inevitability of implementing SEVIS and are
now focused on opposing the fee and the proposed method of collection. 131

     B.      How SEVIS will work
      According to the INS, SEVIS will electronically record data about
schools and foreign students, primarily by schools entering information directly
into SEVIS or by batch processing that will occur through interaction between
a school’s computer systems and SEVIS. Schools will select the method they

    130
         As noted above, Congress also recently approved the Enhanced Border Security and
Visa Entry Reform Act of 2001, which formally amends IIRIRA to require the INS to
collect additional information about students, information which the INS already plans to
collect once SEVIS is implemented. The Act also requires the State Department to obtain
additional information from student visa and exchange visitor applicants and requires the
INS to conduct periodic reviews of schools, which we discuss in more detail later in this
chapter. It also establishes requirements affecting the State Department, INS-approved
schools, and the INS for dealing with foreign students that must be implemented within a
specified number of days of the Act and that must remain in effect prior to the full
implementation of SEVIS. The transitional program requirements for the INS include
notifying schools when a foreign student has entered the United States – which the INS
currently accomplishes by sending an I-20 to the school – and, as discussed earlier in this
chapter, providing the State Department with a list of INS-approved schools.
    131
          We address the issue of fee collection in greater detail in Section V C 2.




                                               150
want to use. The INS will not have to rely on schools and students submitting
forms to the INS. Since SEVIS will be Internet-based, schools that enter
information directly into SEVIS will not be required to obtain additional
hardware or software. 132

           1.    Data to be collected in SEVIS concerning foreign students
                 and exchange visitors
      SEVIS will collect data on all full-time foreign students (F and M visa
status) and exchange visitors (J visa status) and their dependents. Each student
and exchange visitor’s SEVIS record will include the following:
     • Form I-20 and Form DS-2019 information.
     • Personal information, including name, place and date of birth, country
          of citizenship, and current address in the United States.
     • Whether the student is full- or part-time.
     • Date the student’s studies began.
     • Number of course credits completed each year.
     • Transfers and extensions of course of study.
     • Degree program and field of study.
     • Information on practical training and other employment, including
          beginning and ending dates.
     • Date studies ended and the reasons why.
     • Date the visa was issued and the visa classification.
     • Academic disciplinary actions taken against the student due to criminal
          convictions.
     • Current academic and program status of the student.
     • Dependent names and current addresses.



    132
       For the schools that will transfer information electronically through their computer
systems, some adjustments to their computer systems will be necessary for the
communication with SEVIS.




                                            151
           2.    Data to be collected concerning schools
      Once a school completes an I-17 petition, SEVIS will record the
following data concerning schools approved to issue I-20s:
     • Identifying information from the schools.
     • Names of DSOs.
     • Whether the school is an academic school, vocational school, or
          language school or is authorized to accept foreign students in all of the
          above visas categories.
     • Programs for which the school is approved to issue I-20s.
     • Licensing or accreditation status.
     • Degrees offered.
     • Average number of classes, students and teachers.
     • Annual costs of schooling.
     • Whether the school is approved to issue I-20s or whether that approval
          has been withdrawn.

           3.    SEVIS procedures
                 a.    School certifications
       Schools will be able to complete and submit their request for certification
(Form I-17) electronically to their local INS district office. A petitioning
school will initially be provided with a temporary password to enable the
school to enter the I-17 information electronically. SEVIS will not accept
incomplete I-17 applications or information that falls outside of certain
parameters. An electronic alert would notify the INS district office that the
petition has been filed. The petitioning school, however, will still have to mail
the necessary documentation to support the petition. 133 The adjudicator at the

    133
         SEVIS will not eliminate the INS’s need to maintain paper files and to track hard
copies of documents. The INS will have to ensure that it can match the supporting
documentation to the electronic I-17 information if the supporting documentation is not
submitted with an I-17. It is unclear whether the INS will keep a paper record of the I-17 in
a file for each school.




                                            152
INS district office would then conduct a review to determine whether the
school meets INS’s criteria. Once the school’s petition and supporting
documentation has been reviewed, the adjudicator will note in SEVIS whether
the school has been approved. If the school is approved, the DSOs at the
school will be provided with logon IDs and passwords, which will enable them
to access SEVIS. Schools will also be able to electronically update their I-
17s.134
       Each DSO will be provided with a unique logon ID, which will help
promote accountability. The INS is also considering establishing a DSO
certification program. All DSOs would be required to take training before
receiving their SEVIS passwords.
       According to INS officials, schools will also be required to be re-certified
after a set period of time. According to INS Headquarters officials, vocational
and language schools will be required to be re-certified more frequently than
public schools, colleges, and universities. The INS had not yet determined
when or how often schools will need to be re-certified.
      Under SEVIS, once the re-certification time frame is determined, the
schools’ logon IDs will be set to expire unless the required re-certification
occurs. E-mail alerts will be sent to the schools several months before the
expiration date to remind them to re-certify. The INS will also be able to
decertify a school that violates INS regulations by electronically invalidating
the school’s password.135 This will prevent the school from issuing any
additional I-20s and will therefore effectively exclude them from the program.




    134
        Unlike the former process that required schools to submit a new I-17 petition that
had to be re-approved by the INS, schools will be able to make certain changes to their I-17
information, such as new DSOs, new addresses, or new school names, without approval
from the INS.
    135
         According to the INS, it had not yet decided how it will carry out this process of
decertifying or invalidating a school, such as whether the district office will have the
authority and capability to terminate the school’s password and access to SEVIS or whether
the district office will be required to make a recommendation that would then be carried out
by INS Headquarters or some entity other than the district office.




                                            153
                  b.    Issuance of I-20 to foreign student
       Under SEVIS, when an alien applies to the school and is accepted, the
school will, as before, be responsible for issuing an I-20. But rather than
requiring the school to type the relevant information onto a hard copy of the
student and school copies of the I-20, SEVIS will generate an electronic I-20.
The DSOs will enter the I-20 data directly into SEVIS, if the real-time method
is used. Under the batch method, schools will enter information for the forms
directly into their own data entry systems, which will communicate with
SEVIS. Once the applying student’s information is entered into SEVIS by the
school, the system will generate an I-20 form that contains a bar code number
that is unique to that student. The school will send this form to the student, as
it currently does.136

                  c.    State Department access to SEVIS
      Foreign students will present this bar coded I-20 to their local consulate,
along with the other required documentation, when applying for a student visa.
After the visa is issued, the student’s name, address, passport number, and
other information will be captured in CLASS when the consular officer scans
the bar coded I-20 into CLASS.137 The date of issuance of the visa and the
location of the consulate office issuing the visa will be uploaded from CLASS
to SEVIS, which will then update the student’s SEVIS record to indicate the
location where the visa was issued and the date the visa was issued.
     Before issuing the visa, the consular officer will have access to basic
SEVIS information through CLASS. Consular officers will also be able to
access the full SEVIS record through the Internet, if they need to do so. In this
way, the consular officer will be able to verify the legitimacy of the I-20. 138




    136
        Since this process will create the record regarding the student, there will no longer be
a “school copy” of the I-20s collected by inspectors at POEs and transmitted to ACS for data
entry.
    137
          The technical means for accomplishing this process have not yet been finalized.
    138
          Consular officers will be provided passwords to access SEVIS through the Internet.




                                             154
                 d.    Inspectors’ access to SEVIS and updating of student’s
                       record that student has entered the country
      Upon entering the United States, the student will present the bar coded I-
20 to the INS immigration inspector. The INS plans for the primary
immigration inspector to scan or data enter the bar code, which will then access
the unique number for the I-20 to ensure that it is valid. If the I-20 is not valid
or there is some other indication of a problem, the inspector will be notified,
and the student should be referred to secondary. The secondary immigration
inspectors will be able to directly access the full SEVIS records. According to
INS officials, the technical process to achieve the record checking and problem
notification has not yet been determined, although it is anticipated that SEVIS
will be integrated with IBIS (Interagency Border Inspection System).
      This process will also be designed so that the student’s SEVIS record will
automatically be updated to indicate the student’s port of entry and the date of
entry when the inspector swipes the I-20.

                 e.    Updating of student’s record once student enrolls in
                       school
      Once the student registers at school, the school will update the student’s
SEVIS record either by directly entering the information into SEVIS or by the
school’s computer system automatically notifying SEVIS of the student’s
enrollment once the school’s computer system has been updated. If the
student’s SEVIS record does not reflect a registration within 30 days of the
student’s entry into the United States, an e-mail alert will automatically be sent
to the school. Thereafter, if the student does not register and SEVIS is not
updated within a set period of time after the notification (date unknown), the
student will be considered out of status and removable. The system is designed
so that the I-20 will then be invalidated electronically, and the student’s record
will show that the student is out of status.139



    139
         Since students can be accepted to more than one school, students can be in
possession of multiple I-20s. When obtaining a student visa, the student is required to select
a specific school. The visa records the name of the school the student is planning to attend.
Once a visa is issued to the student for a particular school, all extraneous I-20s will be
invalidated once CLASS uploads to SEVIS. The other I-20s should also be invalidated once
(continued)

                                            155
      While the student is attending school, the school will be responsible for
updating SEVIS with the required data relating to the student’s status, such as
when the student quits school or otherwise terminates attendance, changes
majors, or changes addresses. Eventually, the INS plans to transfer to SEVIS
information related to changes of status maintained by the service centers,
information about reinstatements, and information about employment
maintained by the district offices. The INS also plans to integrate SEVIS with
the entry-exit system currently under development, which would enable the
SEVIS record to be updated with the student’s movements in and out of the
United States.140
      The INS and other authorized users of SEVIS, will be able to extract
information from the SEVIS database. Authorized users will be provided with
passwords to enable them to access SEVIS to search for information on
specific students. The INS’s Office of Information Resources Management
can also generate specific reports from SEVIS for users. Analyses of SEVIS
data can be performed using any of the parameters contained in the SEVIS
record.
      We were told that the INS is planning on generating periodic reports of
students who fail to show up at school, but the INS has not yet determined who
in the INS will receive these reports, how frequently the reports will be
generated, or what action will be taken as a result of the reports. However,
SEVIS access through logon IDs and passwords can be provided to INS district
offices for investigations and enforcement use, allowing real-time queries and
reports on demand.

(continued)
the student fails to enroll in the schools that were not selected by the student. This will not
delete the record, but will make the extraneous I-20 unusable.
    140
         Since IIRIRA mandated the development of an automated entry and exit control
system, the INS has been working on an automated entry-exit system that would involve the
electronic recording of entries and exits rather than the collection of the paper I-94s that are
later data entered into NIIS. The Immigration and Naturalization Service Data Management
Improvement Act of 2000 (PL 106-215) amended IIRIRA to set new deadlines, establish
reporting requirements, identify those authorized to access the system, authorize funding,
and establish a task force to implement the new entry-exit system. The new deadlines for
the entry-exit system vary depending on the type of POE. Full implementation is required
by December 31, 2005.




                                              156
     C. Schedule for implementation
       The USA PATRIOT Act mandates that SEVIS be fully implemented
prior to January 1, 2003. The INS currently plans to have SEVIS available to
real-time users on July 1, 2002, and to batch users sometime in the fall of 2002.
In addition, the INS plans to have overseas consulate posts and the INS ports of
entry connected to SEVIS by December 2002. However, few users will be
actually using SEVIS in 2002. While SEVIS will be available in 2002, the INS
has recently proposed regulations that will require SEVIS to be fully
operational and actually in use by January 30, 2003.
      Currently, the only schools that will be able to access SEVIS once it is
available will be schools that used the previous CIPRIS system and a small
number of schools in the Boston area that are part of a pilot program. They
have been converted to SEVIS and are currently using SEVIS to issue I-20s.
However, as discussed in detail in Section V C 1 of this chapter, the INS has
issued proposed regulations that would require all schools (approximately
72,000) that want to apply for SEVIS access to be re-certified by the INS
before they can use SEVIS and begin issuing I-20s. The proposed regulation
provides for a cutoff date of January 30, 2003, by which schools that have not
been re-certified will be unable to issue I-20s.141
       For SEVIS to be fully functional, the INS must determine how the
district offices will record in SEVIS the approval of student reinstatements and
student employment authorizations. In addition, the service centers, which
approve changes of status for students, must also be able to access SEVIS.
Recently, the INS moved its planned implementation date for linking its
service centers and district offices to SEVIS from the spring of 2003 to January
30, 2003, to comply with the proposed regulation.

V. OIG analysis of SEVIS
       Once fully implemented, SEVIS will enhance the INS’s data collection
abilities greatly. However, the tracking and monitoring of foreign students will
continue to be significantly flawed, unless the INS devotes the necessary


    141
       The January 30, 2003, implementation date does not pertain to exchange visitor
program sponsors. The Department of State will issue separate regulations establishing a
compliance date for all exchange visitor programs.




                                           157
resources to ensuring that the schools are providing accurate information;
ensures that the schools are all properly re-reviewed before access to SEVIS is
provided; ensures that a process is in place to analyze the information captured
by SEVIS; ensures that adequate investigative resources are made available;
and requires schools to be re-certified at reasonable intervals. In addition to
any technical difficulties that may be faced in implementing SEVIS, the INS
also faces major obstacles to implementing SEVIS before the current date
proposed – January 30, 2003. Below we describe deficiencies in the foreign
student program that SEVIS will address, the problems that SEVIS will not
address, and the implementation difficulties that SEVIS faces.

    A.   Deficiencies that SEVIS will address
      SEVIS as designed will improve data collection, reduce fraud, enhance
data analysis, and enhance enforcement capabilities. Specific improvements
are described below.

         1.   Improved data collection
       Since I-17 petitions and I-20 forms will no longer be completed and
processed manually, the INS’s data records for students and schools under
SEVIS should be more accurate. Information on schools applying to the INS
for permission to accept foreign students will be entered directly into SEVIS by
the schools. In addition, once approved, schools will be able to directly enter
any changes to their records. Moreover, SEVIS will require schools to be re-
certified at specified intervals, which means that school records will be updated
by the INS even if the school does not update its own records. With respect to
student information, I-20s will not be generated unless all necessary
information is provided, which means that SEVIS should contain more
complete information.
      The INS will also be able to collect information about the status of
students, such as whether the student is still a full-time student, where the
student lives, and the type of program in which the student is enrolled. The
INS will not need to rely on this information being provided in paper format,
since schools will update student records individually or through batch
processing.
      Schools will easily be able to identify when a change of status has been
approved because the student’s SEVIS record will be updated by the INS
service centers once processing is complete. SEVIS will eliminate the current


                                      158
manual process in which the paper I-20 is returned to the school once approval
has been granted. In addition, schools will be able to determine through
SEVIS when and where a student entered the United States.

          2.   Improving fraud detection and deterrence
       SEVIS will enhance the INS’s ability to detect and decrease fraud in the
foreign student program. First, because schools will be able to generate I-20s
only through SEVIS, only INS-approved schools with access to SEVIS will be
able to generate I-20s. Accountability over DSOs will be improved, since each
DSO will be provided with a unique password, enabling the INS to identify
who is performing certain transactions. The INS will be able to electronically
de-certify a school that violates program requirements by invalidating the
school’s password, thereby preventing the school from continuing to issue I-
20s. SEVIS will also require schools to be re-certified at specified intervals. If
this re-certification does not occur, SEVIS will automatically cancel the
school’s passwords.
      With respect to students, the fact that I-20s will be bar coded will greatly
enhance the INS’s ability to detect fraud. Because I-20s will be generated with
a bar code only through SEVIS, students will have more difficulty generating
fraudulent I-20s. In addition, State Department consular officers and INS
immigration inspectors will be able to determine the validity of the I-20
presented by an alien because I-20s generated by SEVIS will contain a unique
bar code that will be scanned at overseas consular posts and United States ports
of entry. Students who enter the United States after their course has begun will
be identified as a “no-show” through SEVIS at the port of entry and can be
refused entry. In addition, any I-20s not used by the student will be
invalidated, preventing others from fraudulently using them. Inspectors also
will be able to identify through SEVIS whether a returning student is in active
status and will thus be able to deny entry to students who are not in active
status.
      SEVIS will assist in the detection of fraud engaged in by students at
academic and language schools where students are permitted by law to stay in
the United States as long as they are making progress toward their degree
program. Investigators will be able to search SEVIS to identify students who
have been in the same program for a lengthy period of time or identify schools
that have a significant number of students who have been in school longer than
the typical degree program requires.


                                       159
    B.   Deficiencies SEVIS will not address
      Despite the improvements anticipated with the implementation of SEVIS,
there are many problems in the INS’s student program that SEVIS will not
address.
      For example, the INS plans to re-approve all of the schools currently
authorized to issue I-20s before they will be able to access SEVIS, as well as
require regular re-certifications of the approved schools in the future. But as
previously discussed, the INS does not currently devote adequate resources to
approving schools and reviewing previously approved schools. As a result,
schools officers do not conduct site visits before approving schools, and
schools are rarely re-reviewed once they are approved. To properly certify, re-
certify, and monitor schools, full-time INS personnel devoted to managing the
foreign student program will be needed. In addition, the process for approving
schools that will be eligible to receive foreign students will still be a manual
process. Unless schools officers are required to conduct on-site visits and
follow up questionable information submitted by schools, many deficiencies
that currently exist will continue.
      Also, as discussed earlier in this report, DSOs are often not
knowledgeable about their responsibilities and the requirements concerning
students’ eligibility to obtain student visas. The INS is currently considering
developing an on-line DSO certification training program, which DSOs would
be required to take before receiving a SEVIS password. This initiative would
help to improve the process, but it will need to be implemented well before
January 30, 2003, when the INS plans to implement SEVIS fully, and the INS
will have to provide continual training because DSOs change frequently.
      While improved data collection will enhance the student program, the
information will only be useful in the detection of fraud if the INS devotes
resources to monitoring the information and investigating instances of potential
fraud. Although the SEVIS database will help identify potential fraud, such as
schools with a large number of students with invalid I-20s or students with
invalid I-20s having visas issued from the same city, the INS has not
determined who, if anyone, would perform these analyses. To fully use
SEVIS’s capabilities, the INS needs to assign personnel and establish policies
and procedures to address this analytic function. Moreover, as discussed
previously, enforcement to uncover student and school fraud has been a low
priority and investigative resources devoted to this issue have been limited.
Although better information will be available to investigators on student no-

                                      160
shows and terminations, it is not clear that the INS will use this information
any more fully than it has in the past.
      The INS officials we interviewed consistently reported that the success of
SEVIS depends on the accuracy of the data in the system. To date, the INS has
not formulated any concrete plans for conducting or requiring independent
verifications of the data that the schools enter into SEVIS. The INS has had
discussions with officials in the Department of Education and the Department
of Veterans Affairs to determine whether their auditors could include sample
verifications of SEVIS data into audits that these organizations routinely
conduct of schools. However, this would only cover schools that receive
federal funds from those two agencies. We believe independent reviews
conducted at regular intervals are essential to ensure that schools have proper
internal controls to deter and detect fraud and that schools enter foreign student
information into SEVIS completely, accurately, and timely. 142

     C. SEVIS implementation difficulties

           1.   Ensuring that approved schools are re-certified prior to the
                January 30, 2003, implementation deadline
       Because the INS’s current database, STSC, is inaccurate, incomplete, and
outdated, the INS is requiring all INS-approved schools to reapply and be re-
certified by INS district offices before allowing the schools access to SEVIS.
The INS recently issued proposed regulations imposing a cutoff date of
January 30, 2003, by which schools that have not been re-approved will be
unable to issue I-20s.
      As a result, approximately 72,000 INS-approved schools will need to be
re-certified by January 30, 2003. The INS plans to start the re-certification
process this summer, but it is still in the process of determining how to do this.
As of the end of April 2002, re-certification procedures had been developed but
not yet finalized. Once the procedures are finalized, they must be published as
proposed regulations in the Federal Register, with a 60-day comment period.
In addition, the INS still has to assign and train personnel to perform the re-

    142
        As noted earlier, the Enhanced Border Security and Visa Entry Reform Act of 2001
requires the INS to conduct periodic reviews of INS-approved schools to ensure they are in
compliance with record-keeping and reporting requirements.




                                           161
certifications and notify all the schools of the need and procedures for re-
certification.
      The INS is currently proceeding as if all 72,000 re-certifications will be
completed in time for the January 30, 2003, implementation date. This would
require the INS to approve approximately 8,000 schools per month if it began
the re-certification process in early May 2002. It appears unlikely that the INS
could meet such a demanding schedule.
       First, the INS has to ensure that all schools are notified of the re-
certification requirement. Since our review found that not all INS-approved
schools had been entered into the STSC system and many of the school
addresses on the STSC are incorrect, sources other than STSC are necessary
for notification. Although school associations have been diligent about
publicizing SEVIS, many schools, particularly the smaller language and
vocational schools, are not members of these associations.
      In addition, full-time adjudicators and investigators will be needed to re-
certify so many schools. Currently, re-certifications are performed by
adjudicators and inspectors as a collateral duty. The INS must also develop
adequate written guidelines on conducting the re-certifications and provide
adequate training to those responsible for performing the re-certifications and
making site visits. Our review found that none of these important steps had
been completed.
      Although the re-certification process will be time consuming, it is
essential for the INS to ensure that SEVIS is implemented properly, not just
quickly. Any attempts to shortcut the re-certification process will result in
potentially fraudulent schools retaining access to the system. At the same time,
we believe that the INS should acknowledge that not all of the schools can be
re-certified before January 30, 2003, and provide for this inevitability,
including deciding whether schools without approval will be permitted to
continue issuing paper I-20s to foreign students.143


    143
         After reviewing the draft report, the INS in its written response signed by the INS
Commissioner stated, “I acknowledge the challenge of implementing this system under our
proposed timelines, but unlike your conclusion, I am confident the INS’s dedication to this
significant effort will result in us accomplishing our January 30, 2003 goal.” The INS did
not provide any specifics as to how it would reach its goal.




                                            162
           2.    Collecting the processing fee as required by statute
       Congress mandated that the SEVIS program be self-funding. The INS
had planned to charge foreign students and exchange visitors a $95 processing
fee. As discussed earlier, school associations strongly opposed both the
imposition of a fee and the method by which the fee was to be collected.
Initially, the schools were required to collect the fee on behalf of the INS. In
2000, IIRIRA was revised to transfer the collection responsibility to the INS,
and the fee was required to be collected before the student was issued a visa.
      The INS initially requested that the State Department collect the fee on
behalf of the INS. The State Department already has effective procedures in
place to collect fees overseas. For example, the State Department imposes a
machine-readable visa processing fee on visa applicants. Payment of this fee
can occur in several ways, depending on the consular post. At some locations,
the visa applicant pays the fee at the consular post. At other locations, the visa
applicant pays the fee at a designated bank, obtains a receipt, and presents the
receipt at the consular post as proof of payment when applying for a visa.
      However, the State Department has objected to collecting the fee on
behalf of the INS. The State Department official who serves as the SEVIS
liaison to the INS gave us various reasons for the State Department’s
objections, including reciprocity concerns (other countries could, in turn,
charge United States students a similar processing fee to study overseas),
workload burdens (although the INS indicated willingness to pay the State
Department an administrative fee), and legal concerns (only certain
government agencies have the authority to maintain bank accounts
overseas).144



    144
         In another situation, however, the State Department must collect a fee from visa
applicants and transmit it to another agency. The USA PATRIOT Act, enacted in October
2001, requires the FBI to provide the State Department with access to certain criminal
databases contained in the National Crime Information Center (NCIC). A Notice of
Proposed Rule published in the February 25, 2002, Federal Register indicates that when a
consular officer determines that a visa applicant may have a criminal record indexed in
NCIC, the applicant will be required to submit fingerprints and pay a specified processing
fee to the State Department. This fee, along with the fingerprints, will be forwarded by the
State Department to the FBI.




                                            163
      In lieu of having the State Department collect the fee, the INS is
requiring applicants to make payments either by mail to a bank or on-line. All
payments need to be made in United States currency. School association
representatives told us that, although they philosophically oppose the
imposition of a fee on foreign students, they are more concerned about the
method of collection. Both the NAFSA and the ACE representatives we
contacted expressed concerns about the length of time it would take to process
the payment by mail (the bank has said it will take approximately four weeks)
and the lack of accessibility of some overseas students (particularly those in
developing countries) to the Internet, credit cards, United States currency, or
reliable mail systems. They see this as a barrier to students attending schools
in the United States. NAFSA prefers to have the State Department collect the
fee, and it does not believe the State Department has provided any credible
reason not to do so. We also believe that requiring the State Department to
collect the fee, while permitting it to retain an appropriate fee for doing so,
would be the most efficient and equitable solution.

VI. Conclusion
       The INS’s foreign student program has suffered from a lack of attention
for many years, and as a result, the INS lacks accurate data about the schools
that are authorized to issue I-20s, the students who obtain student visas and
student status, the current status of those students, and whether fraud is being
perpetuated in the foreign student program. The INS’s implementation of
SEVIS will help solve some of the problems in the foreign student program,
but it will not cure all of the problems in the INS foreign student program. The
INS must not only implement an effective electronic method tracking foreign
students, it must also devote adequate resources to managing the entire foreign
student program.
      We believe that it is not likely that the INS will be able to fully
implement SEVIS by January 30, 2003, as it contends it will. For full
implementation of SEVIS, all schools must be re-certified; inspectors,
adjudicators in the districts and the service centers, consular officers, and
DSOs at a minimum must be trained how to use SEVIS and what to do in the
event that the new system is not fully functioning; and students currently in the
system with valid I-20s must be accounted for in SEVIS. If, as we believe it
will be, full implementation of SEVIS is delayed beyond January 2003, the
INS will continue to operate a system in which it knows little about the schools
and students that participate in the foreign student program.

                                      164
       Even after SEVIS is implemented, we believe the INS must devote
adequate resources to managing critical aspects of the foreign student program
in addition to SEVIS and its operations. This requires full-time, well-trained
personnel to carry out the important function of approving and re-certifying
schools. The INS should establish detailed procedures and guidance to ensure
that schools are properly approved, and re-certified and de-certified when
necessary. The INS must also decide which office will be responsible for
analyzing the information collected in SEVIS and provide that office with
guidance about its role and how analyses should be completed to effectively
monitor foreign students and schools. Similarly, the INS must devote
resources to verifying the accuracy of information entered into SEVIS. Also,
once potential fraud is identified, the INS must devote resources to investigate
that fraud. If the INS does not devote sufficient personnel to address the
approval and re-certification of schools, to analyze the data collected in SEVIS,
and to investigate potential fraud, the impact of SEVIS will be minimal.




                                      165
                            CHAPTER SEVEN
          THE INS’S PROPOSED CHANGES REGARDING
                     FOREIGN STUDENTS
I.   Introduction
      After the firestorm of criticism that resulted from media reports that the
INS had mailed notification to Huffman Aviation approving the student status
of two of the September 11 terrorists, the INS implemented several processing
changes with respect to I-20s and change of status applications. In addition,
after September 11, a number of regulatory changes were proposed that would
affect foreigners who want to attend school in the United States and the INS’s
processing of I-539 change of status applications. We discuss below the
processing changes that have been implemented in the last few weeks and our
observations about the likely effects of these changes. We also address the
proposed regulatory changes. Although we do not address all of the proposed
changes, which continue to be considered, we discuss some of the more
significant proposals.

II. Proposed Processing Changes

     A.   Processing the student copy of the I-20
      On March 15, 2002, INS Headquarters issued to the field via e-mail new
instructions concerning the processing of I-20s. Service centers were
instructed that after adjudicating an I-539 and stamping the I-20 as approved,
the adjudicator must retain in the receipt file a copy of the school’s I-20, send
the original school copy to the school within five days of adjudication, send the
student’s I-20 to the student within five days of adjudication, and mail a copy
of the I-20 stamped “copy” to ACS within five days of adjudication. INS
Headquarters issued another memorandum to the field three days later, on
March 18, 2002, with the same instructions, although the memorandum does
not require that a copy of the I-20 be retained in the service center’s receipt
file.
     This was the first guidance on the processing of I-20s that INS
Headquarters had issued in the last several years. These changes were simple
to implement and immediately addressed the significant problem of I-20s not
being returned to schools in a timely manner. The ease with which the change
was implemented – via e-mail throughout the INS within days of when the

                                      166
controversy over Atta’s and Alshehhi’s change of status applications arose –
further demonstrates that the part of the I-539 process that dealt with the I-20s
had not been managed effectively prior to this crisis.
       This new procedure places responsibility for completing the process with
the adjudicator and provides some measure of accountability if the I-20s are
not returned in a timely manner. However, to help the adjudicator complete
this task, the INS should require address labels for ACS and for the school to
be pre-printed and in the file or otherwise accessible to the adjudicator. This
occurs currently with the student’s address and allows the adjudicator to simply
apply the label to the envelope containing the student’s copy of the I-20.145 In
addition, INS Headquarters should clarify whether a copy of the I-20 is
required to be kept in the service center’s receipt file.
      The INS’s change in procedures did not address the return of school I-20s
that are collected at the POEs when foreign students enter the country, which
constitutes the overwhelming majority of I-20s. For this reason, we sought to
determine what steps were being taken to expedite the return of these I-20s
from ACS to the schools. The INS had determined that the POEs do not have
the resources to copy the I-20s, mail the copies to ACS, and mail the originals
to the schools. The INS therefore instructed the POEs to send to ACS daily via
overnight mail all I-20s collected at the POE, and ACS has agreed to process
and return the I-20s in less than the 30 days currently required by the
contract.146 To effect both the processing of the copies received from the
service centers and the originals received from the POEs, we found that the
INS has begun the process of modifying its contract with ACS.147


    145
        Based on the confusion we found in INS Headquarters and the TSC about the proper
address for ACS, we recommend that the INS ensure that all INS employees have the
correct address for ACS.
    146
         We also found that ACS has approximately 140,000 I-20s that it is currently holding
in storage at the instruction of the INS while the INS decides whether it should review the
records to determine if any other I-20s should be pulled from the process and not returned to
the school. To ensure that the 140,000 I-20s currently being held by ACS are not
excessively delayed, the INS should expeditiously determine the criteria needed to assess the
I-20s and complete the review process once it decides to review the I-20s.
    147
         During our recent interviews at ACS (which occurred after the changes went into
effect), we were told by some of the operators that they only processed originals. We were
(continued)

                                            167
     B.     Database checks before I-539s are adjudicated
      In the INS Headquarters memorandum to the field dated March 18, 2002,
the INS introduced processing changes not only for I-20s but also for the
adjudication of I-539 applications. The memorandum directs that before
adjudication, all I-539s must be checked against certain INS databases. As
discussed previously, in the past, adjudication of I-539 change of status
applications consisted primarily of a review of documents to ensure that the
applicant timely filed the application and submitted the appropriate documents.
No databases were required to be queried for possible derogatory information,
such as a criminal history or departures since the application had been filed.
The INS now requires that in every case the adjudicator must check the
Nonimmigrant Information System (NIIS) and the Interagency Border
Inspection System (IBIS) and that the file must reflect evidence that the check
has occurred. Below we discuss each new requirement individually and our
assessment of its implementation and impact on the adjudications process.

            1.   Check of NIIS database
      With respect to NIIS, adjudicators must now query NIIS for all I-539 and
      148
I-129 applications and include a copy of the printed record in the file or an
indication in the file that NIIS was checked and no record was found. INS
guidance also states that the I-94 admission number of the applicant must be


(continued)
concerned that this meant that the ACS operators were not aware that the service centers
were now sending copies to ACS for processing. We suggested to INS Headquarters
personnel that they ensure that ACS was implementing the changes that INS had announced
and that ACS was not waiting for the contract modification to be put into place. INS
personnel told us on April 12, 2002, that ACS was processing the copies being sent from the
service centers. ACS personnel told us that they had not been notified of the change in
procedures until April 8, 2002 (approximately three weeks after the changes went into
effect), when a senior ACS manager called INS to find out why they were getting so many
copies of the I-20.
    148
         I-129 applications are applications used by employers seeking either an extension of
stay for a previously admitted nonimmigrant on an emplo yment-related visa or a change in
status for a nonimmigrant who seeks an employment-based status. The dependents of the
person holding the nonimmigrant employment-related visa who seek to change or extend
their status must file I-539 applications.




                                            168
entered into the “I-94 Number” field in CLAIMS prior to final adjudication.
The guidance also states that if the NIIS record establishes that a departure
from the United States occurred after the I-539 was filed, the I-539 application
should be considered abandoned and must be denied.
       We believe that requiring the adjudicator to check NIIS before approving
a change of status application is a prudent step. Whether this new requirement
is effective, however, depends on the extent to which NIIS data is
comprehensive, accurate, and timely. A prior OIG review in September 1997
revealed that NIIS suffers from several systemic problems that limit the
effectiveness of the database. See “Immigration and Naturalization Service
Monitoring of Nonimmigrant Overstays,” Report Number I-97-08, September
1997. In particular, we found that information about departure records is not
always entered into NIIS and that the information that is uploaded is not
always accurate. We recently completed a follow-up review in which we
found that the INS had not improved the collection of I-94 departure records
and that NIIS data is still unreliable. See “Follow-up Report on INS Efforts to
Improve the Control of Nonimmigrant Overstays,” Report Number I-2002-006,
April 2002. The requirement to check NIIS will only be effective if the NIIS
data is accurate.

           2.   Check of the Interagency Border Inspection System
      The INS’s March 18 memorandum requires adjudicators to check all I-
539 applications through IBIS before rendering a final decision. 149 The
memorandum also requires adjudicators to include a notation on the application
with the results of the IBIS check and the date the check was performed. At
the time that the March 18 memorandum was issued, adjudicators in the TSC
did not have access at their workstations to IBIS and were not trained on how
to use it. In the last few weeks, however, adjudicators at the TSC have been


    149
        After reviewing the draft report, a senior INS Headquarters official informed the
OIG that service centers had been conducting IBIS checks of several types of applications,
including I-539s, since January 2002 and provided the OIG with an INS Headquarters
memorandum to the field dated November 15, 2001. Although the November 15
memorandum required IBIS checks on certain applications processed in the service centers,
the memorandum did not include I-539 applications. The OIG confirmed with the TSC that
IBIS che cks on I-539 applications have been performed only in the last several weeks.




                                           169
provided with user accounts on IBIS and have received training on how to use
it. 150
      In addition to access to IBIS though, CAOs must have guidance about
what to do with the information uncovered through the IBIS check. The March
18 memorandum states that “[I]n the event that the IBIS check results in a
positive hit, the issue must be resolved prior to the case being approved” and
“additional instructions on resolution of positive hits will follow under separate
cover.” As of May 10, 2002, the INS had not issued any further instructions on
how to resolve the issue. I-539 application processing has been slowed down
significantly since March 18 while the service centers were waiting for access
to and training on IBIS for CAOs. The processing continues to be affected
while they await guidance from INS Headquarters on how to resolve cases in
which a “hit” appears in IBIS. In the interim, thousands of applications are
continuing to be received, and backlogs are growing. 151 As discussed below,
with regulatory changes that will require the INS to maintain a 30-day
processing time for I-539s, it is crucial for the INS to resolve the IBIS issues
expeditiously.

           3.   Performance standards for CAOs
       As noted previously, service center adjudicators did not routinely check
NIIS, in part because there was no requirement or practical incentive to do so.
In fact, the production pressure faced by CAOs created a disincentive to
checking NIIS. Requiring CAOs to now make two copies of the I-20s, to mail
the school copy of the I-20, to complete a NIIS check and put a printout in the
file, and to check IBIS and put a printout in the file will add to the time it takes
to process each application. While each check may only take a few minutes,
provided CAOs have access to everything they need (such as address labels
and IBIS), adjudicators are expected to process each application in 7 to 10
minutes, and a small increase in time on each application may have a

    150
         In the TSC, a significant percentage of CAOs work from home, but due to security
restrictions IBIS cannot be placed on their workstations at home. The INS is attempting to
acquire access for CAOs who work at home.
    151
       While I-539 applications consist of only six percent of the total applications
processed by the service centers, the INS adjudicated 305,124 I-539 applications in FY
2001.




                                           170
significant impact in total. If the performance ratings for CAOs do not account
for the added time to process applications, CAOs will continue to have a
disincentive to conduct thorough searches and follow up on possible leads.

III. Proposed regulatory changes
      The Department of Justice and the INS have proposed and are
considering additional proposals for regulatory changes in light of the events of
September 11. Below we address some of the proposals that most directly
affect the INS’s interactions with foreign students. The proposed regulations
that we discuss reflect an important shift in philosophy in the INS’s treatment
of nonimmigrant students and visitors. As a practical matter, foreign students
who wanted to avoid the consular process for obtaining a student visa could
enter the United States through some other means and not receive close
scrutiny when filing an application for a change of status. The proposed
regulations appear to be aimed at more closely assessing the intent of
nonimmigrants and their purposes for entering the country and providing the
INS with greater control over the ability of aliens to change their nonimmigrant
status. The question remains whether this change in philosophy can be
effectively implemented by inspectors at ports of entry and adjudicators at the
service centers.

     A.    Proposed change: Aliens who enter the country without a
           student visa may not begin a course of study until their I-539
           petition for change of status to student has been adjudicated
           favorably.
      In the past, federal regulations specifically allowed a nonimmigrant to
begin taking classes before acquiring student status from the INS.152 A recent
interim rule eliminates this provision. The new rule provides that
nonimmigrants admitted in B-1 or B-2 status after the effective date of the rule
will not be permitted to enroll in school unless the INS has notified the
nonimmigrants that their change of status application has been approved.


    152
         Section 248.1(c) of Title 8 stated: “A nonimmigrant applying for a change to
classification as a student under sections 101(a)(15)(F)(i) or 101(a)(15)(M)(i) of the Act is
not considered ineligible for such a change solely because the applicant may have started
attendance at school before the application was submitted.”




                                             171
      The previous rule avoided penalizing students and schools for INS delays
in adjudication of change of status applications. Because of those delays,
adjudication in many cases only ratified a change of status that had already
occurred. However, mandating that a change of status application be
adjudicated before a student is permitted to begin class should be accompanied
by a timely decision by the INS on the application. Recognizing this, the INS
has stated its commitment to making timely decisions in 30 days or less.
       While this proposed regulation has been in the drafting process for the
last several months, the INS has made considerable efforts toward decreasing
the processing times for I-539s to 30 days. I-539s have been designated one of
the “priorities” for the INS in FY 2003. In January and February 2002, service
centers were reporting processing times between 17 days and slightly more
than 3 months.
       Although the INS recently directed significant resources toward the I-539
program and has decreased processing times significantly, we are concerned
that once this current “crisis” with respect to I-539s has subsided, the
processing times may rise again. 153 The only way to avoid an increase in
processing times is for the INS to ensure that sufficient numbers of
adjudicators are available to adjudicate I-539 applications and that they are
given the necessary access to IBIS, training, and guidance. We are concerned
that the INS will not be able to achieve such a massive and sustained change in
processing.
       If the INS is not able to process change of status applications timely,
students may miss the start of their desired course of study. The INS then has
to either authorize the students to remain in the country until the next term,
which may be longer than authorized by their original admission, or require


    153
         We noted in a prior report that the INS sometimes resolves a crisis in one area by
transferring resources from other areas. In the OIG’s report on the INS’s 1996
naturalization initiative called “Citizenship USA” (CUSA), a progr am that was designed to
address huge backlogs in the naturalization program, we described the effect that INS’s
emphasis on completion of naturalization cases had on other INS benefit programs, such as
the adjustment of status program (the process through which an applicant becomes a legal
permanent resident in the United States and obtains a “green card”). We found that the
adjustment of status program, which had significant backlogs at the time, suffered during
CUSA because of the INS’s extraordinary emp hasis on naturalization.




                                            172
students to depart when their original status expires (or risk being an overstay)
and apply again from abroad through the Department of State. This could
impose a financial hardship on some students or result in schools allowing
students to start classes before they receive the I-20 notifying them the student
has been approved. We believe the INS must consider how these students will
be handled and what alternative arrangements will be made, rather than waiting
for problems to arise and attempting to address them in an ad hoc fashion.

     B.   Proposed change: A visitor entering the country must articulate
          reasons that would support a length of stay longer than 30 days,
          and if the visitor cannot the default admission period will be 30
          days.
      The proposed regulations, as we understand them, would also reduce the
maximum admission period for visitors from one year to six months, would
eliminate the 6-month minimum admission period for B-2 visitors that
currently exists, would establish a default admission period of 30 days, and
would set a 6-month maximum for all extensions of B visas. These proposed
changes, although not explicitly related to nonimmigrants who want to become
students in the United States, will likely affect those students and change of
status applications that relate to those students. Before we discuss that impact,
we first address the proposed change and its implementation in the INS.
       The OIG was advised that while the proposed change sets 30 days as a
default for tourists, it also gives immigration inspectors at POEs the discretion
to authorize a stay that is “fair and reasonable” for a period up to a maximum
of six months. When immigration officers have broad discretion and little
guidance on how to exercise that discretion, policies vary considerably among
POEs, service centers, and district offices. Failure to provide clear and detailed
guidelines to assist inspectors in exercising their discretion will likely result in
authorized lengths of stay that vary considerably among POEs and may induce
“forum shopping” among nonimmigrants. In addition, if the purpose of the
regulation is to ensure that the majority of visitors are admitted for 30 days or
less, then inspectors must be given guidance about what statements of intent
will be acceptable for admitting the nonimmigrant past the 30-day default.
Without sufficient guidance, a vague statement of the purpose by the visitor
could be deemed acceptable and the exception would swallow the rule.
     The proposed change may decrease significantly the number of foreign
students who enter with visitor visas and pursue an education on a part-time


                                       173
basis, since it is difficult to complete college classes or other schooling in 30-
day increments. In addition, the proposed change could reduce the number of
I-539s filed by nonimmigrants seeking to change their visitor status to that of
students. It would be difficult for a person who entered the country with the
intent of visiting temporarily to find a college or school, to apply to the school,
and to be accepted during the 30-day period. A visitor in this situation would
have to return home and apply for a student visa through the consular process
to become a student.
      Finally, according to the prefatory language to this proposed regulation,
the INS implemented the 6-month minimum admission period several years
ago to reduce the number of I-539s filed to obtain an extension of stay. The
30-day presumptive admission period will likely result in a significant increase
in the number of I-539s filed for an extension of stay, thereby increasing the
pressure on the INS to ensure that adequate resources are maintained for the I-
539 program to keep processing times to a minimum.

     C. Proposed change: Require prospective foreign students to
        demonstrate their intent to attend school at the time they are
        admitted on a B-1/B-2 visa in order to be eligible later to seek a
        change of status to F-1 or M-1.
      As discussed in other parts of this report, when nonimmigrants enter the
country, their purpose for being here is supposed to match the type of visa they
hold. In other words, individuals who enter with the intent to become full-time
students in the United States should obtain a student visa before coming to the
United States. At the same time, the law allows nonimmigrants to come for
one purpose, such as pleasure, then change their minds and decide to attend
school. Also, individuals are allowed to come with the intent of visiting for the
purpose of selecting a school or educational program.
      According to the INS, it prefers that nonimmigrants acquire student
status through the consular process in the person’s home country. The
Department of State is by design the principal route for aliens seeking
nonimmigrant visas, and consular officials are better suited to scrutinize the
alien’s intentions than an inspector at a port of entry or a service center
adjudicator.
     The INS has therefore proposed requiring prospective students to
demonstrate their intent to become students at the time they are admitted on
B-1/B-2 visas, in order to be eligible to acquire a change of status. The effect

                                       174
of this proposed change would be to create a new visa category for
nonimmigrants entering the country as prospective students. While this
proposed change would assist the INS in identifying those visitors who are
likely to later file change of status applications asking to be students, it is
unlikely to substantially assist in the effort to keep out aliens who are intent on
avoiding the screening process provided by the State Department.
       As we understand the proposed process, three scenarios are possible: (1)
a foreign student is accepted to a school in the United States and obtains an M-
1 or F-1 visa through a consulate outside the United States; (2) an alien enters
the United States as a visitor but decides to become a student and files an
application for a change of status; if the alien did not indicate upon entry that
he or she might become a student, then the application would be denied; and
(3) a foreign student who enters as a visitor indicates at the time of entry that
he or she is a “prospective student”; if the student files a request for a change
of status, it will likely be granted. With respect to this last scenario, if the goal
is to ensure that most foreign students are screened by the State Department,
then allowing a large number of individuals in this category would undermine
this goal. 154
       We are unable to evaluate this proposal fully because we do not know the
intent behind the proposal. Whatever the intent behind the proposal, however,
the INS should define “prospective student” to achieve the intent. The INS
should also decide whether aliens must submit documentation in support of
their assertion that they are prospective students, such as acceptance letters or
offers of scholarships, or whether something less will suffice, such as a
statement that they have been accepted to a school. 155 Guidelines must also be

    154
        Another possibility is to have the State Department issue a new visa category for
“prospective students” that would cover individuals who are likely to become students, but
who, for various reasons, want to visit the United States before they enroll at a particular
school. Visitor visas can already be noted with “prospective student,” but many people have
visas that are valid for several years and might not know when they obtained the visa that
they wanted to go to school in the United States. A new visa category for prospective
students would ensure State Department screening and would allow true prospective
students to obtain student status while avoiding the financial burden of leaving the United
States after a school is selected in order to obtain a student visa.
    155
        Although the proposed regulation states that aliens who have been accepted to a
school and have an I-20 must present the I-20 to the inspector, the regulation does not state
(continued)

                                             175
provided to inspectors regarding issues such as whether the entering alien must
volunteer the information about prospective student status or whether the
inspector is required to ask the question. Even more important, for this
proposed process to work at all, there must be some system in place for
ensuring that the inspector’s determination that the alien meets the “prospective
student” definition is consistently recorded on the I-94 and for ensuring that
this information is provided to the I-539 adjudicators should the prospective
student later file for a change of status.156
      We note that while INS officials stated that the INS prefers that
nonimmigrants acquire student status by obtaining a student visa through the
consular process, the law provides for several exceptions to the requirements
that nonimmigrants present valid visas at each entry. For example, Canadian
nationals and aliens residing permanently in Canada who are from countries
deemed to have a “common nationality” with Canada are not required to
present a visa when entering the United States.157 According to the INS, 54
countries have a “common nationality” with Canada, including India and
Pakistan. This exception means that aliens from Canada who will be students
in the United States are not required to obtain or present student visas to enter
the United States.158


(continued)
what other evidence, if any, will be acceptable for aliens to establish “prospective student”
status.
    156
        The back of the I-94 arrival form has a box labeled “prospective student,” which can
be marked by the inspector at the time of entry. According to ACS, this information is data
entered and is captured in NIIS. However, we found that adjudicators were not familiar
enough with NIIS to know how to access this information.
    157
        This exception is in addition to the INS’s Visa Waiver Program, another avenue
through which large numbers of foreigners enter the United States without visas. The Visa
Waiver Program permits aliens from 28 countries to enter the United States without visas for
business (B-1) or tourism (B-2) purposes. Aliens from countries designated as part of the
Visa Waiver Program entering for the purpose of going to school full time are required to
obtain a student visa.
    158
        Schools in the United States issue I-20s to students from Canada who are accepted
by the schools, and according to the INS website, Canadian students are required to present
the I-20s at the border. Neither the law nor the Inspector’s Field Manual, however, is clear
about whether aliens from Canada who are entering the United States to attend school full
(continued)

                                             176
     D. Proposed change: Require flight schools to initiate background
        and fingerprint checks when a student seeks to learn how to fly a
        plane over 12,500 pounds.
       As we understand this proposed regulation, flight schools and other
providers of flight instruction will be required to initiate a background check
for all students who enroll in programs to learn how to fly a plane over 12,500
pounds and that instruction cannot begin until the background check has been
completed. Currently, foreign students are issued I-20s after they have been
accepted to a school but before instruction begins. Once foreign students have
been issued I-20s, they are eligible to apply for a student visa or a change of
status. If foreign students apply for a change of status before the background
check is completed, then the INS must ensure that the results of the background
check are obtained before the application is adjudicated.




(continued)
time are required to present an I-20 upon entry. Section 15.3(g) of the Inspector’s Field
Manual states: “Students or trainees who are nationals of [Canada] may be admitted upon
presentation of a valid identity card and a passport (for identification purposes).” If
Canadian students do not present I-20s at the border – which means school copies of I-20s
are not collected and sent for data entry – the INS has no means of identifying or tracking
Canadian students. Even once SEVIS is implemented and the I-20 information is directly
entered into SEVIS, the INS will not be able to track information about the status of
Canadian students unless they are required to present an endorsed I-20 to enter the United
States on each occasion.




                                            177
                            CHAPTER EIGHT
                         RECOMMENDATIONS
I.   Introduction
      Our review found that the INS functions without vital information about
foreign students and nonimmigrants who have applied to change their status to
that of students. Inspectors, adjudicators, and investigators are making critical
decisions about aliens without having access to fundamental information that
would affect their decisions. We also found that the INS has failed to
adequately manage or pay sufficient attention to the foreign student program
for many years. One of the factors inhibiting a coordinated approach to the
foreign student program is that management of the program is fragmented. We
found that responsibility for foreign students is divided among several different
offices and programs in the INS and that no one person or office in the INS had
a complete understanding of the requirements for foreign students and the
processes through which they are permitted to enter and study in the United
States. While we recognize that the INS is a large agency handling many
different programs and missions, the result of this fragmentation is that there is
not sufficient accountability for a program that admits approximately 500,000
aliens into the country every year.
      Since September 11, 2001, the INS’s need to focus attention on foreign
students has changed dramatically. In the past, the INS’s philosophy has
strongly favored admitting foreign students and viewed them as relatively low
risk. As a result, INS procedures allowed students to avoid screening processes
and to remain in the country essentially unmonitored. Since September 11,
however, there appears to have been a shift in philosophy regarding foreign
students. Tighter regulatory controls have been proposed to make it more
difficult to achieve student status and to scrutinize persons entering the country
who might later attempt to become students. Also Congress has mandated that
the INS implement its automated tracking system for students and schools,
SEVIS, by January 1, 2003. And, since March 15, 2002, the INS has
implemented procedural changes that will result in greater scrutiny of change
of status applications for persons who want to become students. Despite these
major changes affecting the foreign student program since September 11,
however, the INS continues to operate the program without an overall plan for
coordinating the various parts of the program.



                                       178
II. Recommendations
      In this chapter, we make numerous programmatic recommendations that
we believe will improve the foreign student program and increase the INS’s
knowledge about foreign students. Before we discuss these recommendations,
however, we set forth our recommendations concerning the INS’s management
of the foreign student program.

     A.   Management of the foreign student program
      Our experience with the INS is that changes are sometimes made to fix
one aspect of a program that is in crisis but that insufficient attention is paid to
the consequences for other parts of the program. The fragmentation of
management over the foreign student program contributes to that result. We
believe that the INS should consider whether a foreign student program
manager should be appointed to coordinate, and be accountable for,
immigration issues affecting foreign students. We recognize that the INS has
many other nonimmigrant categories in addition to students, and it may not be
feasible to have a program manager for only foreign students. But the policy
and practices affecting foreign students is a critical challenge facing the INS.
Currently, those issues are handled by many different offices within the INS,
resulting in inconsistent policies, lack of accountability for the program, and
failure to carefully and systematically consider the impact of changes on the
program.

     B.   Recommendations that affect all foreign students

          1.   Implementation of SEVIS
       The INS plans to implement SEVIS by the end of January 2003. In order
for SEVIS to be successful, the INS should ensure that all schools are reviewed
and approved before allowing the schools access to SEVIS. Failure to do so
will, among other consequences, result in the new SEVIS system containing
the same flawed, inaccurate data as its current system. Yet, the INS is
woefully behind in accomplishing this mammoth task. Given the improbability
that it will be completed by January 2003 (since the required proposed rule
change has not yet been published), the INS should decide soon on an
alternative plan, including determining how it will proceed in January 2003 if
schools are not re-certified, a reasonable time schedule for re-certifying the
schools, and an implementation plan for achieving the timetable. Regardless of


                                        179
the time pressure, we believe that the INS should not proceed without
reviewing all of the schools currently authorized to issue I-20s.
       Any re-certification plan must also resolve who will be responsible for
conducting the re-certifications, provide adequate written guidelines on
conducting the re-certifications, and provide adequate training to those
responsible for performing the re-certifications. We believe that the re-
certification process should include site visits and follow-up on questionable
information submitted by schools.
       Sufficient resources must be devoted to the re-certification process. We
believe that the INS should establish a unit within each district office
responsible for conducting on-site verifications of the INS-approved schools.
Full-time schools officers will be needed, instead of personnel who have the
responsibility as a collateral duty. These units could conduct the initial
certifications (in connection with the transfer to SEVIS) and re-certifications
that should be established at regular intervals thereafter. The INS must
continue to monitor and review the schools, since schools lose accreditation,
change their objectives, and sometimes engage in fraud. The INS should
ensure that audits are conducted of approved schools to determine whether
proper internal controls are in place and that data is being entered into SEVIS
completely, accurately, and timely.
      In addition, the INS should decide what office or division will be
responsible for analyzing the data that is collected in SEVIS. To fully use
SEVIS’s capabilities, the INS needs to assign personnel and establish policies
and procedures to take advantage of this analytic function. We believe full-
time field positions in INS adjudications, intelligence, and investigations will
also be necessary to monitor foreign student and school activities to identify
those students who are no longer enrolled or who may be engaging in fraud.159
The information is only useful if it used by the INS.
     To ensure that adequate personnel are available to devote to re-certifying
and monitoring INS-approved schools and foreign students, we recommend


    159
       Congress, through the Enhanced Border Security and Visa Entry Reform Act of
2001, has mandated that the INS increase the number of investigative and associated support
personnel. The Reform Act requires the addition of at least 1,000 investigators and support
personnel over the next five years.




                                           180
that the INS establish fee-based positions funded out of the processing fee that
will eventually be charged to foreign students.
     The INS must also develop a plan for training both INS employees and
school employees on how to use SEVIS. Having all of the schools certified
and approved to use SEVIS will not be effective without adequate training.
The INS should develop a timetable for implementing training and an
implementation plan for carrying out the training.
      SEVIS cannot work unless the necessary offices and personnel are
connected to SEVIS, including service centers, POEs, district offices, and
consular posts. Without these connections, information about foreign students
and schools will be incomplete since changes of status, visa issuances,
employment authorizations, reinstatements, and entries and exits will not be
captured. The INS should devote the resources necessary to ensure that all
offices are connected to and are able to use SEVIS as quickly as possible.

          2.   Defining “prospective student”
       The INS is proposing regulations that would require visitors to have
declared that they are prospective students at the time they entered the country
in order to be eligible to change their status at a later date. For this regulation
to be meaningful, the INS must first determine what the regulation is designed
to achieve. If the objective is to reduce the potential for persons to avoid the
State Department screening process by entering as a visitor and then changing
to a status of longer duration, the INS must evaluate what requirements will
accomplish that objective and, just as important, the logistics of the new
process. The INS, working with the State Department, should also define
“prospective student.” The INS should decide whether aliens will be required
to submit documentation in support of their assertion that they are a
prospective student, such as acceptance letters or offers of scholarships, or
whether something less will suffice, such as a statement that they have not yet
applied to any schools but plan to after visiting several. It is equally important
for the INS to ensure that change of status adjudicators in the service centers
are aware of how to access the “prospective student” information recorded in
NIIS.

          3.   Capturing information about part-time students
      The law as it currently stands allows visitors to attend classes on a part-
time basis. The INS, however, does not currently collect information about


                                        181
these students or otherwise monitor them, nor does it plan to collect this
information once SEVIS is implemented. Schools that offer courses on a part-
time basis will not be included in SEVIS unless they also have full-time
programs and want to be certified to accept foreign students. These include
schools such as flight schools and trucking schools, which often do not provide
the minimum number of course hours per week that would place the school
under the INS’s monitoring system for full-time students.
     To increase the effectiveness of its monitoring of and collecting
information about foreign students, part-time students should also be
monitored. While we recognize that collecting information about every visitor
who enrolls in a class or a short course of study would impose a significant
burden on the INS, we believe that the INS should take steps to determine what
information about these students and schools should be collected.

    C. Recommendations that affect nonimmigrants who wish to change
       their status to that of a student

         1.   Adequate resources to ensure processing of I-539
              applications in 30 days
      The INS must ensure that it devotes the resources necessary to maintain a
fast processing time for I-539 change of status applications in order to avoid
penalizing foreign students. Equally important, however, the INS must
determine how it will handle nonimmigrants who have applied to become
students but whose applications have not been adjudicated prior to the start of
their classes. The INS should advise I-539 applicants for student status of the
requirement that their applications must be completed prior to beginning school
and also advise them of the procedure to be followed if the INS has not
completed their application prior to the start of school. This procedure should
also be communicated to the schools.
      Currently, the INS has no formal procedure for schools to contact the
service centers about pending I-539 applications. While some service centers
designate an employee as a point of contact, it is a collateral duty and is not
clearly defined. The INS should, as part of its overall management of foreign
students, designate a person or an office within the service centers with the
responsibility of communicating with schools and establish a procedure for
accomplishing this objective.



                                      182
          2.   IBIS checks
      The INS should develop clear and specific guidance for service center
adjudicators on how information from IBIS checks will affect the adjudication
decision, including information about previous overstays, immigration
violations and criminal histories. The adjudicator should be informed about
what steps to take if it is not clear that the applicant is the subject of the “hit” or
“lookout” in IBIS.

     D. Recommendations that affect immigration inspectors

          1.   Abandonment of I-539 applications
       Aliens who have applied for change of status or upon whom student
status has been conferred are deemed to have abandoned their application or
their student status when they leave the country. In other words, they are not
permitted to return for the primary purpose of attending school without getting
a student visa from a United States consulate. Yet, primary inspectors at the
POEs currently have no way of determining whether aliens are improperly
using a B-1/B-2 visa as a means of avoiding the State Department process,
unless aliens volunteer to the inspectors that they have applied for or received a
change of status.
      Accordingly, the INS should ensure that primary inspectors have
adequate information to verify the alien’s statement of intent to the inspector.
SEVIS should be designed so that the primary inspector will be notified as part
of the routine check performed at the POEs that an alien has filed an I-539 to
become a student or has already been conferred student status through the I-
539 process. A secondary inspector can then evaluate whether the student is
improperly attempting to enter the country using a B-1/B-2 visa or whether he
or she is no longer attending school and is perhaps a legitimate visitor.
      We also believe that the instructions to the I-539 application should
inform applicants that if they leave the country while their application is
pending, they will be considered to have abandoned the application. Likewise,
the instructions should inform the applicants that once the new status is
conferred, they lose that status if they leave the country and will be required to
obtain student visas to re-enter.




                                         183
          2.   I-193 waivers
      The INS should restate its policy with respect to I-193 waivers and
ensure that primary inspectors understand and consistently enforce the waiver
policy and its limitations. Although currently all waivers must be approved by
an assistant district director, the deputy district director or the district director,
this policy could be relaxed in the future. Once this occurs, the Inspections
Division in the district offices will again be responsible for issuing and
deciding waivers and will need to be better informed about the circumstances
under which these waivers are acceptable. Clear guidance should be re-issued
to inspectors about what is considered an emergency that can result in the
issuance of a waiver.

     E.   General recommendations

          1.   Performance standards for CAOs
       The INS’s current performance standards for CAOs were prepared when
changes in nonimmigrant classifications and extensions of stays were
adjudicated based on a paper review designed to ensure that proper
documentation had been properly filed. The INS is now requiring IBIS checks
for all I-539 applications and several other applications, which suggests a shift
toward more of a screening process for certain types of benefits rather than
simply eligibility based on meeting documentary requirements. As a result, the
INS should also change CAOs’ performance standards to allow more time to
review files and seek additional information. At a minimum, in light of the
new processing requirements described in this report, we recommend that the
INS reconsider the performance standards for CAOs and adjust the standards to
accommodate the additional time that will be spent by CAOs implementing
these new processing requirements.

          2.   INS policies
      We have noted in this report and in other reports problems with INS
policies not being known, written, widely disseminated, or uniformly enforced.
Although the INS’s field manuals are a logical repository for policies and
procedures, the Inspector’s Field Manual and the Adjudicator’s Field Manual
are not comprehensive or complete. In addition, we found that adjudicators
and inspectors are not made aware of changes to the manuals, if they are even
aware of them and what they contain. Policies distributed via memorandum to


                                         184
the field often never reach line inspectors and adjudicators. As a result, field
offices develop their own practices that are sometimes inconsistent with INS
policy or the law.
      The INS’s systems for disseminating policy memoranda and changes and
for ensuring that line employees become aware of and are required to enforce
these policies needs improvement. We recommend that the INS expeditiously
complete and update its field manuals. In addition, it should implement a more
effective system for disseminating policies and procedures other than sending
the documents to the head of a field office. Only if the INS has a system in
place that ensures that policies and changes are received and understood can
employees be held accountable for not following them.
     In order to assist our tracking and monitoring of these recommendations,
we set them out numerically in the Appendix at A-12.




                                       185
                             CHAPTER NINE
                              CONCLUSION
       The INS suffered a firestorm of criticism when it was disclosed that six
months after the September 11 terrorist attacks Huffman Aviation received
forms notifying it that terrorists Mohamed Atta and Marwan Alshehhi had
received approval to change their status to that of students. Although the forms
were only a notification of a decision that had been made several months
before September 11, the mailing of these forms raised troubling questions
about the INS’s handling of Atta’s and Alshehhi’s change of status
applications. More importantly, it raised serious concerns about the INS’s
ability to monitor and track foreign students in the United States.

      The OIG therefore expended significant resources to review the
circumstances surrounding the sending of the forms to Huffman Aviation,
including the source of the delay and the failure to stop delivery of the forms
after September 11. We also examined the INS’s admissions of Atta and
Alshehhi into the United States, and we expedited our broader review of the
INS’s tracking and monitoring of foreign students who come to the United
States, including SEVIS, the INS’s new computerized student tracking system.

      With regard to all but one of Atta’s and Alshehhi’s entries into the United
States, we concluded that the evidence does not show that the inspectors who
admitted them acted in violation of INS policies and practices. We were
unable to reach any definitive conclusion whether Atta’s admission in January
2001 was improper, given the limited record relating to the admission and the
inspector’s inability to remember the specifics of what was said at the time.
We found that before September 11, the INS did not closely scrutinize aliens
entering the country to become students and did not uniformly require foreign
students to present the required documentation before entering the United
States.

       Our review of the INS’s processing of Atta’s and Alshehhi’s change of
status applications revealed significant problems. First, the INS did not handle
their applications in a timely way, taking more than 10 months before
adjudicating the applications. As a result, Atta’s and Alshehhi’s applications
were not adjudicated until well after they had finished their flight training
course. Second, the INS adjudicator who approved their applications did so


                                      186
without adequate information, including the fact that Atta and Alshehhi had left
the country two times after filing their change of status applications, which
meant they had abandoned the applications. Even after approval of the
applications, Huffman Aviation was not notified for seven months because the
INS allowed an INS contractor to wait 180 days before mailing notification
forms to schools. We found that the INS failed to adequately supervise the
contract and was inattentive to the contract’s requirements.

      We are critical of the INS’s failure to alert the FBI to the existence of
Atta’s and Alshehhi’s I-20 forms after the September 11 attacks. Although the
INS quickly determined on September 11 that it had already approved Atta’s
and Alshehhi’s change of status applications and it gathered the change of
status files for the FBI, no one in the INS located – or even considered – the
notification forms that were being processed by the INS contractor. As a
result, the forms continued to be processed and were later routinely mailed to
Huffman Aviation. In our judgment, this was a widespread failure by many
individuals in the INS.

       Atta’s and Alshehhi’s case also highlights important weaknesses in the
INS’s handling of foreign students. Historically, the INS has devoted
insufficient attention to foreign students, and its current, paper-based tracking
system is inefficient, inaccurate, and unreliable. SEVIS, the new Internet-
based system the INS is developing, has the potential to dramatically improve
the INS’s monitoring of foreign students. But we found that it will not solve
all the problems in the INS’s monitoring system.

       Unless the INS devotes sufficient resources and effort to effectively
implement and use the SEVIS system, many problems will continue to exist.
Among other things, the INS must ensure that it fully reviews the schools
certified to enroll foreign students, make certain that accurate and timely
information is entered into SEVIS, provide and enforce clear guidance for INS
officers and schools about their responsibilities and the procedures related to
foreign students, require that school officials and INS employees are trained
properly on these requirements and procedures, and ensure that information in
SEVIS about schools and students is effectively used by the INS to detect and
deter abuse.

      In this report, we offer 24 recommendations to help address the problems
that Atta’s and Alshehhi’s cases highlighted and that our review of the INS


                                       187
foreign student program revealed. We believe that these recommendations will
improve the usefulness of SEVIS and help address the serious deficiencies we
found in this review. While many of these recommended changes will require
additional resources, we believe these efforts are necessary for the INS to
improve its handling and monitoring of foreign students.



                                          ________________________
                                          Glenn A. Fine
                                          Inspector General




                                    188
A-1
Statistics provided by JFK inspections personnel reflect the drastic recent
decline in nonimmigrant waivers for air and sea passengers after September 11,
2001:


          Month               JFK Airport        JFK Seaport
          10/00               65                 35
          11/00               84                 0
          12/00               116                44
          01/01               152                63
          02/01               126                72
          03/01               111                38
          04/01               130                64
          05/01               122                58
          06/01               132                58
          07/01               141                44
          08/01               128                34
          09/01               136                22
          10/01               54                 0
          11/01               40                 0
          12/01               23                 0
          01/02               7                  1
          02/02               0                  0
          03/02               0                  0




                                     A-2
A-3
A-4
A-5
A-6
A-7
A-8
A-9
A-10
A-11
           LIST OF RECOMMENDATIONS


1.   The INS should consider whether a foreign student program
     manager should be appointed to coordinate, and be accountable
     for, immigration issues affecting foreign students.
2.   The INS should review and approve all schools currently
     authorized to issue I-20s before allowing the schools access to
     SEVIS. Given the improbability that it will be completed by
     January 2003 (since the required proposed rule change has not yet
     been published), the INS should decide soon on an alternative plan,
     including determining how it will proceed in January 2003 if
     schools are not re-certified, a reasonable time schedule for re-
     certifying the schools, and an implementation plan for achieving
     the timetable.
3.   The plan to re-certify all schools prior to implementing SEVIS
     must also resolve who will be responsible for conducting the re-
     certifications, provide adequate written guidelines on conducting
     the re-certifications, and provide adequate training to those
     responsible for performing the re-certifications and making site
     visits.
4.   The INS should establish a unit within each district office
     responsible for conducting on-site verifications of the INS-
     approved schools. Full-time schools officers will be needed,
     instead of personnel who have the responsibility as a collateral
     duty.
5.   The INS must continue to monitor and review the schools, since
     schools lose accreditation, change their objectives, and sometimes
     engage in fraud.
6.   The INS should ensure that audits are conducted of approved
     schools to determine whether proper internal controls are in place
     and that data is being entered into SEVIS completely, accurately,
     and timely.
7.   The INS should decide what office or division will be responsible
     for analyzing the data that is collected in SEVIS. To fully use
     SEVIS’s capabilities, the INS needs to assign personnel and

                               A-12
      establish policies and procedures to take advantage of this analytic
      function.
 8.   To ensure that adequate personnel are available to devote to re-
      certifying and monitoring INS-approved schools and foreign
      students, the INS should establish fee-based positions funded out
      of the processing fee that will eventually be charged to foreign
      students.
 9.   The INS must also develop a plan for training both INS employees
      and school employees on how to use SEVIS. The INS should
      develop a timetable for implementing training and an
      implementation plan for carrying out the training.
10.   SEVIS cannot work unless the necessary offices and personnel are
      connected to SEVIS, including service centers, POEs, district
      offices, and consular posts. The INS should devote the resources
      necessary to ensure that all offices are connected to and are able to
      use SEVIS as quickly as possible.
11.   The INS is proposing regulations that would require visitors to
      have declared that they are prospective students at the time they
      entered the country in order to be eligible to change their status at a
      later date. For this regulation to be meaningful, the INS, working
      with the State Department, should define “prospective student.”
12.   The INS should decide whether aliens will be required to submit
      documentation in support of their assertion that they are
      prospective students, such as acceptance letters or offers of
      scholarships, or whether something less will suffice, such as a
      statement that they have not yet applied to any schools but plan to
      after visiting several.
13.   The INS should ensure that change of status adjudicators in the
      service centers are aware of how to access the “prospective
      student” information recorded in NIIS.
14.   To increase the effectiveness of its monitoring of and collecting
      information about foreign students, the INS should consider
      whether part-time students should also be monitored. While we
      recognize that collecting information about every visitor who
      enrolls in a class or a short course of study would impose a


                                A-13
      significant burden on the INS, we believe that the INS should take
      steps to determine what information about these students and
      schools should be collected.
15.   The INS must ensure that it devotes the resources necessary to
      maintain a fast processing time for I-539 change of status
      applications in order to avoid penalizing foreign students who are
      waiting for their applications to be adjudicated before starting
      school.
16.   The INS must also determine how it will handle nonimmigrants
      who have applied to become students but whose applications have
      not been adjudicated prior to the start of their classes.
17.   The INS should advise I-539 applicants for student status of the
      requirement that their applications must be completed prior to
      beginning school and also advise them of the procedure to be
      followed if the INS has not completed their application prior to the
      start of school. This procedure should also be communicated to
      the schools.
18.   The INS should, as part of its overall management of foreign
      students, designate a person or an office within the service centers
      with the responsibility of communicating with schools and
      establish a procedure for accomplishing this objective.
19.   The INS should develop clear and specific guidance for service
      center adjudicators on how information from IBIS checks will
      affect the adjudication decision, including information about
      previous overstays, immigration violations and criminal histories.
      Adjudicators should be informed about what steps to take if it is
      not clear that the applicant is the subject of the “hit” or “lookout”
      in IBIS.
20.   SEVIS should be designed so that the primary inspector will be
      notified as part of the routine check performed at the POEs that an
      alien has filed an I-539 to become a student or has already been
      conferred student status through the I-539 process so that primary
      inspectors can verify the alien’s statement of intent to the
      inspector.




                                A-14
21.   Instructions to the I-539 application should inform applicants that
      if they leave the country while their application is pending, they
      will be considered to have abandoned the application. Likewise,
      the instructions should inform the applicants that once the new
      status is conferred, they lose that status if they leave the country
      and will be required to obtain student visas to re-enter.
22.   The INS should restate its policy with respect to I-193 waivers and
      ensure that primary inspectors understand and consistently enforce
      the waiver policy and its limitations. Clear guidance should be re-
      issued to inspectors about what is considered an emergency that
      can result in the issuance of a waiver.
23.   The INS should change service center adjudicators’ performance
      standards to allow more time to review files and seek additional
      information. At a minimum, in light of the new processing
      requirements described in this report, the INS should reconsider
      the performance standards for service center adjudicators and
      adjust the standards to accommodate the additional time that will
      be spent by these adjudicators implementing the new processing
      requirements.
24.   The INS should expeditiously complete and update its field
      manuals. In addition, it should implement a more effective system
      for disseminating policies and procedures other than sending the
      documents to the head of a field office.




                                A-15
